<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



        DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR 2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON HOMELAND SECURITY
                     JOHN R. CARTER, Texas, Chairman

 ROBERT B. ADERHOLT, Alabama         DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas         LUCILLE ROYBAL-ALLARD, California
 RODNEY P. FRELINGHUYSEN, New Jersey HENRY CUELLAR, Texas
 TOM LATHAM, Iowa                    WILLIAM L. OWENS, New York
 CHARLES W. DENT, Pennsylvania       
 CHARLES J. FLEISCHMANN, Tennessee   

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Ben Nicholson, Kris Mallard, Valerie Baldwin,
                     Cornell Teague, and Hilary May,
                            Staff Assistants
                                ________

                                 PART 3

                     DEPARTMENT OF HOMELAND SECURITY
                                                                   Page
 Department of Homeland Security..................................    1
 U.S. Coast Guard.................................................  521
 U.S. Customs and Border Protection...............................  663



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 82-380                     WASHINGTON : 2013









                         COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\         NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia               MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia                PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey   JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                      ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama           JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                    ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho             DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas           LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida               SAM FARR, California
 JOHN R. CARTER, Texas                 CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana           SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California               BARBARA LEE, California
 JO BONNER, Alabama                    ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                    MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida            BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania         TIM RYAN, Ohio
 TOM GRAVES, Georgia                   DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                   HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas                CHELLIE PINGREE, Maine 
 ALAN NUNNELEE, Mississippi            MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska            WILLIAM L. OWENS, New York
 THOMAS J. ROONEY, Florida             
 CHARLES J. FLEISCHMANN, Tennessee     
 JAIME HERRERA BEUTLER, Washington     
 DAVID P. JOYCE, Ohio                  
 DAVID G. VALADAO, California          
 ANDY HARRIS, Maryland                 
   
 ----------
 /1/ Chairman Emeritus    

               William E. Smith, Clerk and Staff Director

                                  (ii)

 
                      DEPARTMENT OF HOMELAND SECURITY 
                          APPROPRIATIONS FOR 2014

                                 ___________

                                          Thursday, April 11, 2013.

     BUDGET HEARING--UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                                WITNESS

HON. JANET NAPOLITANO, SECRETARY, UNITED STATES DEPARTMENT OF HOMELAND 
    SECURITY

                     Opening Statement: Mr. Carter

    Mr. Carter. Today we welcome back Secretary Napolitano. 
That is a little loud, isn't it?
    Secretary, welcome. We are glad that you are here. We look 
forward to your testimony on the President's budget for this 
department and so that we can have homeland security for the 
fiscal year 2014.
    Madam Secretary, once again, DHS finds itself at a 
crossroads. As our budgetary constraints tighten and true 
threats to the homeland persist, DHS must find a way to 
accomplish its vital mission with increasingly scarce 
resources.
    Specifically DHS must find a way to adequately support its 
costly workforce and necessary operations including enforcement 
and also follow through on essential upgrades on border 
security technology, Coast Guard acquisitions, and necessary 
research.
    Budgeting for competing priorities with limited resources 
is not a new challenge. In fact, it has been the hallmark of 
the Appropriations Committee work since 1865. And that is why 
this subcommittee has adhered to three core principles since 
its establishment more than ten years ago.
    Unwavering support for our front-line personnel and 
essential operations is the first, secondly, clear alignment of 
funding to results and, finally, true fiscal discipline meaning 
we provide every dollar needed to Homeland Security but not a 
penny more.
    And that brings us to the department's budget request for 
fiscal year 2014, to recent events.
    First, your fiscal year 2014 budget prioritized and so it 
defies logic, more money for headquarters' consolidation and 
research, but deep shameful proposals to cut operations 
including a proposed reduction of 826 Coast Guard military 
personnel, a proposed cut of nearly 40 percent to Coast Guard 
acquisitions, a proposed reduction of 2,200 ICE detention beds, 
and a proposed reduction of more than 1,000 full-time positions 
in ICE resulting in substantial decreases to investigation and 
to everything from threats to national security to child 
exportation to cyber crime to drug smuggling.
    Secondly, what I have seen in the last few months, what I 
believe is apparent with this budget request is a complete lack 
of candor and that is something that as chairman I cannot and 
will not tolerate. I am not talking about information on 
internal policy deliberations or pre-decisional discussions 
with the Administration. I am talking about facts, facts about 
what things cost, the facts about actual performance.
    Madam Secretary, statutory mandates and reporting 
requirements within our bill are not flexible. They are the 
law. What I am getting at is the department's repeated failure 
to submit numerous required plans and reports on time. This 
includes nearly all the 12 reports and plans that were 
statutorily mandated to be submitted with the budget yesterday 
morning.
    Now, we did receive some late yesterday evening, I 
understand about three reports required, but quite honestly 
with the thousands and thousands and thousands of people that 
you have got over there in your department and the law 
requiring a priority date for the submission of these reports, 
I see no good excuse why you cannot find enough people that 
know how to do their job over there if they cannot get these 
reports put together.
    Furthermore, what I am getting at is the department's 
failure to answer basic factual questions about program cost 
and performance. We have asked repeatedly about mandatory E-
Verify costs. We have asked repeatedly about resource 
implications of the new USCS programs. We have asked for 
updated information about the department's sequester impacts 
given that the fiscal year 2013 appropriation bill was enacted 
more than two weeks ago.
    And three weeks after the unwarranted release of thousands 
of ICE detainees, I had to hold a hearing to get an entirely 
confusing and incomplete accounting of the incident including 
that ICE released ten level one criminal aliens and 159 level 
two criminal aliens.
    Madam Secretary, let's be blunt. If DHS cannot explain how 
it is proposing to spend the taxpayers' limited dollars on its 
programs and on its projects, how are we going to make a 
decision as to how these funds relate to the mission 
requirements?
    We need congressional oversight. We have given 
congressional oversight authority. This is part of 
congressional oversight and it should not be ignored.
    We have little choice other than to hold the department's 
leadership accountable and to cut requested and unjustified 
funding.
    So when DHS has a statutory mission to fulfill, we expect a 
legitimate and adequate budget to support it. When the law 
mandates a spend plan, we expect compliance. When we ask a 
question for factual information, we expect straightforward and 
prompt answers instead of getting little more than excuses, 
delays, and outright irresponsiveness. And all that has got to 
stop and it has got to stop today.
    Yesterday we were talking. I talked to you on the phone 
briefly about the plans that we were not receiving and you made 
the comment you would try to get it to us by May 1st. I thought 
about that after our conversation and that is not acceptable.
    Just because the President thinks he gets to be two months 
late on his budget does not mean that the people who work in 
his departments get to also ignore deadlines. We have deadlines 
that we have on this committee and I think those deadlines 
should be met. And I think May 1st is too long to wait for 
those reports.
    So I would appreciate it if you would get whoever you hire 
or have hired to get the various reports done that we require 
and if they cannot remember what they are, we will be glad to 
share that information with them.
    I would like for them to have that for us by no later than 
the end of next week, Friday of next week. And, you know, I 
would also like to know who was assigned that job because if 
they cannot do the job, then there is a management problem 
somewhere.
    And we will talk. I will give you an opportunity to reply 
to this, but I do not want to play the game. Others are having 
to, but I do not want to play the game of we will give it to 
you when we want to. And then honestly we have a statutory 
mandate on a budget, but we did not get the budget when it was 
statutorily mandated. We got it two months later. I am not 
going to play that game. That is pretty simple.
    At a time when our budget is hemorrhaging with red ink, the 
department has to get the budgeting right. That means meeting 
oversight responsibilities and clearly aligning requested 
funding to intended results for our Nation's security. And that 
is the commitment I am going to ask of you today. The American 
people deserve no less.
    Madam Secretary, I think it is clear that we have a lot to 
cover here today. Before I recognize you for your testimony, 
let me turn to our distinguished ranking member and former 
chairman of this committee for his remarks that he may wish to 
make.
    Mr. Price.
    [The statement of Mr. Carter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Good morning, Madam Secretary. It is a pleasure to have you 
kick off our budget season a little later than usual, but we 
are glad to have you here.
    The fiscal year 2014 net discretionary budget request for 
the Department of Homeland Security is $39.04 billion, not 
including an additional $5.6 billion in disaster relief funding 
that does not count toward the discretionary cap. The total is 
some $550 million below the equivalent number for the current 
year.
    This year also marks the tenth anniversary of the creation 
of DHS and the continuing efforts to make 22 components operate 
under a common vision and leadership. Complicating these 
efforts is the reality that, like all federal agencies, you 
have been asked to do more with less. And this has required 
some tough decisions.
    I am pleased that a full year Homeland Security 
Appropriations Act was included in the final Continuing 
Resolution for the current year providing an allocation of 
funds that is more aligned with your current needs.
    It provided significant and necessary funding increases, 
for example, for preparedness and anti-terrorism grants, for 
customs and border protection salaries, and for advanced 
research.
    However, you are still under the thumb of sequestration. 
Sequestration, the very definition of irrational and 
irresponsible budgeting, which ironically leaves the two main 
drivers of the federal deficit, tax expenditures and mandatory 
spending, largely untouched.
    Today I look forward to exploring how the Department is 
assessing risk and prioritizing funding in this era of 
shrinking budgets. It is also time to reflect about where the 
department has been and where you are heading.
    This includes the Department's efforts to enforce our 
Nation's immigration laws which we all know are in need of 
comprehensive reform. As bipartisan efforts to craft 
legislation continue, no doubt security at the border will 
remain center stage.
    Despite what some opponents of comprehensive immigration 
reform say, significant progress has been made along the 
southern border. This subcommittee, under both democratic and 
republican leadership, has been at the forefront of these 
changes. We must resist misleading claims about border security 
by those who simply wish to block reform.
    Two decades ago, fewer than 4,000 border patrol agents 
monitored the entire southwest border. By the end of fiscal 
2012, there were more than 18,400 such agents. Fencing totaling 
some 651 miles has also been constructed in targeted areas of 
the border. Now sensors have been planted, cameras erected, and 
unmanned aerial vehicles monitor the border from above.
    Couple these efforts with targeted outbound inspections of 
vehicles for illegal drugs, weapons, cash, and other contraband 
heading south into Mexico resulting in some impressive seizures 
in California, Texas, and Arizona over the past three years and 
you can see just how successful our border security efforts 
have been. You should be proud of how far we have come under 
your leadership and that of your predecessor to secure our 
border.
    Recalling our efforts to apply cost-effectiveness criteria 
to that border fence, I know just how elusive the definition of 
secure can be. I also know that we cannot simply throw an 
unlimited supply of money at the southwest border and assume it 
will solve all the problems.
    We must continue to look analytically for the right mix of 
personnel, infrastructure, and technology to find the best path 
forward and today we hope you can shed some light on your 
thinking in this regard.
    In addition, the Administration has taken positive steps to 
improve its immigration enforcement policies. Here, too, some 
have been eager to criticize, but I believe it is both prudent 
and wise for the Administration to focus on the removal of 
criminal aliens first and foremost while providing 
prosecutorial discretion on less pressing cases and deferred 
action in the case of the so-called dreamers. With limited 
resources, we simply must prioritize our efforts.
    Much has been made of the release of ICE detainees in 
February, although following Director Morton's testimony before 
this subcommittee, I hope we have reached the point where 
suspicions of a political motive have subsided.
    In that regard, I hope you can touch on the funding 
realities ICE must deal with when facing a statutory mandate 
that ties its hands on the number of individuals it detains.
    Director Morton has testified that this statutory minimum 
bed requirement will reduce such priorities as the 
investigation into human and drug smuggling as well as child 
pornography.
    We need to get to the point where ICE decision making about 
the use of detention is based only on consistent, reviewable, 
risk-based criteria, and that ICE has full discretion and 
available funding to use less costly supervision methods and 
alternatives to detention when risk is low.
    I also support your effort to better focus the Secure 
Communities Program to make sure it is fulfilling its intended 
mission and not being applied indiscriminately.
    Now that the Secure Communities Program has been 
implemented nationwide, I look forward to examining how 
effective this program has been in fulfilling its intended 
mission.
    This subcommittee also feels some ownership of that effort 
to focus on the criminal alien population.
    I must also commend you on the job FEMA continues to do. 
Over the past few years, FEMA has faced significant challenges, 
including an unprecedented 99 presidentially declared disasters 
in 2011.
    In comparison, 2012 had about half that number with 47 
presidentially declared disasters, but that number included 
Hurricane Sandy, a storm of historic magnitude. Currently every 
state in the Nation has pending disaster recovery projects with 
FEMA.
    In each of these instances, FEMA has done a remarkable job 
of working with affected areas to make sure that individuals, 
families, and localities have the resources to remove damaged 
structures and debris and to begin the rebuilding process.
    This recent experience confirms that much of the lost 
capacity we witnessed following Hurricane Katrina has been 
restored, yet another success of which this subcommittee claims 
some ownership.
    Now, I must say there are some questions, some 
disappointments in this budget that we are going to want to 
explore. There is a net reduction in FEMA grants here. There is 
the same flawed proposal, I believe, for a national 
preparedness grant program. It was rejected by all sides in the 
Continuing Resolution.
    The budget also proposes a significant reduction to coast 
guard personnel and acquisitions that raises serious questions 
about future Coast Guard capabilities and recapitalizations 
efforts.
    Now, on the face of it at least, this significant reduction 
in funding for the Coast Guard appears to have been made in 
order to provide a full $714 million to complete construction 
of the National Bio and Agro-Defense Facility. We know that 
facility must be constructed, but we have got to consider the 
implications for the rest of DHS, particularly if there is a 
viable option to phase in NBAF construction and avoid a 
tradeoff with the Coast Guard or with other science and 
technology efforts in the coming fiscal year.
    So we have a number of questions that will need to be 
addressed by you and your colleagues as this subcommittee works 
to produce a bill in the coming weeks.
    Madam Secretary, I look forward to your testimony and 
working with you again this year.
    [The statement of Mr. Price follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Mr. Price.
    I would now like to recognize the chairman of the full 
committee and the founding chairman of this subcommittee, 
Harold Rogers, for any comments that he would like to make.
    Mr. Chairman.

                     Opening Statement: Mr. Rogers

    Mr. Rogers. Thank you, Mr. Chairman, and congratulations on 
your work on this as the new chairman of this subcommittee.
    Madam Secretary, it is good to be with you again and good 
to see you. Tough job. Pardon me.
    In the past three years now, we have struggled on the 
committee and on this subcommittee to try to bring regular 
order to the process where we take up individual bills and 
debate them and amend them and take them to conference with the 
Senate and we hash out the differences like the old fashion way 
which is regular order.
    And I am very pleased that a couple of weeks ago now, we 
were able to work that process with our colleagues in the 
Senate and produce, I think, a fair hybrid Continuing 
Resolution which included Homeland Security.
    And I wanted to congratulate Senator Mikulski and her 
counterparts in the Senate along with my counterpart here, Nita 
Lowey, for working together to bring out a good bill. I know it 
is not exactly all that you wanted, but it is the best we could 
do. So the effort for regular order continues.
    Now, your budget submissions do not make our job any 
easier. Like Yogi Bear talked about deja vu all over again, 
here we go again. The department has produced a proposal to, I 
think, decimate the coast guard and ICE that supports the men 
and women who bravely defend our homeland on the front lines in 
favor of headquarters' pet projects and controversial research 
programs.
    Once again, the budget request uses phoney, unauthorized 
offsets to pay for critical aviation security measures. Once 
again, the department has failed to submit a number of plans 
and reports which are required by law, which are essential to 
help us do our work and do our work well to try to justify 
every penny that we spend of the taxpayers' money under the 
constitution appropriated to agencies of the Federal 
Government.
    And, once again, this budget submission would add layers of 
bureaucracy to the already tangled web of agencies under your 
purview at headquarters. Many of these proposals are recycled 
directly from last year's budget. Nearly all of these 
misaligned priorities were patently rejected by the Congress in 
the fiscal 2013 bills that passed both chambers and the CR.
    These trends are becoming a sadly predictable asset and 
tenet of this Administration's budgeting strategy. Particularly 
where our Nation's security is involved, we need a legitimate 
budget that ties funding to results and mission requirements.
    Unfortunately, what I see here is a largely political 
document which mirrors the fear mongering tactics employed by 
DHS and others leading up to implementation of sequestration, 
especially ICE's release, opening the jail doors for several 
hundred detainees prior to the budget cuts.
    Needless to say, this gives me great concern. I certainly 
hope your testimony allays those concerns as we go on today. I 
hope and trust that it will. But we have rehashed these things 
ever since you have been the secretary and we have gone over 
them time and again. And we reject your pleas and you keep 
coming back and we keep rejecting them.
    We should be spending this time talking about positive 
things rather than going over old rehashed, rejected proposals. 
So I welcome your testimony.
    [The statement of Mr. Rogers follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Mr. Chairman. We are honored to have 
you here.
    We are now also honored to have the ranking member of the 
whole committee, Ms. Lowey. I recognize her for her comments.
    Thank you, Ms. Lowey, for being here.

                      Opening Statement: Ms. Lowey

    Ms. Lowey. Thank you very much, Mr. Chairman.
    And I want to also acknowledge that I join with Chairman 
Rogers in hoping that we could have regular order and go 
through the process and work together to accomplish our goals.
    I want to welcome you, Secretary Napolitano. It has been my 
pleasure working with you over the past four years to secure 
our borders, prevent acts of terrorism, improve cyber security, 
and provide our first responders with the equipment and 
resources they need to protect our communities.
    I would also like to thank you and Administrator Fugate for 
your handling of Super Storm Sandy. As our Nation confronted 
one of the most severe and damaging storms in our history, you 
managed the federal response to the storm with precision.
    I also truly appreciate your regular updates for Members so 
that we could get timely information to our local partners on 
the ground in the immediate aftermath of the storm.
    However, you come before us today with a budget that again 
would consolidate state and local grants into a large pot with 
little direction without authorization from Congress and 
expressly against the wishes of this subcommittee.
    I am concerned that efforts to consolidate these grants in 
such a way could result in diluting crucial terrorism funds 
from the areas most at risk of attacks and leaving transit and 
port security in the Nation's most densely populated areas 
without the resources necessary to prevent and respond to acts 
of terror.
    Again, I would like to thank Chairman Carter and Ranking 
Member Price for holding this hearing today and you, Secretary 
Napolitano, for joining us. Thank you.
    [The statement of Ms. Lowey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Ms. Lowey, and, once again, welcome.
    Madam Secretary, your entire written statement, we have 
that. It will be entered into the record. You are now 
recognized for five minutes to summarize your testimony.

                Opening Statement: Secretary Napolitano

    Secretary Napolitano. Well, thank you. Thank you, Chairman 
Carter, Chairman Rogers, Ranking Member Lowey, Ranking Member 
Price, Members of the committee, subcommittee. Thank you for 
the opportunity to discuss the President's fiscal year 2014 
budget for the Department of Homeland Security [DHS].
    There have been several points raised by you and others in 
their opening statements and I look forward to addressing 
issues like reports and the FEMA [Federal Emergency Management 
Agency] consolidation with you during the Q&A part of the 
program.
    This year marks the 10th anniversary of the creation of 
DHS, the largest reorganization of the Federal Government since 
the formation of the Department of Defense.
    After 10 years of effort, DHS has transformed 22 legacy 
agencies into a single integrated department, building a 
strengthened homeland security enterprise and a more secure 
America better equipped to confront the range of threats that 
we face.
    Our workforce of nearly 240,000 law enforcement agents, 
officers, and men and women on the front lines puts their lives 
at risk every day securing our land, air, and maritime borders, 
enforcing our immigration laws, and responding to natural 
disasters. They work in every state and more than 75 countries 
strengthening homeland security through cooperation, 
information sharing, training, and technical assistance with 
many of our partners.
    The President's fiscal year 2014 budget for DHS allows us 
to build on our progress over the past 10 years by preserving 
core front-line operational priorities. At the same time, given 
the current fiscal environment, this is the third straight year 
that our budget request reflects a reduction from the previous 
year.
    Specifically, the budget request is 2.2 percent or more 
than $800 million below the fiscal year 2013 enacted budget. 
While our mission has not changed and we continue to face 
evolving threats, we have become more strategic in how we use 
limited resources focusing on a risk-based approach.
    This is coupled with an unprecedented commitment to fiscal 
discipline, which has led to over $4 billion in cost avoidances 
and reductions over the past 4 years through our Efficiency 
Review.
    Before I discuss the department's budget, however, I would 
like to take a moment to talk about the mandatory reductions 
imposed by sequestration, which are significant, more than $3 
billion in cuts across DHS over 6 months.
    The recent full year appropriations bill enabled DHS to 
mitigate to some degree the projected sequestered impacts under 
the CR [Continuing Resolution] on our operations and workforce, 
but there is no doubt that these cuts will affect operations 
both in the short and the long terms.
    Sustained cuts at these sequester levels will result in 
reduced operational capacity, breached staffing floors, and 
economic impacts to the private sector through reduced and 
canceled contracts.
    Nonetheless, we continue to do everything we can to 
minimize impacts on our core mission and employees consistent 
with the operational priorities in our 2014 budget, which I 
will briefly highlight for you.
    First, to prevent terrorism and enhance security, the 
fiscal year 2014 budget continues to support risk-based 
security initiatives including TSA PreCheck, Global Entry, and 
other trusted traveler programs. As a result, we expect one in 
four travelers to receive some form of expedited screening 
domestically by the end of the year.
    The budget supports Administration efforts to secure 
maritime cargo and the global supply chain by strengthening 
efforts to interdict threats at the earliest possible point.
    We continue our strong support for state and local partners 
through training, fusion centers, and information sharing on a 
wide range of critical homeland security issues.
    We also fund cutting-edge research and development to 
address evolving biological, radiological, and nuclear threats, 
including construction of the NBAF [National Bio- and Agro-
Defense Facility], a state-of-the-art bio-containment facility 
central to the protection of the Nation's food supply and our 
national and economic security.
    Next, to secure and manage our borders, the budget 
continues the Administration's robust border security efforts 
while facilitating legitimate travel and trade. It sustains 
historic deployments of personnel between our ports of entry 
along our borders as well as continued utilization of proven 
effective surveillance technology along the highest traffic 
areas of the southwest border.
    To expedite travel and trade while reducing wait times at 
the ports of entry including both land and air ports, the 
budget requests an additional 3,500 port officers, 1,600 paid 
for by appropriations and the remainder by an increase to the 
immigration user fees that have not been adjusted since 2001.
    To secure our maritime borders, the budget invests in 
recapitalization of Coast Guard assets including the seventh 
National Security Cutter and Fast Response Cutters.
    The budget also continues the department's focus on smart 
and effective enforcement of our Nation's immigration laws. The 
budget supports the Administration's unprecedented efforts to 
more effectively focus the enforcement system on public safety 
threats, border security, and the integrity of the immigration 
system through initiatives such as the Deferred Action for 
Childhood Arrivals and greater use of prosecutorial discretion.
    At the same time, the budget makes significant reductions 
to inefficient programs like the 287(g) Task Force agreements 
while supporting more cost-effective initiatives like the 
nationwide implementation of Secure Communities.
    The budget invests in monitoring and compliance, promoting 
adherence to work-site related laws, Form I-9 inspections, the 
enhancements to the E-Verify program, while continuing to 
support Alternatives to Detention, detention reform, and 
immigrant integration efforts.
    Comprehensive immigration reform will help us continue to 
build on these efforts and strengthen border security by 
enabling DHS to further focus existing resources on criminals, 
human smugglers and traffickers, and national security threats.
    Next, to safeguard and secure cyberspace, this budget makes 
significant investments to strengthen cybersecurity including 
funds to first secure our Nation's information and financial 
systems and to defend against cyber threats to private-sector 
and federal systems, the Nation's critical infrastructure, and 
our economy.
    Second, the budget includes funds to support the 
President's executive order on improving critical 
infrastructure and cybersecurity, and the presidential policy 
directive on critical infrastructure security and resilience.
    And, finally, the budget includes funds to expedite the 
deployment of EINSTEIN 3 to prevent and detect intrusions on 
government computer systems.
    Finally, to ensure continued resilience to disasters, the 
President's budget focuses on a whole community approach 
through emergency management. It includes resources for the 
DRF, the disaster relief fund, to support presidentially 
declared disasters or emergencies.
    And the Administration is again proposing the consolidation 
of 18 grant programs into one National Preparedness Grants 
Program to create a robust national response capacity while 
reducing administrative overhead.
    This competitive risk-based program will use a 
comprehensive process to assess gaps, identify and prioritize 
deployable capabilities, put funding to work quickly, and 
require grantees to regularly report on their progress.
    In conclusion, the fiscal year 2014 budget proposal 
reflects this Administration's strong commitment to protecting 
the homeland and the American people through the effective and 
efficient use of DHS resources.
    Chairman Carter, Representative Price, Members of the 
committee, thank you for the opportunity to testify here today 
and I am pleased to be able to answer your questions.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
            CUSTOMS AND BORDER PROTECTION: OPERATIONAL COSTS

    Mr. Carter. Thank you, Madam Secretary. We are pleased to 
have you here today.
    As you know, fiscal year 2013 request short-changed CBP 
operations including failing to cover pay and benefits of the 
workforce. Addressing that shortfall put the subcommittee in a 
real tough spot. That was all last year. In order to fully fund 
personnel and operations, we had to make trade-offs in 
acquisitions, IT, and other initiatives.
    The bottom line is DHS's budget needs to accurately and 
legitimately propose funding to cover known costs. I want your 
personal assurances that fiscal year 2014 budget request 
include funds necessary to cover known operational costs for 
CBP including fully funding the essential needs of its front-
line personnel, border patrol agents, CBP officers, air and 
marine interdiction agents.
    Do I have your assurance on that issue?
    Secretary Napolitano. Mr. Chairman, I would love to give 
you that assurance, but we are dealing here with an era where, 
for example, if sequester were to continue past the beginning 
of the fiscal year, we are going to continue to have impacts on 
CBP [U.S. Customs and Border Protection] given the way 
sequester was drafted.
    So while I would like to give you that assurance and we 
will do everything we can in that regard, I cannot give you a 
100 percent guarantee.
    Mr. Carter. Well, I understand that. And I think that is an 
honest appraisal because I have looked at your budget and I do 
not see how you could guarantee it to be honest with you, but I 
wanted to see what you had to say about it.
    And, you know, I noted something that I think it is 
important for us to remember and I do not think I have to 
remind you, but I am going to. Almost the first series of 
statements that you made you called yourself a law enforcement 
agency, right?
    You are about enforcing the law. That is our first and 
foremost priority in this job is to enforce the law that exists 
today. If it is a bad law, we are going to work at fixing it. 
But until it is fixed, you get the law you got and you got to 
enforce it.
    And in many ways, you have my sympathy on that issue. I 
have been there on other laws that are pretty rotten myself and 
I understand how that works, but that is not our job to 
question. It is our job to do.
    And so in looking at this, the money just starting with CBP 
and it gets a lot worse in other places, especially with the 
Coast Guard, I have real concerns about the starting point on 
what we are doing here today.
    Quite honestly, I hate to come back to those reports, but 
that is why we want to know the thinking of the people who help 
put this thing together. It is critical for my team of people, 
our team of people, and Mr. Price's team and my team to know 
what you were thinking and what these people who you have given 
this responsibility to were thinking in proposing the numbers 
in this proposal you have given us today.
    So from that standpoint, I am not going to beat that horse 
anymore or I am going to try not to. Okay. If you want to say 
something, go ahead.

                           REPORTS, REQUIRED

    Secretary Napolitano. Yes. Thank you, Mr. Chairman.
    We want to be as transparent as possible with the committee 
and work you through our thought process. I would note that we 
have just for this subcommittee alone 227 reports that are 
required. That does not even include the authorizing reports.
    Report writing has become almost a whole section of the 
department. But we will move to get the reports. There are 16-
some odd that were specified to be due May 1. We will move 
heaven and earth to get them to you earlier. But I just ask the 
chairman to recognize that reports unfortunately were not 
sequestered.
    Mr. Carter. No. That is life, isn't it? I believe that your 
list counts monthly, quarterly, and quarterly reports 
separately. It seems a little bit of an exaggeration. We have 
been through all this before.
    If you are saying that monthly budget execution reports and 
quarterly acquisition reports are too onerous, we probably have 
a bigger problem than I thought. These are the very same 
reports I would think that you would demand to manage your 
department.
    Secretary Napolitano. Many of the reports that I think the 
committee has specified it wants really rely on being able to 
know what your fiscal year 2013 numbers are. Now, the fiscal 
year 2013 numbers were not available until a couple of weeks 
ago. That also has some effect.
    I appreciate the fact this committee is having a prompt 
hearing after the release of the budget and I hope we can 
follow up with Chairman Mikulski and Chairman Rogers and get 
back to some kind of regular order in the budget and 
appropriations process. It would make all of our jobs much 
easier.

                 CUSTOMS AND BORDER PROTECTION OFFICERS

    Mr. Carter. I have been preaching regular order to many 
people for a long time. It is the backbone of being in 
Congress. So I am for that.
    But to finish up on CBP, the budget proposes to bring on 
1,600 additional CBP officers in 2014 using appropriated funds. 
The tail for that increase comes years later.
    After all the issues DHS has had to maintain staffing 
increases over the years, can you assure the subcommittee that 
DHS will support this increase in the out years?
    Secretary Napolitano. The answer is our out-year budget 
does. And as I mentioned, Mr. Chairman, in my statement, the 
President's proposal is for roughly 3,400 more port officers, 
1,600 of which are appropriated, the remainder paid for through 
fees.

                    DETENTION BEDS: NUMBER REQUESTED

    Mr. Carter. Moving on to something else which is something 
that I have already gotten in the middle of in the last three 
weeks is 34,000 detention beds. I found the logic that has been 
argued to this committee very peculiar over this issue.
    Last year, you sat before this subcommittee and you 
testified that you did not need the capacity of 34,000 ICE 
detention beds mandated in the law. Yet, earlier this year, ICE 
released detainees because they were operating at an extremely 
high level reaching as many as 37,000 detainees in custody and 
with an average daily population for the first quarter of 
34,640 detainees.
    With that, under that consideration, you still think you do 
not need 34,000?
    Also, let me ask you this. You still think that number and 
the fact that the big storm that was created by the release of 
these detainees across the country from coast to coast, 
newspapers were screaming about it, TVs were blaring about it 
and talk show hosts were going crazy, under that circumstance, 
how do you argue that you do not need 34,000 beds?
    Secretary Napolitano. Well, if I might, the President's 
request is for 31,800 beds. The reason for that is we are 
proposing to make greater uses of alternatives to detention, 
which are cheaper. The bed cost that we estimate will be about 
$119 per day.
    Mr. Carter. Well, let me ask a question----
    Secretary Napolitano. If I might, Mr. Chairman----
    Mr. Carter [continuing]. On that just a second. You and I 
talked about this earlier. You told me you would tell me how 
many of those people were put on that alternative to detention, 
but I have never gotten that information.
    Secretary Napolitano. We will supply it. But if I might, I 
think Representative Price made a very valuable point to this 
committee, which is we ought to be managing the actual 
detention population to risk, not to an arbitrary number.
    Of those released, there were very few, a handful of so-
called level one offenders. But when you dig down into those 
cases, you will find, for example, a 68-year-old who had 10 
plus years after he committed an offense and was living with 
his family in New Mexico. So some of those cases, on a case-by-
case basis, are clearly understandable.

                  IMMIGRATION AND CUSTOMS ENFORCEMENT

    The department, ICE was facing a perfect storm when these 
releases occurred. We did not know we were going to have a 
budget. They were estimating we were going to continue under 
the CR and the CR as sequestered. And so with that and given 
the way that sequester worked account by account by account, 
reductions in ERO [Enforcement and Removal Operations] were 
required.
    But as we look at it, stepping back and looking at it, 
really the policy decision for the committee is whether we 
stick to an artificial number of beds or do we simply require 
that certain levels of detainees be in beds and that we have 
those beds available.
    [The information follows:]

    Response: As of March 25, 2013, the number of aliens released for 
budgetary reasons from February 9, 2013, through March 1, 2013, was 
2,226.\1\ ICE continues to seek removal on these cases as appropriate. 
Released individuals were placed on various types of supervision as 
illustrated in the following table.
---------------------------------------------------------------------------
    \1\ ICE initially reported the release of 2,228 aliens. Upon a 
review, two cases were found to be duplicates.

     DETAINEES RELEASED FROM FEBRUARY 9, 2013, THROUGH MARCH 1, 2013
------------------------------------------------------------------------
                                                                Number
                          Category                             Released
------------------------------------------------------------------------
Alternatives to Detention..................................          102
Bonded out.................................................          171
Order of recognizance......................................        1,640
Order of supervision--final order..........................          137
Paroled....................................................          172
Other (terminated, turned over to another law enforcement              4
 agency, or relief granted by immigration judge)...........
                                                            ------------
    Total..................................................        2,226
------------------------------------------------------------------------

    Terminated refers to alien immigration cases that completed 
proceedings before the Department of Justice's Executive Office of 
Immigration Review (EOIR) and the alien was released from custody.

    Mr. Carter. I have heard this argument. You and I have had 
this argument before. I have also talked to the folks at ICE 
and they follow the President's instructions.
    But here is the problem I have got with this. Right now, in 
fact, ICE has 36,000 detainees in custody at this time and 96 
percent of them meet the priorities set by this Administration 
for detention according to the priorities that you set.
    So, I mean, it is curious that almost the rules start to 
change in the middle of--and, by the way, I love this argument 
about we released these people in anticipation, but it was very 
convenient that that was right during the Administration's the 
sky is going to be falling campaign and I still question that 
action because it certainly fell right within the pattern of 
the world is coming to an end if you have a sequestration vote.
    Secretary Napolitano. The 31,800 that we request, we 
believe, will house all mandatory detainees as all level ones 
and twos. And as I said, level threes are misdemeanants and 
only certain misdemeanants. And those, we think, are not-- they 
are not released to the general population. They are put in a 
different type of supervision. It can be an ankle bracelet. It 
can be intensive supervision, what have you.
    Mr. Carter. I am glad with alternatives to incarceration. 
However, let me point out that you released ten level ones in 
this release that you did and quickly after it became a 
national issue rounded them all up again which at least 
somebody was thinking.
    But I wonder if it had not been a storm on the horizon from 
the public whether those ten level one violators would still be 
on the street.
    Secretary Napolitano. There is no doubt----
    Mr. Carter. My time is running out.
    Secretary Napolitano. Oh, okay.
    Mr. Carter. I just want to point out that, you know, I am 
going to be very cautious about this 31,800 request.
    Okay. Mr. Price, at this time, I yield to Mr. Price.

                      BUDGET CUT IMPACTS: OVERALL

    Mr. Price. Thank you.
    Madam Secretary, let me return to the question of 
sequestration which you touched on in your testimony. I would 
like to have you elaborate.
    Sequestration has been in place for 42 days. However, your 
department did not receive your final 2013 appropriation until 
late March. At that time, the Department planned to reevaluate 
sequestration impacts to see what adjustments needed to be made 
in its March 1 sequestration plan.
    Based on OMB's March 1 report, DHS is taking a $2.8 billion 
reduction, and that includes funding contained in the Sandy 
supplemental. It exempts, as it should, of course, Coast Guard 
military pay.
    Two point eight billion dollars, that is a significant 
amount. There is no doubt it will have a lasting impact on the 
department's critical missions and we have a huge stake in 
getting this federal budget on a different footing by the start 
of fiscal 2014.
    Sequestration does not address the main drivers of the 
deficit at all and, yet, we are saddled with this and we have 
to deal with it and you have to deal with it. It is a reality 
that we have got to deal with.
    So let me ask you a series of related questions. How did 
the enactment of the 2013 bill--and I commend the subcommittee 
chairman and full committee chairman for including the DHS bill 
produced under the regular order, including that in the CR--
affect sequestration as experienced by DHS?
    For example, originally TSA thought it would need to 
furlough employees, but backed off from that assessment in late 
February. Given that the sum of the funding levels for that 
agency for 2013 are still below 2012, are furloughs back on the 
table for that agency?
    What about CBP? There have been some mixed reports about 
whether we might or might not be able to avoid CBP furloughs.
    What about that statutory requirement to maintain 34,000 
detention beds? With that sitting there, what kind of shifting 
of sequestration impacts might that require of you?
    And let me just say in general that I applaud your efforts, 
the efforts of other cabinet secretaries and agency heads. 
Applaud the efforts to mitigate this impact, but I know those 
cuts have to come from somewhere and your discretion is 
limited.
    Some apologists for sequestration have taken to saying 
these days that, oh, well, this does not have to be so bad. And 
whenever a cut is made, they accuse you or the President of a 
political motivation.
    Well, as a matter of fact, sequestration is designed to be 
unacceptable. It is designed to be a meat ax. It was supposed 
to force us to a more rational budget plan. Unfortunately, that 
has not happened.
    But these cuts have to come from somewhere. And, sure, you 
are going to be asked to put out fires to avoid furloughs 
there, to avoid this or that which has a highly visible impact, 
but then you are going to have to shift to other areas.
    And I want to know, as you get all this criticism and have 
to avoid this cut or that, what are those less visible areas? 
What are those less visible areas that are nonetheless critical 
that we ought to be worried about because these cuts are going 
to come from somewhere and we need to know where?
    And simply playing it politically and pretending that these 
fires can all be put out with no consequence, I think, is 
highly misleading.
    So what can you tell us about your current strategy?
    Secretary Napolitano. Well, Representative Price, we are a 
personnel heavy department. That drives our budget. We are 
trying to work through the fiscal year 2013 numbers we were 
finally given. The negotiators were able to put back in some 
more money for CBP, some more money for grants. We are working 
now with the Office of Personnel Management, the government-
wide office, to see how that plays out.
    But on March 1, pre budget, if I might, we were looking at 
significant furloughs and reductions in overtime. So now we are 
working to mitigate those and we do not have a final answer yet 
for our employees. That is a stress factor that needs to be 
taken into account.
    But I think in order to mitigate, we will be asking the 
Congress for some reprogramming because as you observed, we 
were given very little discretion on how to--which accounts 
money went into. So as we unpack that, we believe that money 
needs to be moved around.
    So we will under the fiscal year 2013 as enacted be coming 
back to the Congress for some reprogramming. And once that 
occurs, I think we will be able to get some final answers.
    Mr. Price. What are those less visible accounts that are 
nonetheless critical that we ought to be worried about? I mean, 
it seems in a number of departments, for example, it is all too 
easy to put out this fire and that and then shift the cuts, 
let's say, into research.
    Secretary Napolitano. Well----
    Mr. Price. That is taking place a lot of places. Is it 
going to happen with DHS?
    Secretary Napolitano. Things like that, some of the 
acquisitions get postponed or slowed down. There may not be a 
reduction in force. But as people retire, we may leave 
vacancies and not hire new agents or officers.
    So that is not readily apparent, but the plain fact of the 
matter is, for example, take CBP, take port officers, that part 
of CBP. We had a significant shortage of port officers to begin 
with.
    What we are already seeing in the major international 
airports, the ones that have international flights, are wait 
times significantly higher than last year's wait times for 
March and April. So we anticipate that that will continue, 
particularly if CBP does not get the budget the President has 
requested.
    Mr. Price. That still does not add up to $2.8 billion, I am 
afraid, and so we will look forward to continuing to exchange 
information about this, about what these impacts will be.
    Secretary Napolitano. We will be happy to give you an 
inventory, but it ranges across the department. And as I said, 
some are personnel savings, some are equipment savings, some 
are program identifications and reductions.
    [The information follows:]

    Response: The Department provided a report separately on its post-
sequestration operating plans to the Appropriations Committees on April 
26, 2013.

    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Chairman Rogers, I now recognize you for 
questions.

     BUDGET CUT IMPACTS: COAST GUARD, CUSTOMS AND BORDER PROTECTION

    Mr. Rogers. Thank you, Mr. Chairman.
    I want to ask you about two pieces. One is cuts to Coast 
Guard and, two, I wanted to ask you about the CBPs particularly 
at the Miami Airport which I happened to become acquainted 
with.
    First, you propose to cut critical Coast Guard front-line 
personnel by over 826 military billets, cut the Coast Guard 
recapitalization programs by almost 40 percent, and 
decommission various cutters and aircraft while at the same 
time increasing headquarters' funding and increasing the 
science and technology division by 83 percent.
    In addition, you propose to slash current and future 
capabilities for drug interdiction for the Coast Guard and 
customs and border protection. CBP Air and Marine procurement 
is reduced by $87 million. No Coast Guard aviation assets are 
proposed despite the decommissioning of eight HU-25s and two 
C13Hs.
    We have rejected that type of budget slashing of front-line 
operations in the past and I do not see any reason why we won't 
do it again.
    But I really wonder what was in your mind because just, for 
example, on drug interdiction, the country is overrun with drug 
problems. The deaths from addiction to prescription medicine 
exceeds the number of people killed in car wrecks, mainly 
OxyContin.
    And then the manufacturer changed the formulation of 
OxyContin to where it was not crushable and, therefore, you 
could not crush it and shoot it up and get the 12-hour release 
into a single jolt. But that patent now expires, has expired, 
and Canada has six generic manufacturers of the old, original, 
crushable OxyContin which has hooked and killed thousands of 
kids in our country.
    And I am wondering whether you have interdicted any of that 
new generic drug coming out of Canada and what will happen with 
the reduction in the Coast Guard assets that you are proposing 
that would be used to stop this kind of problem coming from 
Canada.
    Secretary Napolitano. If I might, and I share your concern 
about OxyContin, we have not in our drug interdictions been 
picking up any measurable degree of OxyContin or other 
prescription drugs, the generic, for example.
    But if I might, and I will just tick them off, you asked 
why are we increasing headquarters. Well, we are located in 50 
plus different facilities around the National Capital Region. 
The Coast Guard is moving to the new facility at St. Elizabeths 
and will have moved by Thanksgiving.
    The proposal is to keep moving forward on that project and 
that was put in the headquarters' budget. Every other item in 
the headquarters' budget, as you will see, has gone down as it 
went down last year, travel, training, conferences. You name 
it, it has been reduced.
    So what we are talking about is finally getting this 
department a consolidated headquarters, which will assist us in 
the long term in performing our mission.
    The increases to the Science and Technology [Directorate 
(S&T)] are due primarily to the NBAF, and every group that has 
looked at the issue of biological threat has concluded that the 
current level four lab we have at Plum Island is inadequate and 
it will not be adequate in the long term.
    There was a peer-reviewed competition for the lab. Kansas 
is now putting in over $320 million to partner with us. So at 
some point, you know, we had to bite the bullet, so to speak, 
and that went in the S&T budget. But that is the increase 
there.
    With respect to the Coast Guard, the Commandant's number 
one priority is the completion of the NSC [National Security 
Cutter] fleet. The budget includes the cost of NSC 7 and that 
is his number one priority. And, by the way, those ships 
require fewer personnel than some of the older ships that we 
are planning to decommission.
    We have a slightly different production path for FRCs [Fast 
Response Cutters] than the Congress has seen or has approved, 
but it ends up with the same number of FRCs. So that is just a 
budget, you know, in which year do you take the construction 
for the Fast Response Cutters.
    With respect to the billets, Chairman Rogers, the billets 
are mostly billets that are either onshore, administrative, or 
unfilled billets at this time anyway.
    Finally, we are working very hard with state and local 
officials and are able to leverage them in a much better way 
than perhaps 8 years ago, 7 years ago. So the kind of task 
forces and Intel-sharing agreements and things we have ongoing 
now are much more robust and we can depend more on our state 
and local partners.

              ARIZONA BORDER SURVEILLANCE TECHNOLOGY PLAN

    Mr. Rogers. Well, I understand, but I am really puzzled on 
how you would want to come to us and request that we cut 40 
percent of Coast Guard acquisitions and an $87 million cut to 
CBP Air and Marine when we have got this terrible drug problem 
not only on the Canadian border but, of course, the Mexican 
border, with the drug wars on the southwest border.
    And speaking of which, in January of 2011, you froze the 
activities of what was then called the SBInet----
    Secretary Napolitano. Right.
    Mr. Rogers [continuing]. And replaced it with what was 
called the Arizona border technology plan to buy off-the-shelf 
technology that could be deployed immediately----
    Secretary Napolitano. Uh-huh.
    Mr. Rogers [continuing]. To meet Border Patrol's clear 
mission needs and, yet, here we are 27 months later. Very 
little of that technology has actually been deployed. Only the 
procurement for thermal imaging devices went out on time. The 
major awards have not been made including continued delays for 
remote video surveillance systems and integrated fixed towers.
    Am I correct that it has been four years almost--27 
months--I am sorry--since we have had any significant activity?
    Secretary Napolitano. Well, if I might, Mr. Chairman--Mr. 
Chairman, Mr. Chairman, I do not know how that works--but in 
any event--I will just call you both chairman.
    Mr. Rogers. Yeah.
    Secretary Napolitano. In any event, I said stop on SBInet 
so that we could avoid throwing good money after bad, I said go 
back to the drawing board and in each sector develop a 
technology plan that works for the officers in that sector and 
meets geographical, topographical, whatever challenges.
    That was done. Those were reviewed. They are all in place. 
The plans have been submitted to Congress. The Arizona 
procurement is well underway and that technology--I was just 
down on that border at the end of last week--is being purchased 
and deployed as we speak.
    We are also, by the way, Mr. Chairman, moving more assets 
down to south Texas, which is the one area of the border right 
now that we are seeing some increase in traffic and we want to 
turn it back.
    Mr. Rogers. Well, the idea was with the Arizona border 
technology plan was that you could buy off-the-shelf technology 
quickly and put it in place quickly and, therefore, solve the 
mission more expeditiously and, yet, it has been two and a half 
years.
    Why couldn't you buy that off-the-shelf stuff and put it in 
place in a week?
    Secretary Napolitano. Yeah. That is because when we said 
off the shelf, that is kind of a misleading phrase, quite 
frankly. These things do not translate immediately from, say, 
the war theater in Afghanistan to what we have down on the 
border. And some of these things need to be ordered and then 
built even though they are mobile.
    But that process is well underway and I anticipate, if 
anything, it is going to be speeding up very rapidly.

            REIMBURSABLE AGREEMENTS: AIRPORT PILOT PROGRAMS

    Mr. Rogers. Well, I should hope so.
    And quickly, Mr. Chairman, and finally, the Customs and 
Border Protection offices, particularly at our international 
airports, I am familiar with the Miami Airport which I think is 
the biggest in volume of international----
    Secretary Napolitano. Yes, I think that is true.
    Mr. Rogers [continuing]. Material transport----
    Secretary Napolitano. Uh-huh.
    Mr. Rogers [continuing]. And, yet, the waiting time there 
is up to four hours.
    Secretary Napolitano. Yes.
    Mr. Rogers. And those companies are now beginning to move 
offshore that otherwise would--because they cannot stand that 
big time delay. I am told that the mayor has money to pay for 
more CBP agents. It will cost you nothing. They will give the 
money and hire them in order to get this thing expedited 
because the city sees a looming economic problem.
    And I think we authorized five locations in the fiscal 2013 
bill----
    Secretary Napolitano. That is correct.
    Mr. Rogers [continuing]. To allow private companies to 
pay----
    Secretary Napolitano. Uh-huh.
    Mr. Rogers [continuing]. For CBP personnel. Have you picked 
those five airports yet?
    Secretary Napolitano. We are in the process. I was just 
down in Miami myself and I spent the better part of a day with 
the airport authorities, local authorities. But if I might, we 
are in the process of selecting the five pilots for a 
reimbursement type partnership.
    In the President's 2014 budget proposal, it would open it 
up beyond five so that we would always have the ability to seek 
that kind of reimbursement. It also provides, as I mentioned 
before, for the 3,400 new CBP officers, many of whom I think 
would end up deployed at places like Miami, LAX, JFK where we 
have a lot of international arrivals.
    And, finally, with respect to ports, the land ports 
themselves, it would enable us to go into partnerships with 
local authorities for things like land exchanges--they build 
the building, in-kind contributions and so forth.
    So the whole idea is to increase our capacity in terms of 
our own personnel, but also increase our ability to seek 
reimbursement or partnerships with others.

             REIMBURSABLE AGREEMENTS: UNITED ARAB EMIRATES

    Mr. Rogers. Well, whatever. But reducing personnel, CBP 
personnel at an airport like Miami and there are several, of 
course, like Miami, international----
    Secretary Napolitano. Uh-huh.
    Mr. Rogers [continuing]. Hubs is going to cause some really 
economic difficulties for the country because the waiting times 
are just unacceptable and, yet, we read at the same time you 
are finalizing an agreement with the United Arab Emirates to 
accept reimbursement to establish pre-clearance operations in 
Abu Dhabi.
    The airlines are up in arms because that operation would 
only benefit Etihad Airlines, a state-owned foreign carrier 
which has three flights to the U.S. each week and, yet, we 
cannot get help for American airlines, American----
    Secretary Napolitano. If I might----
    Mr. Rogers. Yeah.
    Secretary Napolitano. This really goes into a more 
holistic, if I can use that word, strategic plan. We believe it 
is better for the security of the country if we can push our 
borders out.
    And one of the areas where it would be helpful to push our 
borders out, where we could check more passengers prior to even 
getting on a plane is in the Mideast. So Abu Dhabi has 
volunteered and they are a pilot in some respects. I think 
Dubai, assuming Abu Dhabi works, might be in the queue, but we 
are negotiating these pre-clearance agreements, which basically 
take our personnel and we do the security clearance and so 
forth before they even head to the United States.
    Why the Middle East? Because for obvious reasons, for 
tactical and strategic concerns, much better for us to do our 
work overseas than here.
    Mr. Rogers. Well, I would rather you take the personnel in 
Abu Dhabi and put them in Miami.
    Secretary Napolitano. Well, indeed. But I will tell you 
compared to what Miami needs, it is a drop in a bucket. And 
what we really need is for the CBP budget as requested, with 
all of the elements in it that I described, to be supported by 
the Congress because I agree with you. We have a personnel 
shortage there.
    Mr. Rogers. Thank you.
    Mr. Carter. Mr. Cuellar.

             GOVERNMENT PERFORMANCE AND RESULTS ACT REPORT

    Mr. Cuellar. Mr. Chairman, thank you so much.
    Madam Secretary, thank you for being here with us.
    Let me just follow up. I am going to ask you performance, 
the GPRA report that is called for you to turn in. But let me 
ask you. Let me just follow up what the chairman was referring 
to. I think it is the Section 560 of the H.R. 933 which is 
the----
    Secretary Napolitano. The pilots.
    Mr. Cuellar [continuing]. The pilot programs, the public/
private partnership. It does call for five. And any way we can 
work with you to extend that to cover more, we would appreciate 
it. We are extremely interested. It is not only the airports 
and not only the seaports, but the land ports is certainly one.
    As you know talking to some of the folks, we are in the 
process of turning it into a partnership. I would not just say 
one port, but would cover the Laredo district, the Laredo, 
McAllen, Brownsville area as one consortium to do that. There 
are cities that are ready to put money there. Literally they 
are working on putting some deposits, ready to show that it is 
good faith.
    But my understanding is what they are waiting for, Madam 
Secretary, I know this just passed, but guidance from DHS to be 
provided a CBP for the implementation of this new authority.
    So we are ready to work with you because it is not only 
airports or the seaports, but certainly covering the largest 
land port down in the south, the City of Laredo plus the other 
areas. We would ask you to provide that guidance as soon as 
possible, number one.
    That only covers services under the Section 560, but in 
working with the GSA on transfers of land, I think we finally 
got the magic language that GSA has been saying that they need 
to actually provide the transfer. And I think you and I have 
talked about this, transfer of properties instead of just 
services.
    So we are hoping that working with the chairman and the 
rest of the committee we can actually put the language in there 
that I think GSA needs, a different committee, but 
appropriations, so they can actually do the transfer.
    So I think, Mr. Chairman, we finally got that language 
there. So the 560 is on services for a pilot program and then 
the other is for transfer of lands or whatever might be on 
those. So we certainly want to work with you on that aspect.
    The other thing has to do with the modernization, GPRA's 
Modernization Act of 2010, which we passed in a bipartisan way, 
which calls for statutory requirements. And I get all those 
numbers on reports that you all have to turn in. But I think 
this is probably one of the most important, if not the most 
important report because you have to provide your mission.
    That is the map or the guidelines for you to go ahead and 
talk about what your mission is, what your objectives are, what 
performance measures you are, what efficiencies you are looking 
at.
    And I know we were supposed to have gotten one from you 
yesterday, but according to your folks, it is almost submitted. 
It is almost to be submitted. We look forward to working with 
you on that because this will provide an opportunity for your 
department and Members of Congress to work together on some 
areas that we can work together.
    So what is the status of that GPRA report?
    Secretary Napolitano. My understanding is that it is moving 
swiftly through. If it has not been submitted already, it is 
virtually there.
    I know that it looks at three major areas of our mission 
responsibilities, aviation, resilience, I want to say 
immigration, and immigration.
    So I think we will be in compliance with you and get that 
information to you.

                     EFFICIENCIES AND STREAMLINING

    Mr. Cuellar. Yeah. Well, we are appreciative. And I think 
this will be a way we can work together.
    The other question, because I think there will be two 
rounds of questions, but I do want to just add one more thing 
before I yield my time, I do have to commend you. There is 
about three or four pages on efficiencies and streamlining 
operations on your testimony.
    And I look forward because I have some ideas on those 
efficiencies and streamlining, but I would ask you if you can 
have your staff sit down and give us some details as to what 
proposals you have to streamline.
    I believe for fiscal year 2014, you are talking about $1.3 
billion in savings from administrative and mission supports 
which covers travel, technology, personnel moves, overtime, 
purchasing professional services, vehicle management.
    Could you ask your staff to give the committee ourselves a 
detail as to how you intend to save $1.3 billion in savings and 
efficiencies?
    Secretary Napolitano. Yes, sir.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Cuellar. Okay. Mr. Chairman, thank you so much. I yield 
back.
    Mr. Carter. Thank you, Mr. Cuellar.
    We go in the order that people were here at the time of the 
gavel. So Mr. Latham is next.

       BUDGET CUT IMPACTS: TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Latham. Thank you very much, Mr. Chairman.
    Welcome, Madam Secretary.
    On March 4th, you warned airline passengers that they 
should get to the airports extra early because spending cuts 
had already led to long lines in some security check points and 
the coming furloughs would only make the situation worse, and 
that is end of quote.
    Today we know that the flights have not been grounded, long 
lines have not materialized, and government workers have not 
been sent home en masse. And further TSA announces it does not 
expect to furlough any additional screeners in fiscal year 
2013.
    Can you tell us what changed since your warnings when you 
said the sky was falling, and are you making future changes to 
the situation?
    Secretary Napolitano. Well, the major thing that changed is 
we got a budget and we got some additional appropriations in 
the budget after March 4th. And they were specifically for CBP.
    Mr. Latham. You said it was already happening at that time.
    Secretary Napolitano. It was because we were well into the 
fiscal year. We did not know that we were going to get a budget 
and sequestration was already in effect.
    If I might, sequestration is still there and it is still, 
as Representative Price noted, having impacts. And as 
Representative Rogers just described, the wait times at Miami, 
we are seeing that at international arrival airports across the 
board. And let's not mix up CBP and TSA.
    Mr. Latham. Right.
    Secretary Napolitano. With respect to furloughs, we are 
working to minimize any furloughs of personnel as well as 
reductions in overtime pay, but that is easier said than done 
given the way sequestration works.
    Mr. Latham. Right.
    Secretary Napolitano. So we are still working on that final 
plan.
    Mr. Latham. Talking about sequestration, when the President 
proposed sequestration and insisted on it, were you contacted 
as to the ramifications for the department before he insisted 
on including that?
    Secretary Napolitano. Well, I do not want to get into who 
started sequestration, so I won't respond on that. But the 
answer is no one talked to me about sequestration.
    Mr. Latham. Okay. You said the TSA had gotten additional 
funding.
    Secretary Napolitano. No. I said CBP did. CBP got 
additional funding.
    Mr. Latham. Okay.
    Secretary Napolitano. We got some more money for grants. 
With respect to TSA----
    Mr. Latham. Right.
    Secretary Napolitano [continuing]. In going through, we 
discovered some balances in some accounts that we were going to 
be able to move to the TSO [transportation security officer] 
line in the budget.

                    BORDER SECURITY: ALIEN SMUGGLING

    Mr. Latham. As you know, alien smuggling has been a problem 
on the southwest border. Can you tell us what kind of 
enhancements you have made in the last year or so in dealing 
with the problem and what still remains to be done?
    Secretary Napolitano. Well, there are a number of 
enhancements, technology being one, aerial being a second, and 
third, we have been in certain areas, highly trafficked areas 
of the border, actually putting bases physically on the border 
as opposed to having agents travel out from their central--or 
from their headquarters.
    So what we are seeing is that the traffic basically is 
still going down. We are still at 1970s levels. As I mentioned 
earlier, we are having a spike right now in the southern part 
of Texas, excuse me, in the Rio Grande Valley there. We now 
have, really, the ability to move resources and technology, an 
ability we really didn't have 6 or 7 years ago, to go ahead and 
get ahead of that traffic in Florida.
    I would mention that most of that increase is not Mexican 
nationals. They are from Central America. They are economic 
migrants, and that really ties into the need for immigration 
reform because, as you know, the process for immigrating 
legally into the country is very backlogged and very 
cumbersome.
    Mr. Latham. That is one of the stumbling blocks so that is 
the idea of securing the border first before you get any 
immigration reform.
    Secretary Napolitano. Yeah, I think, and I testified to 
this, if I might, having spent 20 years on this issue.
    I think it appropriate not to think of it in terms of a 
line, but it is really, it is really a system, a system that 
requires and gives us the ability to do more against employers 
who hire illegal labor--that is a major driver on the border--a 
system that opens up the visa process appropriately to more 
incoming, and then continued efforts along the border, both at 
the ports of entry and in between the ports.
    Mr. Latham. Thank you, Mr. Chairman.
    Mr. Carter. Well, thank you, Mr. Latham.
    Before we go to Mr. Owens, I have a request to recognize 
Chairman Rogers for a moment.

           FEDERAL EMERGENCY MANAGEMENT AGENCY REIMBURSEMENTS

    Mr. Rogers. Thank you, Chairman. I will be very brief.
    Madam Secretary, we had a terribly devastating tornado in 
2012 in my district in East Kentucky. West Liberty was 
practically erased. It was a terrible disaster.
    FEMA was prompt, got there quickly, early on, great help. 
The County Executive now is having big difficulties with FEMA 
over reimbursements for certain projects. If I gave you this 
letter that the administrator of the county had written FEMA, 
would you be able to look into this for me?
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Secretary Napolitano. Yes, sir. Absolutely.
    Mr. Rogers. It is a tragic case. Thank you.
    Secretary Napolitano. Yeah, absolutely. I know the tornado 
you are speaking about.
    Mr. Carter. Thank you, Mr. Chairman.

                         PAY SYSTEMS, DIFFERING

    Mr. Owens. Thank you, Mr. Chairman, Madam Secretary. Thank 
you for being here.
    I am going to focus on the border that usually isn't 
focused on from a perspective. I am hearing a lot from border 
patrol agents along the northern border in my district about 
what they perceive to be a disproportionate reduction in 
overtime to the border patrol as well as, if you will, a 
greater number of furloughs. A lot of concern about that at 
every level, both from a personal but also from a security 
perspective.
    And in testimony that we have heard before, ICE seems to 
have approached it differently. Other agencies within DHS 
appear to be approaching it differently. Assuming we are 
working off the same piece of legislation, I am curious as to 
why that is happening.
    Secretary Napolitano. Yes, we may be working off the same 
piece of legislation but we are not working off the same pay 
systems. Remember, these are legacy agencies that came into the 
department, so they don't have one unified pay system.
    With respect to Border Patrol, they get what is called AUO 
[administratively uncontrollable overtime] as their premium 
pay. They are not under the LEAP [law enforcement availability 
pay] system and their pay basically is just calculated very 
differently than other elements of the department and as 
sequestration comes into effect, it is account by account by 
account, so even if I wanted to, I can't take from Peter over 
here to pay Paul.
    Now, with the additional money that was added in late March 
for CBP of which 96 or 97 million was specific for Border 
Patrol, we are now working that through to see how it can be 
used to reduce any reductions in premium pay and furlough days.
    We are doing the same account by account by account, so we 
are doing the same with port officers who are paid differently. 
They came out of Customs not out of INS [Immigration and 
Naturalization Service]. So that is the reason why there is a 
difference.
    And we can provide your staff with, if they would like, a 
detailed briefing of how that works.
    Mr. Owens. In the short term, about how long will your 
analysis take and when will that be communicated to the people 
on the ground?
    Secretary Napolitano. Well, we sent an email, Tom 
Winkowski, the acting commissioner, sent an email to staff 
yesterday saying steady as she goes for right now. As I 
mentioned, we are working with the Office of Personnel 
Management, and we are going to have to seek some 
reprogrammings and OMB has to be involved in that.
    I would like it to have been done 2 weeks ago because I 
know the stress level that it causes. We are moving as rapidly 
as we can to get this settled.
    Mr. Owens. We will take you up on your invitation for a 
briefing.
    Secretary Napolitano. Okay.

                           BEYOND THE BORDER

    Mr. Owens. Secondarily, can you have your staff, and I 
would not expect you to have this information in front of you, 
but in terms of implementation of Beyond the Border, the sense 
that we have, those of use who are interested in it, those of 
us who communicate with our Canadian colleagues, is that Canada 
is moving more deliberately towards implementation, is funding 
it more directly. That may be simply because our budget is much 
larger and it is more difficult to see exactly what DHS is 
doing relative to implementation.
    If someone could give us a breakdown of implementation, 
that would be very helpful.
    Secretary Napolitano. Yes, and I just had a meeting, a bi-
lat with my counterparty in Canada, Minister Toews. He did not 
raise that concern by the way, and we actually have a Beyond 
the Border team, that is the U.S. and Canadian, and they have a 
joint time frame and timeline. There are some things we want to 
move ahead on that Canada can't move ahead on without passing 
legislation through their parliament, and so we are waiting for 
the Prime Minister to offer that legislation.
    So there is give and go on both sides, but I will say 
overall that Beyond the Border is on time and we have really 
moved mountains there in the last 2 years.
    [The information follows:]

    Response: The December 2012 Beyond the Border the Border 
Implementation Report was provided separately to the Committee.

    Mr. Owens. And clearly if it is very important, it also 
will save us, I think, some dollars in the long run.
    Secretary Napolitano. It will generate jobs on this side of 
the border I am confident.

                    REIMBURSABLE AGREEMENTS: CANADA

    Mr. Owens. One of the other things I wanted to talk to you 
about relates to the reimbursable agreements. I represent an 
area that has many small ports, creates a number of issues. 
Clearly, I think we need to be moving towards a greater use of 
technology in those ports where we can have them manned by 
Canadians, in some instances U.S. and other instances.
    But also, we run into situations where there are a lot of 
small airports that are just on our side of the border where we 
do have Canadians coming in and we need access to CBP folks in 
order to clear them, and we are having some difficulty in that 
process.
    The airports are willing to pay for that service. In many 
cases the available staff is a half hour to forty-five minutes 
away.
    We would like to see some more flexibility in that arena, 
so that in fact we can continue to enhance the utilization of 
these small airports by our Canadian neighbors.
    Secretary Napolitano. Yes, Representative. And that is why 
the President's fiscal year 2014 budget requests universal 
authority to enter into those agreements. It is not limited to 
five pilot projects.
    But these small airports between the FAA and CBP, you are 
undoubtedly going to see a reduction in capability with 
sequester, you know, being in effect for the rest of the year. 
Hopefully it ends soon or at least by the end of the year.
    But we, like you, recognize the potential of partnerships 
with some of these smaller communities because these small 
airports are a part of their economic plan, so we will work 
with you on that, but I will direct you to that portion of the 
President's budget.
    Mr. Owens. Thank you very much. I yield back.
    Mr. Carter. Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman.
    Welcome, Madam Secretary.

PERSONNEL COSTS: CUSTOMS AND BORDER PROTECTION, TRANSPORTATION SECURITY 
                             ADMINISTRATION

    Madam Secretary, as some of my colleagues have mentioned, 
we have seen conflicting reports about CBP's plans to furlough 
and cut overtime pay for border patrol agents and there is 
obvious concern about the ability to fund the number of CBP 
personnel that this budget calls for at our ports of entry.
    With CBP's apparent troubles making decisions about current 
personnel, as you consider making private reimbursements of CBP 
personnel, what role do you see the Screening Partnership 
Program playing at TSA as a way to manage costs?
    Secretary Napolitano. Well, you have got apples and oranges 
in there. It is CBP by the way. With respect to CBP as I 
mentioned, we are in the process now of unpacking what Congress 
ultimately passed for CBP and we appreciate the additional 
appropriation there.
    And running the traps through OPM, OMB [Office of 
Management and Budget], and we will have to come back, I 
suspect, as soon as possible with some reprogramming requests. 
That is why there is no firm answer yet for Customs and Border 
Protection.
    With respect to the privatization, the SPP [Screening 
Partnership Program] for TSA, we have received, I think, 27 
total applications and approved, I want to say, 22 or 24; two 
are pending. So that is moving along.
    We have not had a great demand for that by airports by the 
way. It is not as if there is a queue to privatize in that 
arena. But for those that have applied, we have been moving 
those very quickly.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back.
    Mr. Carter. Mr. Aderholt.

         STAFFING MODEL: TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Aderholt. Thank you, Mr. Chairman.
    Madam Secretary, good to have you here today and for the 
subcommittee and it is encouraging to see a resolve that has 
moved ahead with a Level 4 lab facility known as IMBAC. This is 
a capability, as you know and we have discussed many times in 
the past and it is important for it appear in the President's 
budget, so that is encouraging, I think, to all of us to see it 
move forward on that.
    I want to follow up a little bit with a question that Mr. 
Fleischmann has asked about the private screening. I know that 
Chairman Carter's staff has been engaged in the Office of the 
CFO at TSA in order to determine whether a review of 
applications from a private screening company really is truly 
comparing apples to apples. And I am referring to comparing the 
cost of TSA screeners versus private company screeners when it 
comes to matters as how many supervisors per screeners are 
required, how many TSA employees are counted or not counted in 
the TSA model and when TSA employees perhaps have more than one 
they do with an airport.
    Can you give the subcommittee an indication of the progress 
in getting those metrics back to the committee?
    Secretary Napolitano. I will follow up with TSA after this 
hearing. You want the metrics on what TSA's staffing model is?
    Mr. Aderholt. Right, and how those compare so that when you 
do a comparison, you are comparing apples to apples as compares 
to, you know, to truly get a cost of what the real cost in 
comparing the private screeners as opposed to TSA.
    Secretary Napolitano. And that is so that we can do the 
comparison over time because as I mentioned to Representative 
Fleischmann, if we have denied any agreements, it may only be 
one, but we have been granting them, so that comparison has not 
been used as a reason for any kind of miles.
    But I think over time that is a very useful set of metrics 
to have, so let me see where we are on that.
    [The information follows:]

    Response: When comparing the costs of private screening to Federal 
screening, TSA uses actual costs from contracts which are currently in 
place under the Screening Partnership Program (SPP) and looks at 
comparable Federal screening costs at non-SPP airports to obtain an 
``apples to apples'' comparison. When assessing the cost of Federal 
screening, estimates are based on actual expenditures specific to the 
airport which directly align with the contracted screening proposal to 
enable comparison to the actual costs of private screening. The current 
methodology for estimating the cost of Federal screening incorporates 
GAO recommendations and has been reviewed by DHS cost estimation 
experts. The estimated cost of Federal screening accounts for all cost 
elements and includes:
          <bullet> Compensation (pay and benefits, premium pay, 
        bonuses, etc.)
          <bullet> Ancillary costs such as uniforms, facilities, and 
        training
          <bullet> Overhead costs and Worker's compensation
          <bullet> Increased TSA management staff if the airport 
        already participates in SPP
          <bullet> Adjustments for liability insurance
          <bullet> Adjustments for taxes recouped
          <bullet> Adjustments for future retirement liabilities
          <bullet> Transition costs (Federal to private and private to 
        Federal)
          <bullet> The cost of deploying TSA national deployment force 
        as necessary
    Lastly, there are some Federal positions that are present at 
airports regardless if the airport uses private or Federal screeners 
and are not redundant. These positions provide overall supervision and 
responsibility for security. The allocation of these positions is 
determined by established business rules. These types of staff 
allocations are lower at SPP airports than Federal since they are not 
responsible for personnel management of security officers. Because 
these Federal positions are present in both cases, they are not 
included in the cost analysis comparison.

                  FEDERAL FLIGHT DECK OFFICER PROGRAM

    Mr. Aderholt. Okay. If you could follow up with that and 
get us the information on that.
    Administrator Pistole testified before Congress regarding 
changes to the TSA prohibited items list and the need for TSA 
to continually mature its risk-based security processes in 
order to defend against critical threats such as those posed by 
non-metallic explosive devices.
    During that testimony with Administrator Pistole, he 
commented on the value of the Federal Flight Deck Officer 
Program [FFDO] in positioning TSA to implement other critical 
needed risk-based measures.
    In view of the President's proposal for the FFDO program, 
it seems reasonable to conclude that you either agree with the 
Administrator's assessment of the value of this program in 
implementing significant risk-based security strategies or not 
the need for this. So I just wanted to see what your position 
on this was in moving forward.
    Secretary Napolitano. Yes, I think what we have done in 
President's budget with respect to FFDOs, which is not a risk-
based program per se, it is just where you have a pilot you 
have a pilot who may be on a flight.
    But nonetheless, we are working through the carriers 
themselves and offering training for those who seek to be 
FFDOs, and I think that is the appropriate way to go.
    Mr. Aderholt. So you would agree with the Administrator 
that this is an important thing to move forward on?
    Secretary Napolitano. I would. I wouldn't say it is the 
most important thing if I had to rank, but it is certainly 
there. And as I said before in preparing the budget we decided 
that the way to go was to offer the training through the 
carriers themselves.
    Mr. Aderholt. Yeah, well, you know, the concern about it 
was, as far as the budget zeros out this program, and that is, 
you know, the thing that, you know, TSA Administrator Pistole 
says that it is, you know, there is a real value on this and 
there is zero in the budget for it, so I think that is the 
concern, so I just wanted to know where you came down as far as 
between the, you know, thinking this is something that we need 
to put value on or whether it is not something that needs to 
be, you know, has little value.
    Secretary Napolitano. As I said, I think to the extent we 
offer training, there is a value, but if I had to rank the 
programs in TSA according to whether they are risk based or 
not, this would not be of much value.
    Mr. Aderholt. Thank you. I yield back.
    Mr. Carter. Mr. Culberson.

             REIMBURSABLE AGREEMENTS: UNITED ARAB EMIRATES

    Mr. Culberson. Thank you, Mr. Chairman.
    Madam Secretary, I have two areas I wanted to ask about and 
then I know we are going to have a second round. Airline pilots 
associations have brought to my attention that in its budget 
proposals CBP is attempting to establish a preclearance 
facility at the Abu Dhabi International Airport in United Arab 
Emirates, yet I am aware that the agency has not been fully 
funding facilities here in the United States and I understand 
also from the pilots association that no U.S. airline even 
serves Abu Dhabi.
    Could you please talk to us about why you would expand a 
preclearance facility in a foreign airport benefitting foreign 
airlines when you are short of money and no U.S. airline even 
serves that airport and you are not fully staffing, for 
example, the facility at the Houston Intercontinental Airport 
and other airports in the United States. What is the logic?
    Secretary Napolitano. Well, this is--yes. The strategic 
goal we have in mind is to push borders out because our ability 
to minimize risk is maximized the further out we can go. It 
just gives us one more layer.
    This is in the initial stages of negotiation. It would be a 
reimbursable agreement. In other words, the U.S. taxpayer would 
not be paying for it. But it would allow us for the first time 
in the Middle East where we have a keen interest in making sure 
the traveling public is safe, to try this out.
    There are several other countries that are interested in 
doing the same thing, but again from a security strategy 
perspective, moving the borders out as well as maintaining what 
we have here makes all the sense in the world.
    Mr. Culberson. And you said you have zero cost to U.S. 
taxpayers?
    Secretary Napolitano. It would be a reimbursable agreement.
    Mr. Culberson. At zero cost?
    Secretary Napolitano. Yes. That is reimbursable.

         CUSTOMS AND BORDER PROTECTION: AIRPORT STAFFING LEVELS

    Mr. Culberson. Yeah, but that is the goal, is to make it 
zero cost.
    We have an urgent need for additional agents at facilities, 
for example, at the Eastern Airport. I know others around the 
country, and I understand what you are saying about 
reimbursable and pushing the borders out. What can you tell us 
about increasing the staffing levels like, for examples, 
facilities at Houston and other airports so that there is not 
delay that causes people to miss flights when the flight's 
coming in from its international origin, lands in Houston, 
transfers to another flight going overseas? You guys have 
downsized the staffing levels and it is causing a lot of folks 
to miss flights.
    Secretary Napolitano. Well, we haven't downsized staffing 
levels. The fact is, the traveling public has increased and we 
haven't increased staffing levels.
    What the President is requesting in the budget is the 
ability to add 3,400 more CBP officers for the airports and the 
land ports, 1,600 to be paid for by Appropriation, the 
remainder by an increase in the Immigration User Fee and the 
COBRA fee, a $2 increase, which would cover the costs of that.
    We believe we have the capacity to bring on board, train 
and deploy that significant number within fiscal year 2014. 
That will go a long way based on our calculations and 
assessment to mitigating lines.
    We also have Global Entry and PreCheck to expedite 
travelers, and we have piloted--I actually think one of the 
Houston airports is part of the pilot--Express Check, as well 
as One Stop Check to facilitate the movement of passengers.

                            DETAINEES: LAWS

    Mr. Culberson. Right. Moving on to another subject I want 
to ask you about--if Congress enacts a law that uses the word 
``shall'', what does ``shall'' mean?
    Secretary Napolitano. Shall means shall.
    Mr. Culberson. Is there any discretion, if the law says 
``shall'', what options does that give a federal agency? I mean 
``shall'' means shall. You have to do it.
    Secretary Napolitano. Well----
    Mr. Culberson. It means shall. That is mandatory, right?
    Secretary Napolitano. It is intended to be mandatory. 
However, when it says ``shall'' and subsequently doesn't 
appropriate the money to meet the ``shall'', you have a 
difficult choice to make. Do you violate the appropriations 
that you were given and do you violate those laws or do you 
violate the underlying law?
    So every time we have a ceiling, floor, or a bed level or 
what have you, in my view that means shall, subject to 
appropriations.
    Mr. Culberson. Well, and if you have two laws, one that 
says you shall build a new office building or shall expand 
headquarters and another law that says you shall protect public 
safety when you are short of money, which one of those would 
you do first?
    Secretary Napolitano. Well, obviously public safety is 
always our number one priority.
    Mr. Culberson. Particularly if it has a ``shall''. It is 
not optional.
    Secretary Napolitano. It is just, we were founded in 
response to 9/11, and public safety is our number one goal, but 
if you look at, and I think you are getting to why is there 
money in here for a headquarters for DHS.
    Our ability to connect the dots and to work in an 
integrated fashion is facilitated by having a headquarters 
where people can actually meet and talk with each other. We are 
at fifty-plus buildings in the National Capitol Region, so to 
do our best work, ultimately we are going to need a 
headquarters.
    Mr. Culberson. If ``shall'' is not optional therefore, you 
have to make choices and you don't have enough money to do 
everything on your plate and your top priority is protecting 
public safety, would the Department of Homeland Security be 
doing its job if ICE agents released onto the street a criminal 
who had been arrested by local enforcement authorities for 
assault, sexual assault, drug dealing or other crimes? ICE has 
a mandatory ``shall'' responsibility to hold those people 
pending the termination of their final disposition, would the 
Department of Homeland Security be doing its job if they 
released criminals who had been arrested for assault of other 
violent crimes in light of the statute that says they shall be 
held for removal proceedings?
    Secretary Napolitano. Well, two things. One, there were a 
handful of level ones released. That was a mistake but, 
nonetheless, it was a mistake made because when you look at the 
underlying facts of each arrest and you look at the actual 
detainee, they were determined not to be a danger to public 
safety.
    The President's budget for ICE provides for the detention 
beds for all those who are mandatory detainees.
    Mr. Culberson. If I may, excuse me for the interruption 
because our time is limited and the Chairman has been very 
generous, but you say the agents determine the criminals are 
not a threat to public safety. I don't see that determination 
language in the statute that mandates that ICE hold these 
folks. The statute is Title VIII, Section 1225 of the United 
States Code and I don't see language requiring a determination 
that they are a threat to public safety.
    The statute is very clear that an ICE agent determines, 
quoting from the statute that, ``An alien seeking admission is 
not clearly and beyond a doubt entitled to be admitted. The 
alien shall be detained for removal proceedings.''
    There is nothing about a determination of public safety. 
That is not optional. That is mandatory or in violation of the 
law and have endangered the safety of the people of the United 
States that you are sworn to protect by releasing these 
dangerous criminals.
    Secretary Napolitano. Well, I think we have to be very 
careful in our language here, Representative. The individuals 
that were released by ICE were not released into the general 
population per se. They were put in an alternative to 
detention.
    We believe that alternatives to detention have become much 
better than they were years ago and, by the way, are more cost 
effective and efficient.
    If a mistake was made on a particular release, we will deal 
with that and with the agent or agents involved with that 
mistake.
    Mr. Culberson. So a release, that in this case you admit 
that was a mistake and I am glad to hear you say that. So you 
agree that that is a mandatory obligation on the part of ICE, 
the statute's very clear, ``the alien shall be detained for 
removal proceedings.'' That is not optional.
    Secretary Napolitano. Well, again, with respect to how we 
manage the beds, right, I think Representative Price has it 
right. We ought to be detaining according to our priorities, 
according to public safety threats, level of offense and the 
like, so according to the individual, not an arbitrary bed 
number.
    Mr. Culberson. Thank you, Mr. Chairman, for the time.
    Mr. Carter. And Ms. Roybal-Allard.

                      PRISON RAPE ELIMINATION ACT

    Ms. Roybal-Allard. Thank you, Mr. Chairman. I apologize for 
being late but I was in another hearing.
    I would like to thank you and President Obama for extending 
the Prison Rape Elimination Act [PREA] to apply to immigration 
detention facilities. As you know, according to DHS records 
obtained by the ACLU more than 180 cases of sexual abuse in 
detention centers were reported between 2007 and mid-2011, and 
your extension of PREA will make a huge difference in 
protecting detained women from sexual assault.
    However, I understand one of the challenges that you face 
with implementing the PREA regulations is the fact that the 
majority of ICE detainees are held in state, local and 
privately run facilities.
    Once the regulations are finalized, how long will it take 
to fully implement these regulations at every facility and how 
will you assure that contract facilities are complying with the 
requirements of the PREA?
    Secretary Napolitano. Yeah, we have a whole implementation 
plan for PREA. It is an important value. It is important to us 
that those whom the law is detaining, the government is 
detaining be done in a safe manner. So we have a whole 
implementation plan.
    With respect to the private contractors, many of them are 
holding inmates for other entities rights, so they already are 
beginning to deploy PREA because they have to but, nonetheless, 
as a fairly large consumer in the private prison realm. That is 
something we will attempt to implement now, but also as their 
contracts come up for renewal.
    Ms. Roybal-Allard. So there will be some oversight even if 
it is based on whether or not they get a contract renewal, but 
that is part of what will be looked at----
    Secretary Napolitano. Yes.

                         ALIEN ABUSE AND DEATHS

    Ms. Roybal-Allard [continuing]. In determining that?
    Secretary Napolitano. Yes.
    Ms. Roybal-Allard. Okay. Over the past three years at least 
20 different individuals have died in incidents involving CBP 
personnel. And I personally met with several other families and 
their stories really are heartbreaking. For example, Anastasio 
Hernandez Rojas, who is a father of five, died after being 
beaten and tazed five times near San Diego, even though video 
footage showed that he was not resisting arrest.
    Similarly, in Arizona, a man named Jose Gutierrez who was 
trying to reach his hospitalized U.S. citizen daughter, was 
beaten into a coma by CBP officers and suffered serious brain 
damage.
    The President's immigration reform proposal recognized the 
need to address this pattern of abuse by calling for increased 
civil rights and civil liberties training for border 
enforcement personnel. What steps are you taking in response to 
the President's proposal to prevent future incidents of abuse 
and unnecessary deaths at the border and is this one of the 
priorities?
    Secretary Napolitano. Yes, and if I might, I think we need 
to be careful not to extrapolate from individual cases to cases 
as a whole. As you know, we process hundreds of thousands of 
individuals every year.
    With respect to use of force, an appropriate use of force, 
we examine each and every case in which there is a death to 
evaluate what happened and whether or not the agent or agents 
involved should be subject to some sort of disciplinary 
measure.
    In extreme cases we involve the Department of Justice and 
the FBI [Federal Bureau of Investigation] and that really can 
elongate everything because those investigations take a long 
time, but our interest is in making sure it is a safe and 
secure border through which travel and trade can occur. We want 
to facilitate that, but we want to make sure that we meet our 
law enforcement responsibilities there.
    Ms. Roybal-Allard. Okay, but there will be training?
    Secretary Napolitano. There is training now. There is 
absolutely training now, yes.
    Ms. Roybal-Allard. Thank you.
    Mr. Carter. Mr. Dent.

            CUSTOMS AND BORDER PROTECTION: AVIATION STAFFING

    Mr. Dent. Thanks, Mr. Chairman. Good to see you again, 
Madam Secretary.
    A couple of questions. Some of my airports were concerned 
about some issues as it relates to CBP. One question 
specifically--when can the aviation industry, airlines and 
airports, expect to get information on the CBP staffing 
allocation, we can learn that issue, and will CBP share that 
information with the ports of entry about how many staff are 
allocated to their POE.
    Secretary Napolitano. Right now, Representative Dent, what 
we are trying to do is take the additional money that was 
ultimately appropriated to CBP and identify how it works, which 
account it can go in and so forth.
    We do have a staffing model that we are using and that 
underlies our request for 3,400 more port officers and will be 
happy to discuss that with your staff.

            TRANSPORTATION WORKER IDENTIFICATION CREDENTIAL

    Mr. Dent. Thank you. I appreciate that. I like to get more 
updated. Some of my airports are inquiring so thank you for 
that.
    On the issue of CFATS, as required by, you know, the CFATS 
for regulated facilities must implement measures designed to 
identify people with terrorist ties. The agency's expectation 
of recurrent vetting may exceed the scope of the regulation. If 
so, this unnecessarily prohibits the use of every compliant and 
credentialing program to meet the CFATS requirement, except 
TWIC card.
    Industry has maintained that the acceptance of other 
federal credentials which vet against the terrorist screen 
database meet the CFATS requirement. What is NPPD doing to 
address that requirement?
    Secretary Napolitano. The TWIC card requirement, if I 
might?
    Mr. Dent. Yeah.
    Secretary Napolitano. Well, right now I'm unaware of any 
effort to change it, but I do know that there are regulations 
underway. If they haven't been issued already, they will soon 
be issued on TWIC Readers, as well as on how people can renew 
their TWIC IDs. We have developed kind of a less expensive TWIC 
ID that only requires an individual to make one trip, so we are 
trying to facilitate and streamline the entire process.

               CHEMICAL FACILITY ANTI-TERRORISM STANDARDS

    Mr. Dent. Thank you. And under CFATS, once a facility is 
assigned final tier, it is to submit a site security plan, and 
the 2011 internal memorandum that discussed various challenges 
facing the CFATS program stated the process was overly 
complicated, you know, based on recent testimony by GAO on 
infrastructure protection. The Infrastructure Security and 
Compliance Division, ISCD, has improved its security plan 
review process, but GAO estimates it could take another seven 
to nine years to review the plans at thousands of these 
facilities that have already been assigned a final tier. I 
think we would agree that is not acceptable.
    How can the ISCD further accelerate the review process at 
these facilities?
    Secretary Napolitano. Yeah, we are looking at that. 
Obviously, we would like to be able to do the review more 
quickly than that.
    It is partially a personnel and resource issue quite 
frankly, but the CFATS program as you know got off to a rocky 
and slow start and we have had to take a number of measures to 
improve it, put it on timelines with benchmarks.
    They are making and have made terrific progress over the 
last year. They are going to continue to make progress. I hope 
we can bring down that review number.

                       DETENTION BEDS: POPULATION

    Mr. Dent. And finally, and I don't know how much time I 
have left, but I will be real quick on this. With respect to 
ICE and detention beds and I think Judge Carter probably 
already spoke about that issue, you know, I too, like Judge 
Carter, was concerned about the timing of the statements, pre-
implementation of sequester with respect to the visa-certain 
detainees. I understand that this happens from time to time for 
various reasons. Is our capacity today 34,000 beds and do we 
have as many as 37,000 detainees on Sundays, is that true? I am 
trying to get the numbers. I know you were requesting, I think, 
31,800 beds in the budget request, and there are 34,000 
available detention beds is my understanding. But we have had 
as many as, is it true, 37,000?
    Secretary Napolitano. Yeah, detention populations ebb and 
flow, and that is one of the problems of managing with a bed 
number as opposed to looking at the actual facts of a 
particular case as to whether detention is appropriate or not.
    The President's budget is designed to make sure that all 
mandatory detainees have a bed and all the costs that go along 
with being detained. But it is also designed to facilitate 
alternatives to detention.
    And just like last year we asked for the flexibility to 
move money, you know, between those accounts in case we have a 
spike that needed mandatory detention, we were able to cover 
that.

                      BORDER SECURITY: TECHNOLOGY

    Mr. Dent. And this is more comment than question. As we 
engage in this whole discussion of comprehensive immigration 
reform, let us face it, the public doesn't trust us when we say 
the border's operationally secured. They don't trust us on the 
issue of enforcement.
    How do you think we should go about verifying or certifying 
that the border is operationally secure to trigger whatever may 
come out of any immigration reform bill? What would you advise 
to this subcommittee?
    Secretary Napolitano. You know, public perceptions are 
difficult to change, but anyone who has been at that border 
recognizes that it is very different now than it was then or 
when illegal immigration was illegal--I mean, was at record 
highs.
    I think we need to continue to look at staffing and 
technology at the border. I actually think the technology is 
key. I also believe, however, that we can relieve pressure on 
the border itself if we had more tools to deal with the two 
drivers of illegal immigration, work and employers on this side 
of the border. We need E-Verify or something of that sort, and 
we need greater penalties for employers who break the law and 
we need to reform the legal migration system.
    That all is knit together. Then that would free up 
resources to focus on the narco and others who are using that 
border.
    Mr. Dent. What is the holdup at USCIS on developing a 
biometric ID for all visitors coming into this country? I go 
into Disney World, into the Magic Kingdom, and they take a 
biometric ID of me and they take my thumb print and they 
process it in all of about 30 seconds and it is biometric and 
they can do it, processing tens of thousands of folks a day.
    Why can't we do this? It has been years we have been 
talking about it and what would you recommend?
    Secretary Napolitano. Why can't we do it? Because it is 
very, very expensive and because we are checking more databases 
than Disneyland is checking.
    Mr. Dent. Well, the banks, too. I mean, all right. I was 
going to say the banks and I can take money out and support----
    Secretary Napolitano. They are not looking at all the 
things that we should be and must look at for security reasons.
    However, we have developed, using the dozens of databases 
that we have, a very enhanced process for measuring exit that 
is virtually the same as biometric, and I would be happy to get 
you briefed on that.
    Mr. Dent. That would be great. Thank you.
    Thank you, Judge.
    Secretary Napolitano. Yeah, sorry to go overtime.
    Mr. Carter. Madam Secretary, I have talked to my colleague, 
Mr. Price. We are going to have a brief second round, and you 
have brought up several--it is like you were reading my mind. 
You mentioned de-verify.
    The budget request includes a modest increase in that 
system, but in the context of immigration reform which you and 
I have talked about, much more is needed. As most if not all 
proposals that we see, both the Senate and the House, include 
mandatory employment verification system which is E-Verify.
    For that reason, sixteen months ago, DHS was required to 
formally submit a report on the cost of mandatory E-Verify, a 
report, the basic cost data and assumptions that DHS has 
already produced internally.
    In the media a couple of months ago with you and I 
personally, you pledged to me to provide me this report. You 
agreed that months before, there was a discussion, and quite 
honestly I could use it tonight okay but I don't have it, and 
there are others that are working on immigration issues. And E-
Verify, the number is very critical to the analysis as anyone 
starts to look at immigration reform.
    I am not trying to be a horse's ass on this one. I am being 
serious. We need this one, okay.
    Secretary Napolitano. Let me follow up on that and see 
where that is and get back to.
    Mr. Carter. We really need this.
    Secretary Napolitano. I got you.
    Mr. Carter. Give me some idea because I have got scheduled 
on my secret committee which is not so secret anymore----
    Secretary Napolitano. The non-secret secret committee?
    Mr. Carter. Yeah. So anyway, you know, the very----
    Secretary Napolitano. Mr. Chairman, I understand. Let me go 
track that down.

                          REPORT, COAST GUARD

    Mr. Carter. Okay. Thank you very much.
    And finally, I want to just mention the reports that I have 
been trying to get back, if we could get that Coast Guard 
report ASAP. The Commandant will be in next week.
    Okay. Next week he will be in.
    Secretary Napolitano. It will certainly be in as soon as 
possible, yes, and no later than May 1.
    Mr. Carter. Well, if it is any chance we can get it before 
we have to talk to the Commandant, it certainly would be 
helpful.
    Secretary Napolitano. I understand.
    Mr. Carter. All right. Mr. Price.

                  NATIONAL PREPAREDNESS GRANT PROGRAM

    Mr. Price. Thank you, Mr. Chairman.
    I will touch on two topics quickly and submit the other 
questions for the record.
    I do want to revisit the question of border security, but 
first I want to just register a strong concern about the FEMA 
state and local grant programs.
    The fiscal 2014 budget request proposes a total of $2.1 
billion for state and local and first responder grants.
    That is a decrease of $367 million from fiscal 2013. And as 
you know, we worked very, very hard in fiscal 2013 to get that 
number up from a disastrously low number in 2012, so we have 
worked on this a long time.
    And then there is this question of reorganization. 
Significant restructuring is proposed for the state and local 
grant programs in the broad categories and that is despite the 
prohibition of that kind of shift in the fiscal 2013 Act.
    So I want to ask you a few questions about this and you 
might want to elaborate for the record. The fiscal 2013 Act did 
prohibit the department for implementing this broad national 
preparedness grant program without an explicit authorization 
and it provided specific funding levels for the urban area 
grants, port and transit security and fire fighters and other 
existing programs and this was a broad agreement with Chairman 
Aderholt, then the chairman of this subcommittee, Chairwoman 
Landrieu, Ranking Member Coats and myself.
    We earnestly examined and discussed what we perceived as 
flaws in that national preparedness grant program concept. Each 
of these grant programs operates under different authorities, 
has its own purposes as reflected in different formulas. So 
they are challenged this year.
    So just quickly, do you plan on seeking authorization 
legislation this year for a proposed national----
    Secretary Napolitano. Yes. Yes.
    Mr. Price. All right. That is to that one.
    I want you to tell me more about the rationale for this 
proposal. How different is it or is it different from the 
proposal Congress specifically rejected just a few weeks ago? 
And are there changes that are responsive to some of the 
criticisms?
    Now, I know in the past, you have talked about the 
desirability of more directly assessing risk and moving quickly 
to procure deployable assets. I wonder what the implications 
are for longer term security and hardening projects such as 
those that we fund through the port and transit grants?
    Secretary Napolitano. Well, if I might. Going back to the 
amount that the President requests in the fiscal year 2014 
budget, in terms of the actual grant dollars available, it is 
virtually the same, but we have moved some of the 
administrative expenses into other line items within the FEMA 
budget, so we will be happy to walk that through with you.
    With respect to grant consolidation, yes, we are coming 
back. We have had over 70 conferences, meetings, et cetera, 
with stakeholders since our last proposal and we have made some 
changes in that proposal as a result. We offer it to the 
committee and we are going to offer it to the authorizers for 
your consideration because, just as you said, these are legacy 
grant programs that came from different statutes, different 
committees. They used different formulas, et cetera, et cetera.
    What we want and what we believe is better for the country 
is to put these all under one roof, which by the way diminishes 
the administrative cost for the grantees, and so we can fairly 
assess risk across the board and really look at national 
capacity.
    And what I mean by that, Chairman, almost Chairman--Ranking 
Member Price, excuse me--is for example, we want to have the 
ability to say, you know, every locality should have a grant 
for its own hazmat team or maybe we can have a hazmat 
capability for a small region.
    Does every grantee need the same number of K-9 detection 
teams, same logic?
    So I think from an administrative perspective, a 
simplification perspective, and an ability to get us to a 
national capacity evaluation as opposed to grantee by grantee 
by grantee, consolidation should be evaluated.
    Mr. Price. All right. We, of course, have had the budget 
only a day, so we will look in more detail at the changes you 
are proposing and the rationale for them.
    There was a welter of grants at one point. We use to have 
many, many more $50 million range grants and I think it was 
desirable to clean some of that up and to consolidate some of 
that.
    But when you talk about legacy programs, some of these 
aren't such ancient legacies. The Port and Transit Grants 
actually are fairly recent and they are there for a reason. 
They are risk based, and they focus on specific 
vulnerabilities, and I just think there are genuine questions 
as to the degree to which these efforts should be folded 
together, particularly when it is accompanied by reductions in 
funding.
    Secretary Napolitano. You know, every region is to prepare 
its own Threat Hazard Identification and Risk Assessment. It is 
designed to take those characteristics of the port and transit 
security grants and be able to use it more broadly, so I am 
hopeful. I am always an optimist. I am hopeful that I can begin 
to persuade the committee that consolidation in this regard 
makes a lot of sense.
    But obviously you have more questions. We will be happy to 
answer those.
    Mr. Price. Right, and there are questions about an 
authorization as opposed to doing this simply through 
appropriations. All right.
    Secretary Napolitano. And we do intend to submit 
authorizing language.

                  BORDER SECURITY: IMMIGRATION REFORM

    Mr. Price. All right. Let me quickly wrap up with a 
revisiting of this border security issue which, of course, has 
had you and me in the news accounts and as the bipartisan 
groups in both chambers work on immigration reform. This 
question of border security as a precondition for reform has 
come up and I indicated in my opening statement, that sets off 
some alarm bells because one could imagine that being a real 
obstacle to progress and almost an undefinable objective for 
the way some might interpret it.
    I am going to ask you to submit for the record as opposed 
to doing this orally, some of the estimates that you might give 
us about your preparation for immigration reform more broadly, 
especially the operations of Citizenship and Immigration 
Services and the kind of preplanning, and anticipation of 
expenses and organizational needs.
    We need to know more about this, but here in just the open 
session, I want to wrap up by returning to that question of 
security as a piece of the puzzle.
    In your response to Mr. Dent just a moment ago, I heard you 
say, I believe, that border security really is both cause and 
effect, or the causal areas work both ways. You can say we 
don't undertake broad reform until a certain level of security 
is present, but you are clearly depending on reform and all of 
its aspect to enhance security, and so it is a matter of causal 
forces working both ways.
    You are very well positioned. I think you have a lot of 
credibility on this issue when you factor in your past life as 
a border state governor and, of course, your current 
responsibilities. So I want to give you a chance as we close 
here to reflect on this issue. What does a secure border look 
like? It can't just be a matter of measuring inputs. We all 
talk about inputs. I talked about inputs in my opening 
statement, the number of personnel, the miles of fence, the 
sensors and all the rest.
    And we all know it is notoriously difficult to measure the 
output side. But yet we do need to have some resolution on this 
and I wonder what your current thoughts are.
    Secretary Napolitano. You know, it is tempting just to draw 
an arbitrary number out of the air and say that is the magic 
number, that is the metric and until you reach that, we can't 
do reform.
    But I believe as you have said that we really need interior 
reform to get the maximum out of all of the border security 
that we already have and that we are continuing to build upon, 
which to my mind is manpower and it is infrastructure. It is 
aerial and it is technology--most important, technology at this 
point.
    The border now is so different than the border then, always 
a work in progress, absolutely big, complicated borders. You 
can, you know, you can always go down and find somebody who is 
unhappy or thinks it is unsecure or whatever.
    What I think we should be doing, however, is looking at a 
whole universe of things, apprehensions, crime rates, seizures, 
property values, things of that sort that help tell us whether 
the border is a safe and secure border zone.
    And when you look at all of those things, you will see that 
they are all trending in the right direction overall and 
border-wide. We want to continue that, and I think one of the 
suspicions is that after the '86 Act, those enforcement issues 
were not universally pursued.
    We want to make sure we continue that, but I think some 
kind of false border security number doesn't really get us 
anything in terms of maximizing border safety.
    Mr. Price. Well, the irony would be if this quest for the 
holy grail of total security actually stood in the way of 
enacting the comprehensive measures that would enhance 
security.
    Secretary Napolitano. Well, I think for those who are 
seeking immigration reform, the suspicion quite frankly is that 
some sort of false border security metric, if you can ever 
decide on one holy grail, was actually a reason never to get to 
reform on the underlying system.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Culberson.

                            DETAINEES: LAWS

    Mr. Culberson. Thank you, Mr. Chairman.
    Secretary Napolitano, first, I want to thank you for your 
admission that that was a mistake to release those individuals 
that had committed a crime and endangered the public. The 
American people appreciate that. The Congress appreciates it 
and I thank you also. If we could, here today, I think it would 
be very helpful to make sure that everyone listening and our 
immigration officers out there listening know that they are 
hearing it from you and from the Congress that when the law 
says ``shall'', that is not optional, right?
    Secretary Napolitano. I think we have already had that 
discussion.
    Mr. Culberson. I just want to make sure I understand 
clearly that when you are talking about Title VIII, Section 
1225, you agree that is not optional.
    Secretary Napolitano. Well, you are absolutely right. The 
statute uses ``shall'', but as I further explained sometimes 
you have shall, but there is no way to do the shall because the 
resources haven't been made available and I think that needs to 
be taken into account.
    Mr. Culberson. Right. But for the officer in the street, 
who took an oath to enforce the law and protect the public, 
this statute says ``shall'' and that is not optional correct?
    Secretary Napolitano. Well, the safety of the community is 
something that always needs to be taken into account.
    Mr. Culberson. That is top priority.
    Secretary Napolitano. That is a top priority, yes, sir.
    Mr. Culberson. The top priority.
    Secretary Napolitano. I would say the top priority, yes.

                          OPERATION STREAMLINE

    Mr. Culberson. Okay. Very good. Thank you. I appreciate 
that. I deeply appreciate that. That is important for the 
public to hear.
    I also want to be sure with my friend, Henry Cuellar here, 
my good friend Judge Carter, our new chairman, congratulations, 
Mr. Chairman, that we, to reiterate and to reenforce the 
terrific, partnership that we have in Texas, with Mexico, the 
long history we have, the friendships we have, Henry, the work 
that we have done over the years, Judge Carter, we look forward 
to working with you and continuing to strengthen a very 
successful initiative in Congressman Cuellar's district that we 
have supported in a bipartisan way, Operation Streamline. No 
better way to ensure public safety than to enforce the law. It 
is working beautifully.
    And I wanted to ask you if you could, to talk about the 
expansion of Operation Streamline and working with Congressman 
Cuellar, Judge Carter and I and the Texas delegation in 
ensuring that the law is enforced, obviously with common sense 
and a human heart, but that the law is enforced.
    If you would talk to us about working with us and making 
sure that we expand that very successful program Operation 
Streamline up and down the border, starting with Texas?
    Secretary Napolitano. Well, I think Streamline may have 
actually started in Arizona, if I might, however, it is a very 
good program. It has been effective. There are other, we call 
them consequence delivery programs because there should be a 
consequence for breaking the law and immigrating illegally.
    But there are others that are similar to Streamline that we 
think are also very promising and don't take up as much 
judicial time, but yeah, I would say that Operation Streamline 
is very helpful.
    Mr. Culberson. And I hope you look to Judge Ludlum and her 
work in the Del Rio sector as a role model for that.
    Thank you very much.
    Mr. Chairman.
    Mr. Carter. Mr. Cuellar.

            VEHICLE DISMOUNT AND EXPLOITATION RADAR SYSTEMS

    Mr. Cuellar. Mr. Chairman, thank you so much.
    Could you tell us, are you all planning to order more VADER 
radar systems? I know that--right.
    Secretary Napolitano. Yeah, I think it is a very promising 
technology. It is one that comes to us out of Afghanistan, so 
we are in the initial stages of testing on how it works.
    Representative Cuellar, it doesn't really--it is very good 
in some areas of the border. In other areas of the border, it 
is not that helpful because you have a lot of, you know, South 
Texas, for example, where you have a lot of those south seeders 
and the other brush that impedes sight, but in areas that are 
more open, it is a very promising technology.

               COMMUNITY LEADERS, SCHEDULED MEETING WITH

    Mr. Cuellar. Okay. Well, we certainly want to work with you 
on that particular area.
    Number one, the other question I have has to do with the 
President's budget because it talks about cutting the number of 
detention beds from 34,000 to 31,800, and some of us have, of 
course, we want to work with you on that.
    But at the same time if you are looking at alternatives to 
detention which is again what we want to keep the low risk 
folks--and they supported this alternative by, I think it 
started under President Bush. The problem is that I think there 
is also a reduction in the alternative by 25 percent, so we got 
to do one or the other, and you know, we will be happy to work 
with you on this alternative to detention because I understand 
it does serve a particular purpose on that.
    The other thing I would ask also is, I guess this has to do 
more with down to the border, and I am one of those, I was born 
on the border. I have lived there and it is now the wild, wild 
west that people paint it to be. It is certainly not like that. 
My wife and my two kids are there, and my family, my mom, dad, 
everybody lives there. It is not the wild, wild west that 
people paint it, but we do need to do some work without a 
doubt. I mean, I think the problem is people get to the stream, 
one, they call it the wild, wild west, and then the other side, 
you know, they call it a perfect heaven that nobody's coming 
across.
    And I think you and I are both that it is probably closer 
to the middle, that more in the practical aspect of it.
    But one thing I do ask because I know that I was with you 
the last time you were at the border several months ago, I 
think it was last year, and we asked if you could talk to some 
of the other stakeholders or the business community and all 
that and you couldn't do it. This last time you sent out a 
press release and you said you were going to be in Arizona and 
Texas and then you had an unannounced visit and I asked 
Congressman Vela, Ruben Hinojosa, then you were going to be 
there. I didn't know you were going to be there, which is 
again, you don't have to notify us. I have seen both Republican 
and Democratic Secretary of States do that to us which is fine.
    But the problem that I do have is that then you, the day 
before or the day after you were in Houston and you had a press 
conference there and you had met with several business folks 
and other folks, and that puts some of us in a very difficult 
situation with being on the border because besides you going in 
and talking to your men and women, which you need to do.
    But there are other stakeholders, other people, 
communities, so I would ask the next time you go to South 
Texas, the border, I would ask you to make time to talk to the 
other community leaders that quite frankly want to sit down and 
spend some time and be supportive of the work that you do.
    Secretary Napolitano. Indeed, and we do try to keep 
Congress on notice when I am traveling. Representative Shiela 
Jackson Lee actually was in Houston.
    Mr. Cuellar. I saw her in the photograph.
    Secretary Napolitano. Right, and it was primarily designed 
to meet with business leaders and there were NGO [non-
governmental organization] representatives there to talk about 
the, kind of, business side of immigration as it were, but I 
meet with different groups, depending on where I am. It is hard 
to get a schedule where you meet with everybody all in one 
visit.
    But by way of comparison, when I went to Douglas, I had a 
roundtable with all the police chiefs and the next chief's 
county sheriff and so forth to hear what they were seeing on 
the ground. So it does vary each time I go.
    That is primarily driven by schedule.
    Mr. Cuellar. Correct. Yeah. No, I understand. I am just 
asking if you could work on your schedule. The third visit you 
make down there, if you can just spend some time with the other 
folks.
    Secretary Napolitano. We will work with your office on 
that.

                          BORDER PATROL AGENTS

    Mr. Cuellar. Yes, ma'am. Last thing, Mr. Chairman, on this 
one. I think you have, and I want to try to have as many men 
and women on the border, border patrol and I know it is been up 
and the largest amount we have, but I know at headquarters the 
last time I talked to you had about 250 border patrol stationed 
here at headquarters. I don't know how many CBP officers, 
probably over 200 from what I remember last time, and I 
understand they serve a purpose working here at headquarters. I 
understand that.
    But I would ask you if you could just tell us if you can 
try to send as many of them. I do understand they serve a 
purpose, but I was wondering if you can send as many of them 
down to the front line, you know, we would appreciate having 
them. It is going to be in our headquarters, number one.
    And number two, do they get overtime just like the front-
line people when they are over here? Is that automatic overtime 
for border patrol?
    Secretary Napolitano. No, it depends on whether they are 
Border Patrol, port officers and what level they are in the 
system.
    And with respect to moving people to the actual border, I 
would point you to another part of the President's budget where 
we are asking again, this is the second year, the ability to 
close nine interior border stations so we can move those agents 
right to the border.
    Congress rejected that last year, but that is the kind of 
thing we need to be able to do.
    Mr. Cuellar. Right. And if you can just--I do understand 
that, but I do understand, the folks here at the headquarters, 
I am talking about headquarters, so again I know they are here 
for training and I understand they serve a purpose but the more 
we can have away from headquarters down as the front line, a 
lot of us down there at the border would appreciate that, but I 
want to say thank you. You have bee more----
    Secretary Napolitano. But look at the interior stations as 
well.
    Mr. Cuellar. Yes, I agree. It is going to be a balance 
approach and I appreciate the good work that you are doing. 
Thank you very much.
    Secretary Napolitano. Thank you.
    Mr. Carter. Mr. Frelinghuysen.

                          DISASTER RELIEF FUND

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I always 
associate high noon with Texas, Mr. Chairman and I know that 
the Secretary has been here for quite a long time and I want to 
express my appreciation to her and the good people on FEMA that 
were on the ground, in the New York, New Jersey, Connecticut 
region in the aftermath of hurricane Sandy. I think it is a 
tribute to the good work that they did. A lot of people's 
immediate needs were met, obviously.
    The Disaster Relief Fund is pretty important to us. I know 
there is $6.2 billion in there. I looked at the allocation for 
Hurricane Sandy. I believe it is in the $1.2 billion region. I 
don't think that is going to be enough. I hope that you might 
take a look at that because we have about 40,000 families just 
in my state, New Jersey, which are displaced, living with 
relatives and hotels and there are some, pretty immediate 
needs. I just want to put in a plug. We will welcome you back 
any time to our neck of the woods.
    We admire the work you do and especially the work that FEMA 
has done for a variety of issues. Your department was created 
out of September 11th, 2001 and we still suffer, you know, from 
that mightily, and we appreciate what you do.
    But if you could take a look at the Disaster Relief Fund 
and understand that our needs continue to be great and the more 
money we get out on the street to alleviate people's pain and 
suffering would be extremely beneficial.
    Secretary Napolitano. Yes, and I enjoy--it was terrible 
circumstances to be in New Jersey. The people were great to 
work with and just very impressive and probably were handling 
this disaster.
    Two points I would make. One is, Sandy relief efforts are 
not just in FEMA's budget but they are also in HUD.
    Mr. Frelinghuysen. And the Army Corps as well.
    Secretary Napolitano. Exactly, right.
    And secondly, we currently have a large surplus as it were, 
unused balance, better way to put it, in the DRF, so if the 
FEMA expenses exceed what we proceed, we do have a cushion.
    Mr. Frelinghuysen. Good. Well, I appreciate that. Again, 
thank you, Mr. Chairman. Sorry to be late. I had other 
hearings.
    Thank you, Madam Secretary.

                               AMMUNITION

    Mr. Carter. Thank you, Mr. Frelinghuysen.
    Madam Secretary, as we close the hearing, a couple of other 
things I wanted to talk to you about just for the record. I 
want to correct the record, first.
    Our research shows that only 187 of the 2,228 detainees 
released by ICE recently are 8 percent of the number, were 
placed on formal alternatives to detention. We still have no 
definitive answer from the Department of Bonds or on their own 
recognizance, but neither of those are alternatives to 
detention so I think that just needs to be made clear.
    There is an issue out there that is almost the king of the 
blogosphere. The number one question in all of the town halls 
that I have been in in the last two weeks, it has been whenever 
I have come back to Congress and the chairman of this 
department, I have had numerous members from out of the country 
come in with this is the same issue. I think you know what it 
is. It is that the DHS is buying up all the ammunition in the 
United States. Now, people can smile at that, but there are 
people who are seriously concerned about that.
    We have got to get accurate numbers to be able to report 
this to people because I am telling you, every stop, and I did 
at least ten public gatherings when I was home, it was first. 
It was the biggest, most concern in my area. And a lot of those 
have said the same thing. Can you get us information--and some 
of this we have gotten--this has gotten some of us, but how 
many rounds of ammunition has DHS purchase each fiscal year 
since 2009?
    Secretary Napolitano. It averages about 150 million.
    Mr. Carter. At a buy component. In other words----
    Secretary Napolitano. Oh, you want it split up.
    Mr. Carter. By bullet, okay. So I mean, if it's----
    Secretary Napolitano. Seventy million for CBP.
    Mr. Carter. Nine millimeter, we won't know how many nine 
millimeter.
    How many rounds of ammunition has DHS utilized each fiscal 
year by component. I mean, how much have you used?
    The reason I question is because when we are looking at the 
preliminary numbers that I got--I don't know whether you are an 
expert, but I have been around guns all my life, and I didn't--
I went and shot to qualify with sheriff's deputies.
    A thousand rounds is a pretty chunk of bullets for guys to 
have a year and the numbers I saw were closer to 1,500 to 
2,000. I may be. Talking the Sheriff, I mean, the Chief of 
Police in Austin. We were discussing this. Maybe even, you have 
a liberal shooting policy which I am in favor of, quite 
honestly, to make sure that these are very accurate shooters.
    I don't, but I like them. Can you also tell us about the 
training regime by each department? If you got mugged and 
called security or gun-toting folks, it would just be very 
helpful because I want to write a letter to everybody that is 
asking a question about this, and so are all my colleagues, so 
you are talking about both sides of the aisle, every member of 
Congress is getting these questions that we are going to try to 
compose in an intelligent letter that will hopefully solve this 
rumor which is very important to our people.
    So that is just----
    Secretary Napolitano. We will provide any assistance we 
can. I think we have gotten a lot of correspondence, too. I 
know we have done a lot of briefings. There is a two-page white 
paper that we distributed. The way I explain it to people, Your 
Honor, Judge, is it is an up-to contract. It is a 5-year 
contract. It is called strategic sourcing because we get an 80-
percent reduction in the per-bullet cost by buying it this way.
    And we train not just within DHS but other law enforcement 
agents as well. And as I said, I think our average is about 150 
million rounds per year. And I believe in some of our units you 
have got to qualify several times per years.
    So whatever information we can give you, we will plug it 
in.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Okay. I appreciate it. And I will get Ms. Piato 
to do some of that work for you.
    Finally, you are not--you don't have 2,700 or 27,000 tanks 
that you have?
    Secretary Napolitano. Not that I know of.
    Mr. Carter. Okay. Well, that's being recorded.
    You do have some M-wraps.
    Secretary Napolitano. We do.
    Mr. Carter. And they were given to you by the Marine Corps 
to try out, and they were proven not to be very effective.
    Secretary Napolitano. They are not ideal for the 
environment in which we deal, yeah.
    Mr. Carter. These are some of the other questions that are 
certainly in this blog----
    Secretary Napolitano. I understand. I get some of the same 
questions.
    Mr. Carter. Yeah, I just wanted to know the record so if 
anybody happens to be watching this, they can know we are 
checking on this.
    Thanks for being here. I want to say that, you know, in my 
view, this is one that may be falling down on the job and 
unfortunately, you got to make this budget work. You got to 
crunch into it and you've got to take the information you are 
going to provide me and I am grateful you are going to do that 
so we can try to make intelligent decisions on your department.
    I think you know, if you don't know. I am a law enforcement 
guy and I am going to do everything in my power to see that you 
have what you need to meet your mission, your primary mission 
of defending this nation. And you are as important as any of 
our military components, and I am going to do everything within 
my power to do that.
    However, we after having information to make intelligent 
decisions and so I would ask that you do that and we are going 
to have to work on some of these harsh cuts in some of the 
areas we are dealing with.
    And we will be all shaking it out and quite honestly we may 
see some different numbers, too, so I don't know what's going 
to happen. But we are going to work together and I appreciate 
it if you would do that.
    Secretary Napolitano. We'll work with you, Mr. Chairman. I 
really appreciate the time, you know when your staff, and 
Representative Price, you and your staff spend on DHS matters.
    Mr. Carter. Thank you, Madam Secretary. Subcommittee is 
adjourned.
    [Questions for the record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 16, 2013.

                       UNITED STATES COAST GUARD

                                WITNESS

ADMIRAL ROBERT J. PAPP JR., COMMANDANT, UNITED STATES COAST GUARD

                     Opening Statement: Mr. Carter

    Mr. Carter. We will call this meeting to order. Before we 
begin this subcommittee hearing, I think we ought to take a few 
minutes to reflect upon what happened yesterday in Boston. You 
know, in the shadow of senseless acts of terrorism we once 
again saw how courageous our first responders are, as well as 
the resiliency and the compassion of our fellow Americans. 
These events are a sobering reminder that there is evil in this 
world, and our homeland security demands that we be vigilant 
about that evil. It is a shame that we have to witness this, it 
is a shame that we have to lose American citizens injured and 
killed. But today our sincere thoughts and prayers go out to 
all those who were injured and killed by this senseless act of 
terrorism at the Boston Marathon. And let's keep all those 
folks in our hearts and in our prayers as we go forward.
    Admiral, thank you very much for testifying before us 
today. No doubt your dedication to service. We think you are 
doing a great job. And our Active Duty military and civilians 
that you command are also part of this great war against terror 
that we are fighting today. We thank you for it.
    To me, it is just kind of awful to have to sit here and be 
reminded of what our job is by watching the explosion at the 
Boston Marathon. As we go forward, we are quick to forget bad 
things, and always remember the good things in our lives. But 
it just harkens back to that day on 9/11 when we all realized 
that there were people who wanted to kill Americans for the 
sake of killing Americans. And that is where this Department 
came from, and it is how it was organized, and that is what our 
job is. And somehow we have got to remind ourselves every 
single day that there is somebody out there that wants to do 
harm to Americans.
    Our charge here today is a challenging one. We are trying 
to make some sense out of the Coast Guard's latest budget 
request, a proposal that first cuts more than 850 Active Duty 
full-time positions and decreases military end strength to 
under 40,000 people. It decommissions two High Endurance 
Cutters and numerous air assets. It delays the acquisition of 
several vital assets and squanders $30 million in savings per 
year by dragging out the acquisition of the Fast Responder 
Cutters. So instead of the administration's claimed support for 
frontline operations or for supporting the mission 
requirements, this budget submission severely diminishes 
current, near-term, and future capabilities.
    Admiral, to put it mildly, this is a budget that is very 
difficult for us to accept. We fully understand the challenges 
you face in balancing a shrinking budget while also trying to 
take care of Coast Guard families, sustaining operations with 
aging assets, and recapitalizing for the future. This is no 
small task in today's fiscal environment.
    But the Congress, and this subcommittee in particular, has 
never supported a plan that so bluntly guts operational 
capabilities and so clearly increases our Nation's 
vulnerability to maritime risk, including more illegal drugs. I 
believe what is at stake is no less than the future of our 
Coast Guard. You appear to have arrived at the tipping point 
between the Coast Guard that you assert is needed and the 
agency this administration is actually willing to support.
    Admiral, we know you have a tough job. That is precisely 
why we are relying upon you to explain how this budget meets 
our Nation's needs for both fiscal discipline and robust 
security.
    Before I turn this over to the Admiral for his statement, 
let me first recognize the distinguished ranking member, Mr. 
Price, for any remarks that he might make.
    [Statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman.
    Admiral Papp, we are glad to have you before the 
subcommittee today to discuss the Coast Guard's budget request 
for fiscal year 2014. Yesterday's events in Boston are on our 
minds and in our hearts this morning. They serve as a stark 
reminder of the threats we face as a Nation. The first 
responders of Boston, as well as the men and women of DHS, 
responded quickly and heroically. These events do highlight the 
vital work of DHS, as the chairman has said, and they add even 
more import to the bipartisan work of this subcommittee.
    The Coast Guard budget request is for $9.8 billion, a cut 
of $762 million, or 7.2 percent from the current year 
appropriation, and that is before sequestration. The fiscal 
2014 request for the entire Department is difficult, but the 
shortfall proposed for the Coast Guard is particularly glaring, 
and I suspect that you see it the same way. Combined with a few 
other significant shortfalls in other areas of the Department, 
I fear this subcommittee will be hard pressed to find a 
responsible way to patch all the holes that need to be filled. 
And again, that is before sequestration.
    Our ability to properly assess the request is made all the 
more difficult because we have not yet received a 5-year 
capital investment plan. And given the 41 percent cut to the 
fiscal 2013 enacted level for acquisition, construction, and 
improvements, the prospects for capital investment in the 
outyears indeed appear bleak. You have said before that in 
order to properly recapitalize the Coast Guard fleet you would 
require at least $1.5 billion a year, yet here we are with a 
budget request nearly $600 million below that stated need.
    Of particular note is the request to procure only two Fast 
Response Cutters in fiscal 2014, which would not only increase 
the per-unit cost of these vessels, but would slow the overall 
pace of Fast Response Cutter procurement to an unacceptable 
level. The request also leaves out funding for long lead time 
material for the next National Security Cutter, which would 
drive up the costs of National Security Cutter construction 
dramatically.
    It seems to me that the budget request for new assets, 
particularly if it is a precursor to similarly low requests in 
the outyears, raises fundamental questions about the Coast 
Guard's future capacity as older assets are decommissioned.
    I would also note the continued reduction in the Coast 
Guard workforce. Under the fiscal 2014 budget request, you 
would be down to 49,349 positions by the end of the fiscal 
year, a reduction of more than 1,600 positions since the end of 
fiscal 2012, and almost all of those losses are to military 
positions. These reductions are proposed at the same time the 
Coast Guard continues to be heavily relied upon by its 
Department of Defense partners. How many of these reductions 
will come from achievable efficiencies and right sizing and how 
much is the result of budget pressures that will reduce 
operational capabilities? We very much need to know.
    Admiral, we know the Coast Guard is committed to doing its 
part to find savings in these lean budget times. We also know 
you are committed to ensuring that the Coast Guard is able to 
do more with less. But there is a point beyond which we should 
not ask you to try to go in this regard, and we rely to a great 
extent on your judgment in determining just where that point 
lies.
    Admiral, no one is more passionate about the Coast Guard 
than you, and you have always been honest with this 
subcommittee about the positive and negative aspects of 
previous budgets. As you can see, we have a number of topics 
that need to be explored in depth this morning, and we look 
forward to your testimony and your insight, as always. Thank 
you.
    Mr. Carter. Thank you, Mr. Price.
    [Statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Admiral, we are ready for you to give us your 
statement at this time. And of course we have a written copy of 
it, of your whole statement. We will ask you to condense it 
down to 5 minutes, if you would, please, sir.

                   Opening Statement: Commandant Papp

    Admiral Papp. Thank you, Mr. Chairman and Mr. Price, Mr. 
Cuellar. It is an honor for me to be here this morning to 
testify on the 2014 budget. Before I get into that, though, 
first I'd like to thank you for your remarks about Boston. We 
share the same feelings. In fact, I would say that the 
collective hearts of our Coast Guard family go out to the 
people of Boston and all the families that were affected by 
yesterday's tragedy. The Coast Guard is based in Boston as 
well. We are part of the community, and we are able to respond 
immediately with boats from Sector Boston, the Maritime Safety 
and Security Team, an armed helicopter, vessel boarding teams, 
and an overall enhancement to the maritime transportation 
security posture.
    Our ability to do that is a direct result of the support 
that we have received from the administration and the Congress 
over the last 12 years, since September 11, 2001. We have 
significantly reinforced and rebuilt our port and close-to-
shore infrastructure, and we are grateful for that.
    That support has also enabled our successes over this past 
year. During Hurricane Sandy, we rescued 14 crew members from 
the HMS Bounty in 30-foot seas and 60-knot winds 80 miles 
offshore. In the Port Authority of New York and New Jersey, our 
Marine Transportation Recovery Unit surveyed the channels, 
evaluated the waterfront facilities, restored Aids to 
Navigation, and worked across government and industry to reopen 
the port so commerce could flow.
    To meet the growing demands in the Arctic, we completed 
Operation Arctic Shield, a 9-month interagency effort, 
including the deployment of a National Security Cutter [NSC], 
two light ice-capable buoy tenders, and two helicopters 300 
miles above the Arctic Circle. Given the lack of shore 
infrastructure and the extreme conditions that we find up 
there, the capabilities provided by that National Security 
Cutter were critical, and we thank you for your past support 
for the national security project, including the funding for 
construction of number 6 and the long lead materials for NSC 
number 7 in the current year budget.
    In executing the DHS layered security strategy, the Coast 
Guard detected and interdicted threats as far offshore as 
possible. Targeting Central American coastal trafficking 
routes, our cutters and aircraft teamed with interagency 
aircraft to detect and interdict drug-smuggling vessels 
carrying over 107 metric tons of cocaine, with a street value 
estimated to be about $15 billion, and we disrupted 
transnational criminal organizations.
    Closer to shore, we responded to the growing threat of 
small go-fast vessels that smugglers are using to avoid 
increased security along the southwest U.S. border. Drug 
smuggling, human trafficking, and other illicit maritime 
activity continue to threaten our Nation. Those engaged in this 
trade are growing smarter and bolder, and they are an 
increasing danger to our homeland. In December, I presided over 
the memorial service for Senior Chief Boatswain's Mate Terrell 
Horne III of Coast Guard Cutter Halibut. He was killed by 
smugglers when they rammed his response boat near San Diego. 
Our commitment to the Nation and our duty to honor the memory 
of Senior Chief Horne strengthens our resolve to defeat these 
threats.
    Unfortunately, much like the weather and the seas that we 
face on a daily basis, the Coast Guard cannot control the 
fiscal environment in which we operate. We will make best use 
of the resources you provide to safely and effectively conduct 
operations in the areas of greatest risk to the Nation, while 
recapitalizing our cutters, boats, and aircraft to address both 
the current and emerging threats, particularly in the offshore 
environment. The 2014 President's budget works in that 
direction.
    This past year we made great strides in recapitalizing the 
Coast Guard's aging fleet. In October, we will christen the 
fourth National Security Cutter, Hamilton. To date, we have 
taken delivery of five Fast Response Cutters and 14 HC-144 
aircraft. We also contracted for the ninth HC-130J completed a 
mid-life availability on our patrol boats, and are nearly 
complete with the mid-life availability on our Medium Endurance 
Cutters at the Coast Guard Yard.
    Despite these successes, we have a long way to go to 
recapitalize the Coast Guard with the ships, boats, and 
aircraft that the Nation needs. The capital investment plan 
should inform this discussion, and I look forward to delivering 
it at the soonest opportunity. As the Department of Defense 
rebalances forces to the Pacific, the maritime activity 
increases in the Arctic, and offshore demand for Coast Guard 
capabilities and authorities is increasing. Our 378-foot High 
Endurance Cutters have ably served offshore for nearly 50 
years, but as I have testified before, they are at the end of 
their service lives.
    I am very happy to report that I received strong support 
from the Secretary and the President on my highest acquisition 
priorities, including the funding for the seventh National 
Security Cutter in the 2014 budget. This budget sustains the 
most critical frontline operations, while funding our most 
critical acquisition projects. In the current fiscal 
environment, this required tough decisions, informed by my 
highest priorities. These were very difficult decisions for me 
and our service, but they were the best decisions to ensure we 
provide the next generation of Coast Guardsmen the tools 
required to protect our Nation.
    As I look back over our successes of the past year, I have 
never been more convinced about the value the Coast Guard 
provides to the Nation, and I have never been prouder of my 
Coast Guard men and women. Our missions ensure adherence to a 
system of rules and sustain the mechanisms designed to provide 
for the security, safety, and prosperity of all who use the 
maritime domain. This is the daily work of a government that 
provides us with both order and opportunity on the oceans. What 
we provide is maritime governance.
    While realistic and mindful of the current fiscal 
environment, I remain optimistic about the future of the Coast 
Guard. It is my duty to look beyond the annual budget cycle, 
and prepare and adapt the service, keeping it moving forward to 
address the greatest maritime safety and security risks of the 
Nation now and into the future. The men and women of the Coast 
Guard give their all and make sacrifices every day, putting the 
Nation first. We owe them our very best efforts to provide the 
support that they need. This subcommittee has long supported 
the men and women of the Coast Guard, recognizing their 
sacrifice. And on behalf of my Coast Guard shipmates, I thank 
you, and I look forward to answering your questions.
    Mr. Carter. Thank you, Admiral.
    [Statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                        CAPITAL INVESTMENT PLAN

    Mr. Carter. We appreciate your testimony. Let's start out 
by getting an issue that you have already raised here out of 
the way. Over the last several years, Congress has directed the 
submission of a capital investment plan, the CIP, with the 
submission of the budget. However, today we have got a budget, 
2 months late, from the administration, and we see that we do 
not have the capital investment plan. We have got to have that 
plan. You are not the only one who is not meeting this 
requirement. We are having to ask others to do this. But we 
need that plan. When do you think--I would like a date--that 
you can provide that plan?
    Admiral Papp. Sir, I cannot give you an exact date, and I 
am just as disappointed as everybody else that we do not have 
that capital investment plan, because as I said in my 
statement, it helps inform the discussion that we would have in 
terms of where the Coast Guard is going over the next 5 to 10 
years, and puts into context those requests in the fiscal year 
2014 budget. I do know that we were working as late as last 
night nailing down final wording, and I expect that it will be 
to you very soon.
    Mr. Carter. Well, is there any chance that with the folks 
that you have got here with you somebody can make a few phone 
calls while we proceed today and give me a date before we get 
through? I would like to have that.
    Admiral Papp. Yes, sir.

                           DRUG INTERDICTION

    Mr. Carter. All right.
    Admiral, I do not have to tell you that the Coast Guard's 
efforts to interdict drugs being smuggled from source and 
transit zones are vital to our security. However, your fiscal 
year 2014 budget will actually diminish your current drug 
interdiction capabilities by decreasing personnel and 
decommissioning assets. Based upon your own metrics, this 
budget will also support the lowest percentage of cocaine 
removal in 5 years. Also, combined with these proposed 
reductions, I understand the Navy is moving more and more 
assets to the Pacific AOR.
    Admiral, can you discuss how these cuts reduce our current 
drug interdiction capabilities and how our Coast Guard will 
mitigate the impact of these cuts? The 2004 mission needs 
statement created specific requirements for patrol boats, major 
cutters, fixed wings, operational hours. However, the budget 
over the last few years does not support these requirements.
    Admiral Papp. Well, Mr. Chairman, as you know, the current 
fiscal environment requires making some very difficult 
decisions that are based upon the priorities that I have 
established and stayed consistent with over the 3 years that I 
have been testifying before this subcommittee. The fiscal 
climate has clearly changed, but our mission requirements 
remain the same. In fact, they probably are increasing, given 
the fact that we have emerging mission space up in the Arctic.
    Challenging us also is the fact that the Department of 
Defense has rebalanced toward the Pacific, the Navy is 
constrained by its own capability of keeping ships deployed, 
and we are losing the Navy frigates that used to serve us so 
well in the Caribbean and the Eastern Pacific in the drug 
interdiction mission. Exacerbating that is the fact that our 
allies, the British, the French, and the Dutch, who have 
traditionally been down there, are down there less, and are 
retracting from the Caribbean side. We do have some assistance 
from the Canadians right now, but that is limited, and also 
they are bound by different rules than we are in terms of their 
ability to arrest and interdict the smugglers.
    So what you will see is less cocaine interdicted. There is 
no way to get around that. The effects of sequestration right 
now are hurting us in that regard because there are fewer 
assets that are able to be deployed down there in the Eastern 
Pacific and in the Caribbean.
    Mr. Carter. Well, this budget here does not reflect 
sequestration, as I understand it. We have the 2004 mission 
statement. At some point, the budget is not matching the 
mission statement. Somehow, we have got to get a clear picture 
as to where we are going. I guess a good question to ask you 
is--This does not reflect sequestration. Sequestration is a 
fact. With sequestration, can you tell me how much you will 
further erode the interdiction capabilities and the overall 
capabilities of the Coast Guard?
    Admiral Papp. Well, sir, this budget as presented for 
fiscal year 2014, and we have reviewed this within my staff, we 
believe that this budget, if approved at its current level, 
should not be affected by sequestration because it falls 
underneath the Budget Control Act limits, as our budget has all 
along. So I believe that there will be no impact from 
sequestration on this budget.
    Having said that, this budget does constrain us in our 
ability to conduct all our missions. And as I have said in the 
past to this subcommittee, the Coast Guard has never had 100 
percent of the assets to do 100 percent of our jobs all the 
time. That is why we train our commanders in the field to make 
decisions based upon priorities of missions. It starts with my 
intent. When we went into sequestration on the fiscal year 2013 
budget, I put out a commander's intent message, which gave 
broad guidance to our operational commanders. And they take the 
resources that they have and apply those to the highest needs, 
the highest missions, and other missions will go wanting for 
lack of resources.
    Mr. Carter. Mr. Price.

               ACQUISITION, CONSTRUCTION, AND IMPROVEMENT

    Mr. Price. Thank you, Mr. Chairman.
    Admiral, I want to get into this matter further of the 
acquisition and construction aspect of the budget. You are 
requesting $951 million for acquisition, construction, and 
improvement, less a proposed rescission of $42 million, for a 
total of $909 million. That is almost $636 million, or 41 
percent, below the amount provided in fiscal 2013, and it is 
$554 million below what we provided in fiscal 2012.
    So the question obviously is, at this reduced funding level 
will the Coast Guard--or how could the Coast Guard possibly be 
able to keep acquisitions and procurements on track to replace 
aging aircraft and vessels? I know you are personally committed 
to procuring the two remaining National Security Cutters. But 
the budget request in the last 2 years has not provided the 
financial commitment needed to do that. Given the known 
increase in costs associated with not funding long lead time 
materials, for which the budget provides no funding, does that 
mean we are faced with the termination of the National Security 
Cutter program after number seven rather than the number eight 
on record?
    National Security Cutter seven represents 65 percent of 
your total acquisition request. Is its construction coming at 
the expense of procuring new aviation assets, slowing the 
development of a heavy icebreaker, reducing the procurement 
pace for the Fast Response Cutter, as well as the long lead 
time materials for number eight? So let me just ask you to 
respond to that, and then I will follow up.
    Admiral Papp. Sir, there is no doubt that at the funding 
level that is requested, that pushes all our procurements to 
the right. It causes us to order less than economic numbers for 
most of our procurement projects, and in some cases, 
particularly the HC-144, it causes us to terminate those 
acquisitions. So ultimately our mission need has not changed. 
In fact, if we were to do another mission need analysis right 
now, it would probably indicate increased need, primarily 
because of the lack of Department of Defense resources in the 
drug interdiction mission and the fact that we are expanding 
our mission space up in the Arctic right now.
    So the mission need is even greater, and I remain committed 
to the program of record for all these assets. But I have to 
make reasoned decisions on an annual basis, getting us toward 
the ultimate goal, which I still believe remains sound in the 
outyears.
    The Fast Response Cutter is one of the challenges. And I 
just simply could not fit any more than two within the limits 
of the budget. And in response to your question, does the 
National Security Cutter number seven displace other things, I 
would have to say there is no guarantee that if the National 
Security Cutter was not in the budget, we would get all that 
money back to place on other projects. The Secretary and the 
administration know that that is my highest priority because I 
have taken a reasoned approach, looking back over the last 12 
years where we have invested. We have invested heavily in our 
close-to-shore infrastructure, in our ports. That is why we 
were able to respond so well in Boston. We have additional 
people, the Maritime Safety and Security Teams. We have bought 
well over 800 boats over the last 12 years to recapitalize our 
shore stations. We have increased our number of patrol boats 
for the close shore environment.
    Our greatest risk at this time is in the offshore 
environment, where we need the National Security Cutter, and we 
need to get that constructed as soon as possible. I said last 
year, when the capital investment plan that was placed in front 
of you last year showed zeroes for National Security Cutter 
number seven and eight, seven is in the budget this year, and I 
continue to be optimistic that eight will be in the budget next 
year. We will find a way to work that through the budget.
    And that is why I am disappointed that the capital 
investment plan is not here, because that could inform the 
discussion that we are having today. And we will get that to 
you as soon as possible.
    Aircraft is the other thing you brought up. Yes, we are 
terminating the HC-144 project at 18 aircraft. That replaces 
the 18 Falcons that we had in service. And I am satisfied that 
we are providing adequate service through our aviation 
community right now. And we have invested heavily in our HC-
130s over the last 12 years. This subcommittee has provided 
funding for now up to 10 HC-130Js. And we have awarded number 
nine, and are in the process of negotiating number 10. We have 
recapitalized, renovated, and upgraded both of our classes of 
helicopters. And as I look at our aviation community, I think 
we are in good shape for at least the next 15 years.
    We have more patrol boats today than we have ever had in my 
career in the Coast Guard. Granted, the Island class is getting 
old and is in need of replacement, but we are incrementally 
working forward with the Fast Response Cutter. I would like to 
build that faster, but we are building as many as we can within 
the constraints of the budget.
    So my focus needs to be on the offshore, where those 40- 
and 50-year-old ships are falling apart. They are the most 
expensive. And we need to get them built now so that we do not 
have to pay more in the future.
    Mr. Price. Thank you. I am certainly not inclined to 
question your commitment to National Security Cutter number 
seven and giving that priority. Are we mistaken, though, to see 
the omission of the long lead time materials as a setback or at 
least an omission that really is going to, if not throw number 
eight into doubt, at least greatly increase the cost and delay 
the timeframe?
    Admiral Papp. There is no doubt that the omission of long 
lead money for number eight will increase the costs. We had the 
same discussion last year, and I was very grateful that the 
subcommittee put in the long lead money for number seven. It 
helped us out greatly. It kept the project going. It is 
predictability for the shipyard and enables them to give us a 
better price as we negotiate. And we have negotiated some very 
good prices on number six, and I know we will on number seven. 
So it is a disappointment to me that we are unable to put the 
long lead for number eight in there, but it is just one of 
those tough decisions I had to make based upon priorities on 
other projects that we have ongoing.
    Mr. Price. Thank you.
    Mr. Carter. Mr. Cuellar.

                               RIO GRANDE

    Mr. Cuellar. Mr. Chairman, thank you and the ranking member 
for having this meeting.
    Admiral, it is a pleasure having you here. Let me start off 
with a short little statement. Mr. Chairman, you might be 
interested in this report since you are doing immigration, part 
of the immigration reform.
    Mr. Carter. Yeah, I am.
    Mr. Cuellar. But back in, I guess it was in 2001, I had 
added some language to one of the bills asking for the Coast 
Guard to do a Rio Grande mission requirement analysis. And I 
think you all came out with that report October 18, 2011. I 
will be happy to share that with you.
    What came out of this was rather interesting, because you 
and I have a perspective what the border is. In some areas we 
do agree. But on the analysis, and I am just going to summarize 
on this, basically when their intelligence did the work on 
narcotics, they said there is a high threat on the Mexican 
side, but then on this side they called it a moderate threat of 
violence on the U.S. side itself. Then we asked them about 
migrants and the smuggling of migrants into the United States, 
and they said it was a low threat in the region. And this is 
all in the Rio Grande.
    I had a different perspective. I did not really agree with 
your intelligence, but still nevertheless to respect what you 
all did. Bottom line, what I was trying do with this language 
was, is there enough of an activity down there to call for more 
of the Coast Guard? Because I wanted the Coast Guard to work 
with air and marine and go down there. But basically, their 
analysis was the way we are working right now, everything is 
fine, we do not need to add any more assets. And I know it 
might be a little difficult under the sequestration scenario 
that we are in, but I always thought that it would be nice, 
because they are basing in Corpus Christi, and I know they do 
pulse, maybe once a quarter they will go up there, maybe go to 
Lake Falcon and maybe Del Rio, the Amistad. But I was hoping 
that there would be more of a presence from Coast Guard on the 
Rio Grande, because that is international water. It is brown 
water, not the blue water, and I know you all prefer blue water 
over brown water. But still nevertheless, I was hoping that 
there would be more of a presence.
    And, Chairman, I would like to work with you to see if we 
could try to get Coast Guard to have more of a presence. I 
understand the situation, the financial situation you are in. 
But especially right now, because if you look at the OTMs, Mr. 
Chairman, in the southern part of the valley, which is close to 
Corpus Christi, it has increased by a lot. You have got a lot 
of other than Mexicans coming in. And I think that is why the 
Secretary of Homeland has been twice down there to that 
particular area.
    So I say that, I guess more as a statement, but, Mr. 
Chairman, I would like to work with you, and I would be happy 
to provide this report to you and the ranking member and the 
staff to look at this report, because it was a rather 
interesting analysis, that they are basically saying the threat 
is low, very moderate, and everything is pretty much fine. And 
I want to give you an opportunity on that. But it was 
counterintuitive to myself living down there on the border that 
we do not need any more Coast Guard assets there. It was more 
of a statement, but I guess to get a response from you and Mr. 
Chairman on this. And I would be happy to share this.
    Mr. Carter. Mr. Cuellar, I have always thought it would be 
a good idea to have the Coast Guard on the Rio Grande, for a 
long, long time.
    Mr. Cuellar. Yes, sir.
    Mr. Carter. Go ahead. Would you like to make a comment on 
the assessment?
    Admiral Papp. Yes, sir. You know, Customs and Border 
Protection [CBP], as you know, has the primary responsibility 
for the land crossings, the land borders. The fact that there 
is a river there does not necessarily make it maritime. But 
that is primarily where Customs and Border Protection works.
    Mr. Cuellar. But on the northern part of the United States, 
and I know if we had a definitional issue as to whether it was 
international water, but in the northern part of the United 
States, you do have a big presence in the northern part. So 
that is why I was saying what is wrong with the southern part? 
And I understand some of it is not navigable. But there is good 
portions.
    Admiral Papp. Right. But the CBP has invested significantly 
over the last 10 years, and they also have an air and marine 
branch. So while you could get into a discussion of who should 
run boats and aircraft, the fact of the matter is the Coast 
Guard has certain resources, and it is primarily for the blue 
water side. And I would say the Great Lakes on the northern 
border, if you have been up there, they are like blue water. 
There is a lot of territory to cover up there, as opposed to 
the river.
    So CBP has had significant investment. They have an air and 
marine division. We work with them from time to time. And we 
have deployed, we have done pulse ops up to Falcon Lake during 
periods of violence to show a presence up there and help our 
partners, just like our partners in CBP help us on the offshore 
from time to time. In fact, we have coordinated operations 
going on, on the western side of the border between Mexico and 
California because of the increased drug smuggling that is 
going on out there.
    So while we would like to have the Coast Guard everywhere 
that we are needed, we are constrained by what we have. And we 
have to depend on our partners within the Department, CBP, 
because they have very significant resources down there.
    Mr. Cuellar. But you have heard from a lot of Members of 
Congress how--and media--how important the southern border is. 
And even though you are present in other areas, the southern 
border is where the emphasis is at right now. And I guess 
securing the border for immigration reform is going to be very 
important.
    Let me, I think my time is up, but just real quickly, do 
you still stand by the report that your people did that the 
threat is low in that area?
    Admiral Papp. Sir, you put a date on that. Did you say----
    Mr. Cuellar. October 18, 2011.
    Admiral Papp. 2011. What I would say is that it would 
change probably a little bit from that report now because we 
are seeing increased presence and pressure by CBP along the 
land border. That is why we are seeing increased traffic, 
particularly on the Pacific side of go-fast boats, Pangas 
taking drugs and migrants out to sea and around the land border 
because of the increased pressure there. So where the Coast 
Guard rightly performs is on the ocean side. That is where our 
authorities make the most sense and where we have most of our 
resources based. So as the smugglers try to do end runs around 
the land border, that is where we take over, in partnership 
with CBP and State and local agencies as well.
    Mr. Cuellar. Thank you.
    Thank you, Mr. Chairman. Thank you, sir.

                         FAST RESPONSE CUTTERS

    Mr. Carter. Thank you, Mr. Cuellar.
    And I am not going to double team you on that, but I also 
think, and have always thought, that the show of force that the 
Coast Guard gives would be very, very helpful on the Rio 
Grande, because quite honestly we see an awful lot of traffic, 
especially down in the lower Rio Grande, which is just right 
close to the coast. And just the fact of the presence of the 
Coast Guard I think would be a deterrent to some of the people, 
because it has the quasi-military presence that possibly CBP 
does not have.
    And, you know, these guys that do this, it is as much 
psychological as it is real force sometimes across the border. 
If they perceive, and we use the Del Rio section when we 
started with heavy enforcement in the Del Rio section on the 
criminal justice side, the minute they know there is a spot on 
the border where there is additional assets and they feel like 
they are perceived that they are going to have problems, they 
move. They are not stupid. They move someplace else. And I 
think that is one of the deterrents that you would offer.
    But I also understand your resources. And I will say that I 
was in California, and it is kind of interesting that now we 
are more or less saying we have done a good job in building a 
fence and putting resources in California, so they are off the 
coast and running all the way up to mid, even arguably Northern 
California, to dodge the Coast Guard's effort. So, you know, 
these guys are like cockroaches, you know. You stop them 
someplace, they go run someplace else. That is just the way 
they work. And I am sure you know that.
    Let me ask a couple of questions about the Fast Response 
Cutter. Your fiscal year 2014 budget request includes just two 
Fast Response Cutters, even though Congress denied this same 
shortsighted proposal last year. We bailed out the flawed 
request and fully funded all six cutters. I guess that is maybe 
what somebody is anticipating that they want us to do this 
year.
    As I understand it, by only requesting two cutters you are 
squandering up to $30 million in savings per year when compared 
to the procurement of six per year. Can you explain why you 
made this decision? And you have to some extent already. And do 
you plan to increase the procurement in our outyears so that we 
do not continue to squander savings and delay capability? The 
current requirement for patrol boat hours is 174,000 per year, 
but this budget supports less than half that requirement. Will 
we ever close the capability gap from what is funded to what is 
required for patrol boat hours? Also, what areas are most 
impacted by these gaps?
    Admiral Papp. Sir, I would like to be maximizing our 
production of the Fast Response Cutter. I understand fully, and 
I agree that it costs more when we do not order in economic 
order quantities. Our contract calls for a minimum order of 
four, a maximum order of six. The shipyard is geared up to do 
six per year. They have to have some sort of consistency and 
predictability in terms of their production rate. But once 
again, this was one of those tough decisions that I face in the 
current fiscal environment, putting in as many as I can, while 
trying to keep other projects going, and being focused on my 
highest priority.
    Fast Response Cutter is one of my highest priorities. 
National Security Cutter is my highest priority. So starting 
with that, I was only able to fit two Fast Response Cutters in. 
That gives us two options. We could renegotiate the contract to 
change the minimum order to two. And as you recognize, that 
ends up being a more expensive proposition. In analyzing the 
fiscal year 2013 appropriation and the multi-year nature of the 
funding for those six, I believe we can spread out evenly, 
order four in fiscal year 2013 and take two of the--the funding 
for two and move that into fiscal year 2014 and do four per 
year. That is my second option at this point.

                          PRIORITIES: UNFUNDED

    Mr. Carter. Well, as I have told you, I am a fan of the 
Coast Guard. I think the Coast Guard shines every time we have 
a national disaster. I think the American people think the 
Coast Guard shines. I can tell you, on numerous occasions I 
have had people tell me if we could get the rest of the 
Department of Homeland Security operating like the Coast Guard 
operates we would be in good shape. And I think this committee, 
we honor the Coast Guard a lot.
    But I believe right now what is at stake is no less than 
the future of the Coast Guard. We are truly at a tipping point 
between the Coast Guard that you assert is needed and the 
agencies this administration is willing to support. What is the 
impact on the future of the Coast Guard if your acquisition 
funding remains at levels requested this year? Bluntly, 
Admiral, will we ever have a Coast Guard we have today in 5 or 
10 years? Will that exist? If I can find additional funds, 
where do I start? And what are your unfunded priorities?
    Admiral Papp. Well, sir, clearly, if there were additional 
funds, the first thing I would add them to is the Fast Response 
Cutter. We absolutely need that boat. I acknowledge the patrol 
boat hour gap. But the hour gap is sort of a specious argument 
in my estimation, because we assign so many hours per the 
number of hulls that we have out there. Frankly, some of those 
hulls, particularly on the Island class, are not able to do all 
the hours that they are supposed to do. In fact, we have one 
boat right now, the Chincoteague, which is laid up. The hull is 
so deformed we cannot operate the ship. It would cost $3 
million to get the ship back in condition so it could operate, 
and that is just not money that is wisely spent. Yet we have 
been unable to decommission any of the older patrol boats 
simply because we are trying to keep our numbers, which then 
feed sort of an artificial level of patrol boat hours that are 
out there.
    What we really need are the hulls. And ultimately we need 
to get all 58 of those Fast Response Cutters built, not only 
because they perform the patrol boat mission, but because they 
are also a more capable ship. They interface with the Offshore 
Patrol Cutter, which is our next big project, and the National 
Security Cutter, which ultimately give us fewer large ships in 
the offshore environment, but hopefully with a little bit more 
capability from these patrol boats, we would be able to 
eliminate that gap.

                             AIR RESOURCES

    Mr. Carter. What about the air resources? I mean, it seems 
to me you need an awful lot of air resources. And we keep 
coming back to the big ship three. What about the fact that we 
are severely behind with air resources?
    And one question I want to ask you, Air Force announced 
plans to retire a fleet of C-27J aircraft. Has the Coast Guard 
looked into the possibility of getting some of those aircraft?
    Admiral Papp. Absolutely, Mr. Chairman. We are currently 
negotiating. The language that came out in the Defense 
Authorization Act divided them between the Department of 
Interior and the Coast Guard. For the Department of Interior, 
they are working on behalf of the Forest Service, which would 
like to get new tankers for fighting forest fires. There are 
about 21 aircraft that are available. Under the division that 
they put in there, we would get 14, which is the minimum number 
that we need because we need to outfit a couple of air 
stations. And we need a certain number to be able to do that 
and also keep aircraft in the production line.
    That is one of the reasons why we have halted the HC-144 at 
18 aircraft, because we are hopeful that we can negotiate the 
C-27J and either get 14 or the entire 21, which would 
significantly reduce the upfront money that we need within our 
AC&I funds and would allow us to stay with the program that we 
have for our fixed-wing aircraft.
    On the higher end, the subcommittee has been great in 
supporting us. We are up to 10 C-130Js now. This budget calls 
for decommissioning a couple of our older H models, which are 
obsolete and hard to maintain, but keeps us at our program of 
record of 22 C-130s. And hopefully, we will be able to continue 
to chip away with getting more C-130Js over the years.
    So fixed-wing aircraft, I believe we have got a sound plan 
for moving forward. And as I stated earlier, both of our 
classes of helicopters, we have upgraded, we have 
rehabilitated. With our facility down in Elizabeth City, the 
Aircraft Logistics Center, we can basically take a helicopter 
frame and turn it into a new helicopter. Our people are that 
good. So I am confident that with the plan we have for aircraft 
we are good for at least the next 15 years. Then we will start 
facing issues of obsolescence there.

                                 FUTURE

    Mr. Carter. Do you have any of the skepticism that I just 
expressed about the future of the Coast Guard?
    Admiral Papp. Well, certainly, sir. I do not like being a 
commandant that is having to serve my term with a reducing 
budget. But I have to stay firm to the goals that we set out. 
My obligation is not just to get through the annual budget 
cycle, but to look out 20, 30, and 40 years in terms of what 
the Coast Guard is going to need in terms of resources, tools, 
aircraft, ships, and boats in order to serve the American 
public and take on the missions that we are doing. The 
curveballs that I get thrown are the vagaries of the fiscal 
environment. And within that, on an annual basis I need to 
adjust and regroup. But that should not change my focus on 
ultimately where we need to be.
    So the requirements are sound, our program of record is 
sound, but the further we push it to the right, the more 
expensive it is going to be and the longer it takes to get 
these more effective tools out to our people. And we end up 
spending more and more money on obsolete, antiquated equipment 
that costs more and more every year to maintain.
    Mr. Carter. Mr. Price.

                         OFFSHORE PATROL CUTTER

    Mr. Price. Thank you, Mr. Chairman.
    Admiral, I would like to return to one acquisition item, 
and then also return to the question of sequestration and 
exactly what kind of aggregate numbers we are marking this 
budget to, marking the Coast Guard budget to. Could you just 
briefly remind us about the place of this Offshore Patrol 
Cutter, this kind of intermediate-sized vessel, the kind of 
place that will occupy in your overall mission?
    And also of course it catches our attention when the number 
is reduced so markedly for that new vessel. The 2014 request 
for continued development of the OPC is $25 million. That is 
half the amount contemplated in the fiscal 2013 CIP. Is that 
solely a matter of budget pressures, or is there some other 
reason for this cut? And what do you think the impact on the 
acquisition schedule is likely to be, assuming that is the 
amount appropriated?
    Admiral Papp. No, sir, the amount is just good stewardship. 
We are looking at unused funds, carryover funds that we can 
apply on this project. We remain firmly committed to the OPC, 
the Offshore Patrol Cutter. After we get the National Security 
Cutter built, it is our most important project going forward 
because that provides 25 ships to replace close to 30 that are 
currently in service, the 210-foot Medium Endurance Cutters, 
which are now approaching 50 years of age, and then later the 
270-foot Medium Endurance Cutters, which are approaching 3 
decades of service. But by the time they are retired, they will 
be about 50 years old as well.
    They are our workhorses. And that ship is even more 
important because with the number of National Security Cutters, 
which is eight, compared to their predecessor ships, the High 
Endurance Cutters, where we had 12, we need to make sure that 
the Offshore Patrol Cutter is capable of better sea-keeping 
abilities so that we can use it in Alaska and in the Pacific, 
where we have not been able to use the current classes of 
Medium Endurance Cutters.
    So this is critical to our future. We received a robust 
response from industry on our request for proposals. We are in 
the process of working toward a down select of three proposals 
by the end of this fiscal year, and we remain committed to 
award the contract for the detailed construction and design for 
the first ship in the fiscal year 2015 budget.
    Mr. Price. And this reduced appropriations amount would let 
you stay on that schedule?
    Admiral Papp. Yes, sir. There is no decrease to the 
schedule. And for the record, we will get a breakdown on those 
funds. I am going from my memory right now. But when I asked 
that same question, my recollection is that we have, because we 
have carryover funds and because we have not used all the money 
appropriated so far. It will supplement the money requested in 
this budget to keep the project moving forward.

                             SEQUESTRATION

    Mr. Price. All right. Thank you. Let me turn to the 
sequestration that you are dealing with right now and what its 
implications are if we continue to be saddled with this in the 
new fiscal year. The March 1 sequestration cut the Coast 
Guard's 2013 appropriation by something like $280 million, as I 
understand it. Military pay was exempt, as it should be. But 
your other operating expense categories, and your acquisition, 
construction and improvement projects were not exempt from 
sequestration.
    Let me just ask you what the impact of that is going to be 
on your operations for the remainder of the year. You addressed 
that partially earlier, the drug interdiction schedule, the 
fisheries enforcement, the effects on emergency response 
operations, and the schedule for planning and production of new 
vessels. So we are talking about a current year impact. But I 
think we need to clarify that there is some question about the 
2014 impact.
    The budget that you are proposing and all of our discussion 
this morning has been about how stringent that budget is. That 
budget that you are proposing assumes that sequestration is 
lifted and that we have a budget agreement that would address 
the real driving forces of the deficit--tax expenditures, 
entitlement spending--and that this repeated hit on the 
discretionary budget, the appropriated budget would be lifted. 
The administration budget, which you are operating from, 
assumes a budget plan and the lifting of sequestration.
    As you know, this committee, given the House budget plan, 
the House budget plan is going to be marking to a different 
aggregate number, although we do not know quite what the 
allocation will be for this particular subcommittee.
    So if you could address that. You are already dealing with 
a stringent budget. You possibly are going to have something on 
the order of what you have suffered in 2013 imposed on top of 
this. What can you say about the flexibility you have, the 
flexibility you need, the kind of way this might somehow be 
mitigated? I just want to give you a chance to reflect on the 
kind of difference this sequestration variable makes in your 
projected operations.
    Admiral Papp. Thank you, Mr. Price. Let me address fiscal 
year 2013 first.
    Yes, in fact we did suffer the impacts of sequestration. 
And in order to adapt to that, as I mentioned earlier, I put 
out my commander's intent to the entire service and gave them 
the broad guidelines on how we would operate. And the first 
priority was to make sure that we could do all our critical 
missions--search and rescue, security operations, contingency 
response. We wanted to maintain our core capability to do that 
and not diminish our ability to respond to those types of 
missions. The types of missions that will see reductions by 
about 25 percent are drug interdiction, migrant interdiction, 
and other things in the offshore environment.
    In order to maintain our long-term ability to respond, we 
also need to continue training. If you cut training, ultimately 
you pay the price in the long run, and I am not willing to do 
that. So we are trying to keep up our mission-essential 
training.
    Third thing is sustaining a workforce that is able to 
respond as well. As both of you have noted, the Coast Guard is 
fairly lean in terms of our people. We have worked very hard 
over the last 12 years to get ourselves back up to the 
strength, our personnel strength, which is identical to what we 
were in 1990. We have the same number of people that we had in 
1990 now. And it took us a long time to build that back up.
    So part of my commander's intent as well was to minimize 
disruptions to our workforce to the extent possible. I am aided 
in that by the fact that military pay was exempt. But our 
civilians are a part of that team as well. Frankly, these are 
civilians that have not had a pay raise for 3 years. We have 
diminished their bonuses. In fact, this year we will pay no 
bonuses to civilians. We have cut out overtime. And I want to 
make sure that we can at least keep them employed. And that was 
one of the mainstays of our commander's intent out there: to 
keep our workforce intact so if a contingency operation comes 
up, whether it is a hurricane or a terrorist event, we will be 
prepared to respond.
    We will make it through fiscal year 2013. There are things 
that we will fall short on, particularly I think in drug 
interdiction. But that is the price we have to pay for the 
tough times that we find ourselves within.
    Now, for fiscal year 2014, I have not, sir, and I have made 
many trips around this town, both within the administration and 
over here, and I have not found anybody who knows for sure 
precisely what happens under sequestration. We have general 
terms we deal within. But no one has been able to tell me, yes, 
in fact this is definite; this is what will happen.
    Our analysis within Coast Guard headquarters has been, 
because we are well below the levels of funding in the Coast 
Guard that would be required by the Budget Control Act, if 
these levels are approved, they are not subject to further 
sequestration. I cannot confirm that. I do not know that. But 
that was our analysis that has been done. And I do not dispute 
your opinion or your knowledge of it, but I hope that we can 
hammer that out and get a definite opinion on it.
    Mr. Price. Well, it is totally unacceptable that you are 
laboring under this kind of uncertainty. And it is not as 
though anyone on this committee or in this institution can 
totally clear that up at the moment. But the fact is that 
sequestration comes on top of the Budget Control Act. It comes 
on top of the Budget Control Act. And the President's budget 
assumes that the Budget Control Act remains in place and that 
sequestration is lifted, and presumably that we have some sort 
of budget agreement going forward.
    I think the House appropriations bills are going to be 
marked to a lower figure, a lower aggregate figure that assumes 
another round of sequestration, assumes the absence of a 
broader budget agreement. I hope that is not true, but I 
believe that is where we are headed, with the Senate and the 
House, by the way, marking to different aggregate numbers, so 
there again maximizing the uncertainty.
    Admiral Papp. Well, sir, if that is where we are headed, 
then all bets are off in terms of our ability to conduct the 
missions at the level that we predicted. At a minimum, we would 
have to continue probably this 25-percent reduction in 
operations in order to preserve our long-term capability to 
keep going. You start getting into maintenance issues. If you 
cut back in terms of maintenance funds, you pay a long-term 
price for that as well. And my biggest concern is we start 
eating into our family programs, our training programs, and 
other things that contribute to the long-term health and 
proficiency of our workforce, which is probably a larger 
concern to me than the equipment resources that we are trying 
to get.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.

                  VESSELS DEPLOYED TO INLAND WATERWAYS

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Admiral, good morning, sir. Thank you for your great 
service to the Coast Guard and to our United States. I 
appreciate that very much. I represent the Third District of 
Tennessee, where the Coast Guard has a tremendous inland water 
presence.
    I would like to ask you about the role and condition of 
Coast Guard vessels that are deployed to inland waterways of 
the United States. It is my understanding that some of these 
vessels currently in use are 44 years of age on average, and 
many are in need of replacement.
    How long can the current vessels maintaining our internal 
waters remain in service? And as a follow-up question to that, 
sir, what do you see as the mission of these vessels and what 
funding is included in your budget request to upgrade their 
function and support that mission?
    Admiral Papp. Sir, their replacement is over the horizon. I 
don't even see them within my horizon. What we have been doing 
over the last decade or so is incrementally funding renovations 
to those ships, replacing systems, whether it is electrical 
systems, heating, air conditioning, main engine overhauls, to 
keep them going. The good thing about the inland rivers is 
those hulls are not subject to salt water like our offshore 
cutters, so the hulls remain structurally sound. But it is the 
interior systems that become antiquated and are in need of 
replacement, and we have been incrementally working on that.
    I would love to have the wherewithal within our AC&I 
funding to be able to do mid-life extensions on them or 
ultimately come up with a project to replace them, but we just 
don't have the capacity for doing that within the funding 
levels that we have.
    Given our significant need in the offshore operations area, 
our larger cutters that are now 50 years old, that is where my 
highest priority lies. To the extent that we can, we will 
continue to work on our inland fleet, but that is, as I 
mentioned earlier before you came in, that is part of the 
problem. As we push acquisitions further to the right, we end 
up spending more money on aging equipment.
    It is not unusual for the Coast Guard to be running ships 
that are 60 years old or older. And so I suspect that we are 
going to have to get a few more years out of those ships that 
are on the inland rivers.

                                TRAINING

    Mr. Fleischmann. Another question. This budget proposes 
significant cuts to Coast Guard training activities, including 
a cut of over 65 percent to tuition assistance programs. What 
impacts will these cuts have on training, short and long-term 
tuition assistance, A and C Schools and the Coast Guard 
Academy?
    Admiral Papp. Reductions across the board. Part of it is 
just reality. Our boot camp at Cape May is now only going to 
bring in 1,500 new recruits this year. Part of that is driven 
by the budget, the other thing is by our high retention. We 
have 94-percent retention in the service right now. In fact 
last night I put out a message that our officer corps has gone 
through some significant reductions in promotion opportunities, 
and thus people are falling out along the way in order to keep 
us within strength. We are now going to have to apply that 
against our enlisted workforce, and we have something called 
high-year tenure. I put out a message last night that we are 
going to need to impose and start reducing that workforce, more 
than anything else to keep the flow going through so that the 
young people that are joining have the opportunity to advance 
and learn and progress in the service.
    It used to be the norm for people to go to boot camp and 
wait for perhaps 1 year at the most before they go to an 
initial training school for a rating. Now they are waiting 3 
and 4 years because of the slowdown in advancement in the 
service. So we are trying to speed that up a little bit.
    At the Coast Guard Academy, we have gone from about well 
over 200 cadets per year, down to 185 cadets this year. It is 
tough but what we are doing is reducing some of the staff at 
the Coast Guard Academy. We have reduced some of the staff at 
Cape May, and we have also reduced numbers of recruiting 
stations and recruiters out there as well simply because we 
don't have a need for them right now. Hopefully that will 
change in the future, and we will be able to reconstitute that 
hopefully at some time, but right now it is just a slowdown of 
personnel.
    What concerns me even more is the reduction in money 
available for training. We are focusing on our highest 
priorities in terms of training, our mission execution type 
training, but there is a whole range of other training that 
goes on that contributes to the long-term health of our 
workforce, and that will take some time to show up. We have got 
a very senior workforce right now that has been staying in, but 
as those people retire and leave, there are going to be less 
experienced people who are coming up behind them, and we would 
like to be able to keep them trained.
    Tuition assistance, some of those others things, we would 
love to be able to fund everything we can for our people. The 
reality is we cannot do that. But there is also a 
responsibility on the part of our people to train and educate 
themselves, as well. People can study, they can buy books, they 
can get courses themselves, and we encourage our people to do 
self-study to make themselves more valuable to the service and 
help their advancement as well. And we will try to provide as 
many opportunities for that as we can.
    Mr. Fleischmann. Thank you, Admiral.
    Mr. Chairman, I yield back, sir.
    Mr. Carter. Mr. Cuellar.

                     PROGRAM OBJECTIVES, MEASURING

    Mr. Cuellar. Thank you, Mr. Chairman. Admiral, what is 
your--I am certain in your budget you have a mission and a key 
objective and then you measure those objectives. What are the 
key objectives and how do you measure that to make sure that 
you are getting the best bang for the dollar?
    Admiral Papp. There are different objectives for each 
program. Aids to navigation, which is one of those, I call that 
preventive search and rescue because the better we do aids to 
navigation, keep ships navigating safely, it is less work for 
us to have to respond to. So we do measures like how many 
groundings or collisions have there been within the last year 
as sort of a testament to the effectiveness of our aids to 
navigation program. We have goals for drug interdiction that 
are put out by the Office of National Drug Control Policy and 
our National Drug Control Strategy that we are shooting for. We 
are falling woefully short. We should be getting closer to 35 
percent of the cocaine interdicted in the transit zone, and we 
are trending down more toward 15 percent right now with the 
number of assets that we have out there.
    Mr. Cuellar. So 85 percent of the cocaine is getting to the 
United States in your lane?
    Admiral Papp. That would be a good estimate, yes, sir.
    We have a very elaborate process that takes estimates on 
the cocaine that is produced in South America. We have good 
estimates on how much is consumed within the United States, and 
we have pretty good--well, we have clear numbers on what we 
interdict in the transit zone and what is also picked up at the 
border, and we also work with our foreign partners as well 
because some of that goes to Europe and toward Asia.
    Mr. Cuellar. For the southern strategy what other measures 
do you have to make sure that we are getting results? And I am 
talking about not measuring activity but actually measuring 
results. What other activities, what other key measures do you 
all have? And again I appreciate everything you do but I am a 
big believer in efficiency and effectiveness and how do you 
measure results.
    So how else do you measure results? Not activity but 
results.
    Admiral Papp. Some of it is looking at trends, for 
instance, migrant interdiction. We know the numbers that we 
would get during a mass immigration. We know the numbers that 
we see typically during a given year, how many times do we 
intercept boats and the numbers of whether it is Dominicans, 
Haitians, Cubans or others, and we watch the trends on that. We 
associate that with climate events, hurricanes and storms in 
the Caribbean. We look at how many we are picking up going 
around the border.
    The maritime issue particularly in terms of migrant 
smuggling, and we are seeing a pickup on the Pacific side 
between Mexico and California, is difficult; we don't have any 
long-term trend lines because most the migration has been 
across the land border now. So we are seeing an increase there, 
and we are going to continue to need to measure that.
    The challenge is how do you measure deterrence? For 
instance, with Haitians we know that the fact that we have 
Coast Guard cutters out there and they know that if they are 
interdicted, they will be directly repatriated, is a deterrent 
effect that prevents people from leaving. So how do you measure 
deterrence? That is always a difficult part of the equation.
    Mr. Cuellar. I understand. But how do you measure get-
aways? I guess it is the term that Border Patrol uses. In other 
words, they measure how many people they catch but they don't 
measure, I assume, maybe they do, is the get-aways, the ones 
that actually do get inside. Do you have any measurements to 
see how many people actually you do miss?
    Admiral Papp. We have pretty good measurements on landings. 
Now if they land and are undetected, you will probably find a 
boat, or if it is a smuggler, then you won't have a boat 
because they have just dropped off passengers, so we don't have 
a good handle on that. And once they are shore side that is a 
Customs and Border Protection job. We have the water side. So 
it is primarily interdictions, and we know some have got 
through if we find a boat on the shore or if Customs and Border 
Protection picks up migrants because they have been reported on 
shore.
    Mr. Cuellar. My time is up. If I can just ask this real 
quickly. Could you submit to us a comprehensive list of any 
cost saving measures that you might have? I am sure there is 
always, you do an evaluation besides, in an appropriations 
process we appropriate and we also look for a cost saving 
measure, so any cost saving measures, if your staff has done 
that, could you provide that to us so we can again keep you as 
efficient and effective as possible.
    Thank you so much.

                              PATROL BOATS

    Mr. Carter. Thank you, Mr. Cuellar. Since we have got Mr. 
Fleischmann with us now, we will do a brief third round.
    Admiral, you say your requirements are sound but you say 
the patrol boat hours are specious. What is it, sound or 
specious?
    Admiral Papp. The patrol boat hours are required, are done 
by looking across the entire mission set and then figuring out 
how many patrol boat hours would you need to do 100 percent of 
everything you are doing. As I said earlier, the Coast Guard 
has never been in a position to be able to do 100 percent of 
all the missions that we are assigned to. And I will tell you 
that on any given day, we don't maybe necessarily have to be 
doing 100 percent. We have to apply them against the highest-
priority issue on any given day.
    Right now, we say if you have X number of patrol boats out 
there, you have so many hours and that counts against whatever 
goal that you are shooting for. And what I am saying is we have 
41 110-foot patrol boats out there right now. Not all of them 
are achieving those hours. So it might look good on paper that 
we have got 41 boats and the potential for so many hours. But 
the fact of the matter is in the instance of the Chincoteague, 
we are getting 0 hours out of that boat right now, and we have 
been unable to decommission any of the older boats. Last year, 
we asked to decommission some of them because we have the new 
FRCs coming on line, and they were put back in the budget so we 
ended up having to sustain them.
    We have got to start decommissioning those 110-foot patrol 
boats at some time, and we have got 18 FRCs on order right now, 
money for 24. Those boats individually increase hours up to 
1,600 hours a piece, so they are very capable boats. We need to 
get them out there as soon as possible so that we have reliable 
boats that can produce all the hours that we are looking for. 
Right now, it looks good on paper to have 41 of those 110-foot 
boats, but not all of them are able to achieve the hours that 
we expect of them.

              PRIORITIES: AFTER NATIONAL SECURITY CUTTERS

    Mr. Carter. That kind of leads into my next question.
    We talked about the cutters that we are now going forward. 
Now, after we get these national security cutters done, what is 
your next priority? What do you see? Because, we have clearly 
got a picture that you have got needs. You have got needs in 
every category that we got.
    Where do you see the priority should be placed if you are 
having to choose, the next as we move forward, in funding the 
Coast Guard? Is it going to be air? Is it going to be people? 
Is it going to be midsize ships, the fast response cutters? 
Where is it going to be?
    Admiral Papp. Sir, air, as I said earlier, I am confident 
we have come up with a plan that will keep us solid for the 
next 15 years. Fifteen years from now, whoever the Commandant 
is at that time is going to be coming up and probably talking 
about mass obsolescence of the aircraft fleet. I will leave 
that to somebody else to tackle. I think we have got ourselves 
in good shape in aircraft right now.
    Patrol boats, yes, sir, we have got to get the patrol 
boats. I divide them into what do we use in the ports, what do 
we use close to shore and what do we do in those offshore 
waters, which we have got 4.7 million square miles of U.S. 
exclusive economic zone. It is the largest exclusive economic 
zone in the world that the Coast Guard has to patrol. And we 
are woefully in need of those offshore cutters. So the national 
security cutter has been my highest priority because that gives 
us the high-end capability. The offshore patrol cutter, which 
is moving along, and as I said we have a robust response, I am 
not supposed to know how many people have responded to that, 
but I am told it is somewhere between eight and a dozen 
companies responded to that request for proposal. And I am 
anxious to see what they are proposing, and we will be prepared 
to down select to three good candidates and then by the end of 
fiscal year 2015, we will down select to start production on 
one.
    So that is moving along. And I remain optimistic and 
confident that we will be able to keep that project going.
    The emerging mission spaces in the Arctic, and as I said 
earlier, the national security cutter has helped us out greatly 
there because it provides us mobile infrastructure that goes up 
there in times when there is human activity. Humans are not 
going to be up there, whether it is drilling operations, cargo 
or tourists, they won't be up there while it is frozen in. So 
the national security cutter is a sound investment to help us 
with our needs now.
    We also need to be able to have assured access to the 
Arctic, and that calls for icebreakers. My plan when I came in 
3 years ago, I told this subcommittee Healy we will keep 
sustained, and we needed to get Polar Star reintroduced to the 
fleet. I am proud to say that Polar Star is now back out in the 
fleet and operating. Polar Star will be up in the Arctic this 
summer giving her crew some experience in the ice, and then we 
will be sending her to Antarctic next February to break into 
McMurdo Sound for the National Science Foundation.
    The remaining step, which I told the committee we would 
need, is to start the construction of a new icebreaker. As you 
know, we had $8 million to start that process in the 2013 
budget. We are asking for another--I am sorry, it just slips my 
mind right now--I think it is another $2 million to continue 
that process. Once again, we haven't expended all the money 
from this current year. It will be enough to keep this project 
going. We are working with our partners within the government 
and with the Canadians to come up with the design. And we have 
had a commitment from the President to continue incremental 
funding to get that new icebreaker constructed. And that should 
be coming into service at about the time that Polar Star is at 
the end of her service life. So I think we have a sound plan 
for icebreakers as well.
    So I keep on coming back to that offshore fleet. As I said, 
we bought probably close to 800 boats for our stations. We have 
repopulated people at our stations; we have created the 
maritime safety and security teams [MSSTs]. We are sound in our 
ports and the near-shore environment. But that is not where we 
want to address our threats. We don't want to have to put MSST 
into action in Boston Harbor. We would rather interdict threats 
further offshore, as far off shore as possible, and that is 
where you need substantial cutters, and that is why that 
remains my highest priority.
    Mr. Carter. Thank you. I believe Mr. Price.

                              ICEBREAKERS

    Mr. Price. Thank you, Mr. Chairman. Let me follow up on 
your segue into the Arctic environment.
    The chairman and I paid a memorable visit with your people 
in Juneau and Kodiak 3 years ago. I think that visit still 
sticks in our mind for the enlightenment we received there 
about the implications of the Arctic Ocean's being navigable 
increasing parts of the year, and the activities, the various 
activities going on there, increasing there and the kind of 
pressures that was going to put on your operations. And so I do 
have a couple of questions just by way of updating that.
    The icebreaker plans. You are saying this 2 million for 
continued pre-acquisition activities, of course that compares 
to 120 million in fiscal 2014 in last year's CIP for the 
icebreakers so we are talking about of course early stage 
activity. I know the late enactment of your 2013 appropriations 
slowed down the survey and design process for this icebreaker. 
But it still is a significant drop in the funding requirement 
for the pre-acquisition activity.
    So what does this mean, just if you could just clarify what 
this, what we are on, what we are on track now to do by way of 
having a new heavy icebreaker operational? Are we talking still 
about an 8-year time frame approximately?
    Where does this leave us? And is this 2 million really 
adequate in terms of what you are able and desirous of doing at 
this juncture?
    Admiral Papp. Yes, sir. It is for now. That is all 
preliminary design work and coming up with the requirements for 
the new icebreaker. We want to take all parties into 
consideration. We have the National Science Foundation that 
will need to use that vessel, we have the Department of Defense 
that depends upon us to be able to have assured access into the 
Arctic and Antarctic. So we want to make sure all our partners 
are involved in this process, and we also want to make sure we 
work with the Canadians and other Arctic nation partners as 
well to make sure we are coming up with the absolute best 
design for the money.
    I have said that 10 years from the start, so 10 years from 
the start of funding is when we should have an operational 
icebreaker, and that was my plan based upon our desire to 
reactivate Polar Star with a goal of getting 10 more years out 
of that ship before we have to decommission it.
    And in terms of the capital investment plan, to me that 
just demonstrates the challenges of the capital investment 
plan. As I said, there were no national security cutters in the 
CIP last year and yet we have one. We have the amount of money 
you mentioned for the icebreaker. One positive thing I would 
say is we have had challenges in the past with getting 
incremental funding, making the argument that we shouldn't have 
to put all the money in one fiscal year for any one of our 
assets. I think this is a trend toward perhaps incrementalizing 
the costs over multiple years at a more reasonable pace for 
expenditure.
    And I also wanted to get back to the chairman. I have it 
directly from Secretary Napolitano that the capital investment 
plan will be delivered to the Congress on 1 May.

                           ARCTIC OPERATIONS

    Mr. Price. Finally, let me ask you about your operations in 
the Arctic during periods of open water, including last year's 
Arctic Shield oil spill exercise, if I could just ask you to 
reflect on that.
    In light, obviously, of Shell's drilling rig incidence of 
last year and the training and exercises that you have 
undertaken, has all of this led you to modify or strengthen 
your contingency plan for accidents, particularly with regard 
to oil-filled vessels or massive oil spills in the Arctic?
    We all know these operations demand specialized 
capabilities, personnel that are specially trained and equipped 
to operate in extreme climate. How confident are you that Coast 
Guard personnel are prepared to take on these challenges?
    What lessons have you learned since the Deepwater incident 
and these more recent exercises? What can you tell us about the 
capabilities you have there now and need to develop?
    Admiral Papp. Yes, sir. Well, incident response plans are 
something that always evolve. We learned a lot of lessons from 
Deepwater Horizon. Although Shell's activities in the Arctic 
have been portrayed, I think generally, in a negative light, I 
kind of welcome that because it gave us some additional lessons 
to evaluate and apply toward their incident response plans or 
any other company that decides to go up there and begin 
drilling.
    And also I think the experiences of last summer were good 
to remind people that it is a very challenging environment up 
there. The Coast Guard has been involved up in the Bering Sea 
and the Arctic since 1867. We understand the challenges of the 
distances, the remoteness, the fact that you have to have 
substantial ships that can sustain themselves up there. So it 
is good that the oil companies are learning this and that they 
will have to reevaluate their plans. And I think that is part 
of the reason why Shell has decided to delay a year before 
going back up there again. And I think ConocoPhillips has also 
decided to delay for a little bit as well. They need to 
reevaluate their plans. We will evaluate those plans along with 
them. And this has all been a learning experience.
    My biggest concern right now is the increase in traffic 
through the Bering Strait, the 50-mile wide pass there that is 
some of the most challenging weather on Earth, and the Russians 
are opening up their North Sea route. We are seeing a fourfold 
increase of ships going through the Bering Strait. The good 
news is we are working with our Russian partners. One of the 
beautiful things about the Coast Guard is we have committees, 
we have forums where we work with other partners. We are 
working now to come up with traffic rules for the Bering Strait 
because a collision between vessels, particularly vessels 
carrying oil, which are likely to go there, would be just as 
disastrous if not more or a higher risk for potential as the 
drilling operations that are going up there. So we are working 
on all fronts sir.

                             BERING STRAIT

    Mr. Price. You are saying a fourfold increase in Bering 
Strait?
    Admiral Papp. Yes, sir because of the opening up of the 
North Sea route. And I believe that within the next decade, 
certainly within the next two decades, the economic incentive 
of going through the North Sea route above Russia will save the 
companies millions of dollars and time in terms of transit.
    And you already have some; for instance, I was in Singapore 
last year for a visit. They are worried about maintaining their 
competitive advantage for location because right now they are 
on a major transit route. When ships start going around the 
North Sea route, and the Singaporeans believe this is happening 
as well, it may affect their business. So the Bering Strait is 
going to see increased, continuous increased activity over the 
next couple of decades.
    Mr. Price. What is the international composition of that 
increased traffic?
    Admiral Papp. LNG [liquefied natural gas] will be making 
the transit; oil will be making the transit. But as people 
start recognizing this competitive advantage, you will see 
container ships and others that will start transiting above 
Russia because--and I wish I had the exact figures for you here 
because I am just not able to retain all of them all the time--
But it significantly cuts down the numbers of days in transit, 
which equates to fuel, paying your crews and everything else, 
and time is money for that business. So they will take 
advantage of it.

                           NORTHWEST PASSAGE

    Mr. Price. And the passages above Canada, those also?
    Admiral Papp. That is going to take longer, the Northwest 
Passage, because it is more difficult. The passage above Russia 
is relatively open, and with the way the ice flows, that clears 
out fairly early in the season.
    A lot of the ice stays in the Northwest Passage above 
Canada and takes a longer time to melt, and it is a more 
treacherous transit as you go through all those island 
passages. There will probably be, I think most people are 
predicting probably another two or three decades before the 
Northwest Passage above Canada starts becoming viable.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Mr. Fleischmann.

                        SEA STATE 5 REQUIREMENT

    Mr. Fleischmann. Thank you, Mr. Chairman.
    Admiral, there has been much discussion as to the 
capability of the Offshore Patrol Cutter, specifically the 
requirement to operate at Sea State 5. Admiral, why is this 
requirement important? And if the current proposals come in too 
high, will you decrease the sea state requirement in order to 
meet the target price?
    Admiral Papp. I would not like to do that because that 
would probably delay the process. We may have to recompete the 
request for proposals by changing that standard. The reason we 
need the standard is because we will have only eight national 
security cutters. And although they are tremendously capable 
ships, they can't be in the same places that the 12 high 
endurance cutters were that they are replacing.
    We have been comfortable with 12 high endurance cutters 
because that gave us enough to operate in the Bering Sea and in 
the Gulf of Alaska and the broad ranges of the Pacific. Given 
the fact that we will have fewer ships, in fact, we will only 
have six national security cutters out on the West Coast 
because we need to keep two on the East Coast, we need to make 
sure that the offshore patrol cutters are capable of operating 
in Alaska.
    The 270-foot medium endurance cutters that we have were 
originally intended to be able to operate everywhere. We have 
tried to operate them in Alaska. You can't launch and recover 
boats and you can't launch and recover aircraft. They just 
cannot survive the sea state up there. And that is our world of 
work. We have to be able to launch boats for our boarding teams 
to go aboard fishing vessels. We need to be able to launch 
helicopters for search and rescue. So this requirement for Sea 
State 5 has been our highest priority on that ship. I am sorry. 
It has not been the highest priority. The highest priority has 
been affordability. And when people have asked me what are the 
three most important things about the offshore patrol cutter, I 
have constantly said affordability, affordability, 
affordability. So that will be the driving factor in our down 
select for these three candidates, and I am hopeful that all 
three will not only be affordable but be able to survive in Sea 
State 5. I am sorry, not survive but operate in Sea State 5.

                         H-65, H-60 HELICOPTERS

    Mr. Fleischmann. Thank you, sir.
    Admiral, are you concerned that there are no 
recapitalization plans for either the H-65 or the H-60 
helicopters and limited funding for sustainment of the current 
inventory? Do you plan to address these issues in the out 
years, sir?
    Admiral Papp. We will constantly reevaluate. We have, I 
wish I had the number for you, and we can provide it, but we 
have invested heavily in our helicopter fleet, the 65s and the 
60s, over the last decade. We have taken the H-65 from a alpha 
model and worked it all the way up to delta model right now. 
And as I said earlier, I think you were out of the room, sir, 
our aviation logistics center has and can take a bare frame, in 
fact we have taken discarded H-60 frames from the Navy and 
built them into new helicopters. That is how good our 
technicians are down there. So we have totally rehabilitated 
all our H-65s and upgraded their avionics and their engines. 
The H-60s we have upgraded now to a tango model. We have enough 
funds to complete those conversions, and then we will probably 
take a pause for a little bit to see what develops in terms of 
the fiscal environment over the next few years.
    Even if we did nothing further, we have maintenance funds 
that allow us to sustain the upgrades that we have done, and my 
estimate at present is those helicopters are good for the next 
15 years.
    Mr. Fleischmann. Thank you, Admiral.
    Mr. Chairman, I yield back.
    Mr. Carter. Well, thank you, Admiral, and thank you for 
your testimony here today. To wrap it up, you have given us a 
May 1st deadline. That seems to be a favorite day of Ms. 
Napolitano's. So far, every time I have asked her to fill in 
the blanks on her tardiness she has given me a May 1st 
deadline. We may be getting everything we have requested on May 
1st. Three months late is not too good a track record for us to 
be touting as people are attacking our country yesterday and 
possibly today. It doesn't make us look very good.
    But I hear you. You tell me what she says, it doesn't seem 
to bother her. She is in charge of the agency to defend this 
country and protect this country, and yet she can be 3 months 
behind on letting us, helping us plan the spending. That is not 
your fight, that is my fight.
    I want to thank you for being here and doing what you do. 
God bless the Coast Guard. You guys have a tough job, and we 
are going to try our very best to see if we can keep the Coast 
Guard functioning as best we can. We are going to scrounge for 
every penny we can to assist the Coast Guard. Thank you.
    Admiral Papp. Thank you, Mr. Chairman. Thank you, Mr. 
Price.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 17, 2013.

                   U.S. CUSTOMS AND BORDER PROTECTION

                               WITNESSES

MICHAEL FISHER, CHIEF, BORDER PATROL, CUSTOMS AND BORDER PROTECTION
RANDOLPH ALLES, ASSISTANT COMMISSIONER, AIR AND MARINE, CUSTOMS AND 
    BORDER PROTECTION
KEVIN McALEENAN, ACTING DEPUTY COMMISSIONER, CUSTOMS AND BORDER 
    PROTECTION

                     Opening Statement: Mr. Carter

    Mr. Carter. Good morning. I will call this hearing to 
order. This morning we welcome witnesses from the U.S. Customs 
and Border Protection, or CBP, as we consider the President's 
fiscal year 2014 budget request to secure our borders to 
facilitate lawful travel and trade.
    Now our Acting Deputy Commissioner Kevin McAleenan, Chief 
Michael Fisher of the Office of Border Patrol, and Assistant 
Commissioner Randolph Alles of the Office of Air and Marine, 
gentlemen, we appreciate you being here. Thank you very much 
for being here. We are looking forward to your testimony. We 
also want to thank you for your service. You serve us in many, 
many great ways, and thank you for representing the interests 
of thousands of frontline officers and agents who risk their 
lives every day in the service of our Nation.
    The senseless and cowardly attack in Boston is a sharp 
reminder that we must be ever vigilant in our efforts to secure 
the homeland, a reminder that I know is with your folks every 
day as they carry out their critical mission of border 
security. The last 2 years have been marked by disingenuous 
budget requests and painstaking analysis by this subcommittee. 
It was clear that the CBP budget did not cover its personnel. 
It appears, upon our initial analysis, as though the fiscal 
year 2014 request actually supports CBP's baseline staffing 
levels that includes 21,370 border patrol agents, 21,775 CBP 
officers and 1,138 Air and Marine interdiction agents, along 
with 2,383 agricultural specialists.
    However, the fiscal year 2014 request also proposes to add 
1,600 CBP officers through a down payment of $210 million in 
appropriated funds and 1,877 CBP officers through an 
unauthorized fee proposal. CBP's budget is now 72 percent 
salaries and benefits for its more than 60,000 personnel.
    Is now the right time to increase staffing when it is not 
clear that we are giving these officers and agents the right 
tools to do their important mission? That is something we need 
to think about.
    The request also assumes massive cuts to ICE and the Coast 
Guard as well as the reductions to CBP Air and Marine 
operations. Will investment dollars be better spent to ensure 
CBP air assets are flying to support border security? We are 
going to need to think about that.
    In fiscal year 2012, Air and Marine supported border 
patrol, drug interdiction and other missions with 81,000 flight 
hours, which is less than prior years. Given fiscal year 2014 
request, the Air and Marine will only achieve 62,000 flight 
hours. Air and Marine needs the right mix of staffing and 
assets and operational funds for fuel and routine maintenance 
to do its job, and it is clear this budget request does not 
support that need. Border patrol and drug interdiction missions 
will be impacted.
    However, CBP has not been particularly good at measuring 
the impacts of budget tradeoffs on mission capabilities and 
performance. While I congratulate Field Operations on finally 
issuing the workload staffing model and developing detailed 
metrics and measures for its operations, the Border Patrol has 
not put forth similar measures. If immigration reform is to 
happen, we need to know the level of border security we can 
achieve with the right resource mix.
    This subcommittee faces tough choices in developing the 
fiscal year 2014 appropriations bill, and for that reason we 
look forward to hearing from you on all your mission needs.
    I would like now to recognize the distinguished ranking 
member Mr. Price for his opening remarks.
    [Statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Opening Statement: Mr. Price

    Mr. Price. Thank you, Mr. Chairman. I want to join Chairman 
Carter in welcoming our witnesses this morning, Border Patrol 
Chief Michael Fisher, Assistant Commissioner for Field 
Operations Kevin McAleenan, and Assistant Commissioner for the 
Office of Air and Marine Randolph Alles. I also want to thank 
recently retired Deputy Commissioner Aguilar for his tireless 
work over the past 31 years to secure our border.
    All of you, like many of your DHS colleagues, have a 
difficult and sometimes thankless job. Yet you performed it 
admirably. Thanks to the men and women of Customs and Border 
Protection, the 1,954 miles of our shared border with Mexico 
has become increasingly difficult to breach. Two decades ago, 
fewer than 4,000 border patrol agents manned the entire 
southwest border. Today, that number is about 18,500, and some 
651 miles of fence have been built in targeted areas of the 
border. Now sensors have been planted, cameras erected, 
unmanned aerial vehicles monitor the border from above.
    Couple these efforts with targeted outbound inspections of 
vehicles for illegal drugs, weapons, cash and other contraband 
heading south into Mexico, which has resulted in some 
impressive seizures in California, Texas and Arizona over the 
past 3 years, and you can see just how successful our border 
security efforts have been.
    Now, as I stated in our hearing with Secretary Napolitano, 
as the former chairman of this subcommittee, I know how elusive 
the definition of secure can be. I also know that we can't 
simply throw an unlimited amount of money or technology or 
anything else at the southwest border and assume that will 
solve all the problems. We must continue to look analytically 
for the right mix of personnel, infrastructure and technology 
to find the best path forward.
    At the same time CBP has made steady progress in securing 
our borders, the agency has struggled to keep its financial 
house in order. Over the past 2 years, CBP has been unable to 
accurately budget for its salaries and expense requirements, 
which account for almost 70 percent of its appropriations 
needs. For example, going into fiscal 2013, CBP found itself 
with a $324 million salary shortfall, created in part by a 
budget request that incorrectly assumed CBP access to fee 
revenue, in part due to assumptions about attrition rates that 
were off the mark. While CBP should be commended for 
identifying ways to address this shortfall, it is imperative 
that the agency avoid such errors in developing future budget 
requests.
    Today I want to explore the progress CBP has made in 
addressing its salary shortfalls as well as the impact of 
sequestration on your agency. At a time when Congress is 
considering comprehensive immigration reform with some calling 
for a secure the border first approach, your agency has a 
difficult task ahead.
    It is not a matter of a new task being laid before you. CBP 
has made steady progress in grappling with border security over 
the last decade. But there has been a continuing debate about 
what it means to secure the border, and we will need to develop 
some consensus on that question in the context of comprehensive 
immigration reform.
    We may not be able to resolve that issue here today, I am 
afraid, but I hope you will be able to give us your perspective 
on how far we have come on border security, on the current 
state of our capability and about the challenges that still 
remain.
    We need a clear picture of what the budget request for the 
coming year means for CBP's ability to address the multiple 
challenges it faces. CBP must have the resources and 
flexibility to quickly identify threats and then stem the flow 
of people and drugs coming into our country illegally as well 
as to process the legal entry of people and goods 
expeditiously. It is our job to make sure you have the 
resources to do that successfully.
    The CBP budget request is for $12.9 billion, an increase of 
about $1 billion, or 8.6 percent. Perhaps most notably, the 
budget proposes an increase of $210 million to hire an 
additional 1,600 CBP officers and 245 mission and operational 
support positions. It also proposes authorizing language to 
increase immigration fees and customs user fees by $2 each to 
support an additional 1,877 CBP officers. I hope you will be 
working closely with the authorizers regarding the need for 
these additional officers and the rationale for using 
additional fee revenue to support them.
    The budget also proposes a cut of $87.2 million to CBP Air 
and Marine interdiction, including a cut of $43.9 million to 
Air and Marine procurement and a cut of $43.1 million to 
operations and maintenance. This raises serious questions about 
how CBP would prioritize its interdiction efforts with such 
limited resources and flight hours.
    So, to all of you, I commend you for your efforts to make 
CBP a more agile law enforcement agency and our border 
communities more secure. We thank you for your service and we 
look forward to your testimony.
    [Statement follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Carter. Thank you, Mr. Price.
    Commissioner McAleenan, I am going to now recognize you to 
make an opening statement for the panel. Your written statement 
will be placed in the record and we all have a copy of it. 
Please limit your oral arguments to no more than five minutes 
to sum up your ideas. Please proceed.

        Opening Statement: Acting Deputy Commissioner McAleenan

    Mr. McAleenan. Thank you, Chairman Carter, Ranking Member 
Price and members of the subcommittee. Good morning. It is an 
honor for us to be here today representing the men and women of 
U.S. Customs and Border Protection and to discuss the 
tremendous work they do each day to protect our Nation.
    Mr. Chairman, let me offer CBP's congratulations on 
becoming chairman of the subcommittee, and we look forward to 
continuing to work with you and other distinguished members in 
the years and months ahead.
    Before I begin, I would also like to acknowledge the tragic 
events in Boston on Monday and briefly reference the work CBP 
is doing to support the interagency response. CBP is supporting 
the FBI [Federal Bureau of Investigation] led investigation to 
the Joint Terrorism Task Force with data and research support 
as well as scrutinizing outbound international travel for any 
sign of a suspect fleeing the incident.
    We have also provided air support to the air and sea 
effort, and if it is determined that there is an international 
nexus to the attack, we will bring every asset and capability 
available to bear in identifying and pursuing those who have 
perpetrated this atrocity. The victims and their families are 
front of mind for all CBP personnel and we will do whatever we 
can to support the investigation.
    With more than 60,000 employees, CBP is the largest law 
enforcement agency in the United States. We are responsible for 
securing America's borders to protect our Nation against 
terrorist threats and prevent the illegal entry of inadmissible 
persons, contraband and agricultural pests and animal diseases 
while promoting the safe and efficient flow of travel and 
trade.
    Today we will highlight the fiscal year 2014 budget request 
and outline the ways in which CBP is optimizing its resources 
to perform our mission more effectively and efficiently. In the 
budget request, CBP is requesting funds to enhance frontline 
operations as well as fund a limited number of improved 
capabilities in the areas of border security, targeting and 
trade facilitation and enforcement. I would like to highlight 
five key aspects of the budget request.
    First, our fiscal year 2014 budget request supports 21,370 
border patrol agents and a record 25,252 CBP officers. This CBP 
officer staffing level includes the agency's request for 1,600 
CBP officers as well as 1,877 officers to be funded by proposed 
increases to the COBRA [Consolidated Omnibus Budget 
Reconciliation Act of 1985] and immigration user fees. This 
increase in officers will result in additional enforcement 
actions, marked decreases in wait times and significant 
benefits to the U.S. economy.
    Second, every day, transnational criminal organizations 
attempt to smuggle people and contraband in the maritime 
environment. CBP's Office of Air and Marine P3 aircraft have 
been instrumental in detecting and intercepting vessels with 
contraband bound for the United States while still thousands of 
miles away from our borders. CBP's fiscal year 2014 budget 
request includes $74 million to sustain and enhance CBP's air 
and maritime operations and patrol capabilities through the 
procurement of new multi-role enforcement aircraft, the P3 
service life extension program, coastal intercepter vessels and 
sensor upgrades for tactical aircraft.
    Third, CBP will deploy proven and effective surveillance 
technology along the highest traffic areas of the southwest 
border. CBP's fiscal year 2014 budget request will enable CBP 
to augment and upgrade our existing capabilities with the 
additional deployment of integrated fixed towers, up to 50 new 
tower sites in six border patrol station areas of 
responsibility, and upgraded remote video surveillance systems 
in critical focus areas along our southwest border. This 
technology will be incorporated with other border surveillance 
tools tailored to the southwest and northern border as well as 
maritime environments and will significantly increase our 
situational awareness.
    Fourth, CBP's fiscal year 2014 budget request also supports 
our targeting framework and with additional system 
capabilities, including improvements to the automated targeting 
system and the national targeting centers. Further, the budget 
request includes $13 million to fund the initial cost of 
consolidating CBP's targeting centers to more effectively and 
efficiently meet CBP and interagency mission needs.
    And finally, we recognize how the increasing volume of 
international travel benefits our economy. CBP strives to 
process passengers as quickly as possible while maintaining the 
highest standards of security. Our budget request includes $8 
million to invest in technology to improve processing and ports 
of entry through the acquisition of 60 kiosks to be employed at 
eight high-volume ports with over 29 million pedestrian 
crossings. This investment will allow CBP to better facilitate 
legitimate travel and focus on higher risk.
    CBP is continually enhancing facilitation and security 
efforts to optimize our resources, operations and business 
processes to increase security and efficiency. The fiscal year 
2014 budget request enables CBP to pursue personnel and 
technology enhancements to improve our effectiveness and 
streamline our activities to safeguard our borders and promote 
the safe and efficient flow of travel and trade.
    Along with my distinguished colleagues, I appreciate the 
opportunity to be here this morning, and we look forward to 
answering your questions.
    [The statements of Messrs. McAleenan, Fisher, and Alles 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


               WORKLOAD STAFFING MODEL: STAFFING, OVERALL

    Mr. Carter. Thank you very much. Well, I will start off.
    Mr. McAleenan, you are aware that the fiscal year 2013 
request shortchanged CBP operations, including failing to cover 
pay and benefits for the workforce. I spoke with the Secretary 
on the record last week about this topic. The DHS budget must 
accurately and legitimately propose funding to cover known 
costs, including personnel. Can you clarify for the record that 
the fiscal year 2014 budget request includes funds, all the 
funds necessary to cover personnel cost for 21,370 border 
patrol agents, 21,775 CBP officers?
    Mr. McAleenan. Yes, Mr. Chairman, I can confirm that the 
fiscal year 2014 request properly funds and supports those 
personnel levels, and we appreciate the committee's oversight 
and acknowledge the issues with the estimates of the pay 
requirements in 2013.
    Mr. Carter. Anything less than that is unacceptable, and 
you know we are going to be sending out surveys and 
investigation staff to ensure that that is the case because we 
just can't have another shortfall, and I appreciate your taking 
that challenge.
    The budget proposes to bring 1,600 additional CBP officers 
in fiscal year 2014 using appropriated funds and 1,877 CBP 
officers through unauthorized user fee increase. I will give 
you a chance to make your pitch for more officers, but given 
the history of shortchanging how these benefits will look for 
all border personnel, I am very concerned about the future year 
commitments associated with this increase. Please outline what 
the proposal for 1,600 officers entails in 2014 and the future 
year cost of that investment for the following four fiscal 
years.
    Mr. McAleenan. Thank you, Mr. Chairman. Obviously this 
request in the 2014 budget recognizes significant investment 
needs in CBP officers at our ports of entry. It is based on our 
workload staffing model, which we have delivered to the 
committee and look forward to reviewing with you and your staff 
and which outlines the needs at our ports of entry. This has 
been many years in the making, as you know. It is a rigorous 
assessment of what we need to process increasing volume of 
trade and travel and increasing enforcement efforts at our 
ports of entry, and it has been reviewed externally. We think 
it is a solid estimate of how to properly process trade and 
travel at our ports of entry.
    The economic impact of what we do at the ports in terms of 
transaction costs for travelers and trade is very significant. 
A study just released last week indicated that wait times have 
a major economic impact and that even adding one additional 
officer creates $2 million in gross domestic product economic 
activity as well as avoiding $640,000 in opportunity costs. So 
I think the recognition here at the department and 
administration level is that this is a real economic impact and 
that we need to invest in improving our services at ports of 
entry while maintaining and enhancing our security level.
    In terms of the breakdown of the fiscal year 2014 request, 
Mr. Chairman, the $210 million would fund 1,530 CBP officers 
and 70 canine officers, which are very effective, especially on 
the southwest border in our counternarcotics mission. It would 
also fund 107 operational support personnel, which free up 
additional officers for frontline activity, and 138 mission-
support personnel, which are critical to supporting the 
expanded workforce.
    This is a commitment on the part of CBP and the 
administration to fund these personnel because of their 
importance to our efforts at ports of entry, and it will be 
continued in the outyears based on these requirements 
identified in the workload staffing model.
    Mr. Carter. I note my information shows that we are trying 
to fund 245 mission-support personnel. You mentioned 138. Do 
you know what the discrepancy is there?
    Mr. McAleenan. Yes. I was providing the specific breakdown. 
Within that 245, 138 are pure mission support, think of the HR 
[human resources] or budget functions, while 107 are mission 
support but in a more operational context. They are out in the 
ports of entry doing scheduling or----
    Mr. Carter. Okay.
    Mr. McAleenan [continuing]. Cashier work or other 
operational support.

                      BORDER SECURITY: DEFINITION

    Mr. Carter. Congress has invested billions of dollars in 
CBP since September 11th, particularly in bolstering Border 
Patrol staffing to a record 21,370 agents, deploying tactical 
infrastructure and improving air assets and technology. Chief 
Fisher, I believe the Border Patrol is starting to get the 
tools together to do this job in the right way, but as I see 
it, Border Patrol is still measuring its effectiveness only in 
terms of apprehension and seizures. That is not good enough to 
provide the American people with the confidence that the border 
is secure.
    What other measures are you looking at and what does a 
secure border mean to you? And this is a very important answer 
because, quite honestly, we just had released last night the 
Senate's view of the future of immigration policy. The House is 
working on immigration policy, and I can assure you that 
everything is going to start with the definition of secure 
border, and there is a lot of play in words out there, but the 
American people are not going to fall for play on words 
anymore. They are going to want reality of border security, and 
even more so now we have an unknown assailant that has harmed 
people in Boston and at least we can use our imagination and 
wonder how they got there and did they come across our border.
    So, you know, we don't know. We hopefully are going to find 
out, but the American people are thinking about that, and they 
are having candlelight vigils and they are praying in churches 
because they are afraid. Our job is to get rid of that fear. So 
you know, it is a hard definition. What would be your 
definition of a secure border?
    Chief Fisher. Thank you, Mr. Chairman, for that question. 
First, I happen to agree with you. Just apprehensions of 
individuals alone or seizures of narcotics certainly does not 
give a complete story, nor does it define the security of the 
border.
    I would first start with when people ask me the question, 
well, what does a secure border look like? I generally respond 
in two ways. First and foremost is the likelihood to reduce 
attacks to this country. It is based on risk. It is based on 
information that we have in advance so that we can plan our 
operations accordingly and put that capability against those 
areas of high threat.
    Second is our ability to provide safety and security to the 
communities in which we serve as a law enforcement 
organization, very similar to others. Within that broad 
context, I will give you one specific example because I think 
it is articulated in the proposed legislation when it talks 
about effectiveness rates.
    At the end of the day, when we were designing the new 
strategy for the Border Patrol, we were looking at how we want 
to implement that, and more importantly, how we measure it. One 
overarching concern both within the organization and outside 
the organization, stakeholders here in the Beltway, community 
members I talked with out in the field--A very important piece 
that is really critical to everybody's mind is, at the end, how 
many people came across the border and, of that number, how 
many people did you either arrest or were they turned back and 
went to Mexico, right.
    The third piece and the general outcome is going to be, 
well, we didn't apprehend them subsequent to a detection, and 
so we have looked at that and called that the effectiveness 
ratio, and we have been working very hard over the last couple 
of years to be able to increase our ability to do just that.

                     BORDER SECURITY: APPREHENSIONS

    Mr. Carter. And I have watched the turn-backs at the 
border. Just curiosity, do you count them? I mean, I have seen 
border patrolmen stand on the shore of the Rio Grande and 
people halfway across say go back, and there will be 8 or 10 of 
them out there and they generally obey and turn around and go 
back. Now they may go right down the river and try again, but 
they go back. Do you count those folks?
    Chief Fisher. If individuals made an entry into the United 
States, so let's say for instance they are halfway across the 
river, they see the Border Patrol agents and they start 
peddling back toward Mexico, they have not made an entry so 
that would not be counted. If an individual makes an entry and 
our Border Patrol agents are able to ascertain, either because 
they see them physically, utilizing technology or they happen 
to be on the bank of the river, or in cases where we are 
utilizing tracking operations and we see the footprints of 
individuals coming into the country--We put out an instruction 
last year and we are getting better at being able to do end-of-
the-shift reports.
    We are also looking to aggregate all of that data, not just 
by shift and station and sector but doing it at the national 
level so we have a strategic assessment on the extent to which 
we are achieving higher levels of effectiveness.
    Mr. Carter. The middle of the river is the border, right?
    Chief Fisher. In most cases, yes, sir.
    Mr. Carter. Now, once they are on the shore--I mean, just 
out of curiosity. I know that you have a policy that when you 
catch people that are Mexicans, you take them back across, 
right? I mean, if you caught the other than Mexicans, it can be 
a political problem that you can't take them immediately back 
across. So if you catch them on dry land, do you have to take 
them into the office and process them and then take them back 
across the bridge or can you just say, go back and they go 
back?
    Chief Fisher. No. If they are apprehended, we apprehend 
them in the United States. We have an affirmative duty to make 
that arrest. We do that in each and every case.
    Mr. Carter. That is what I thought.
    Chief Fisher. To the extent that we can, and then we go 
ahead and process, predominantly to identify who these 
individuals are. That goes to that first overarching piece to 
reduce the likelihood.

                 BORDER SECURITY: SITUATIONAL AWARENESS

    Mr. Carter. What about situational awareness, how can you 
measure that?
    Chief Fisher. In two ways. One is the application of 
technology, and thanks to your leadership and this committee, 
we have seen an increase over the last few years in technology. 
Things like integrated fixed towers, remote video surveillance 
systems, and mobile surveillance systems help. The other areas 
that we have transitioned just recently this year in our 
implementation plan are those areas that traditionally we just 
couldn't get to. They were very remote. We didn't have a 
requirement for fence or technology, but we still had a 
responsibility to have a broader sense of situational 
awareness.
    The way that we worked that is we are working with the 
General and some of his high-altitude technology along with 
other government assets in the intelligence community to be 
able to look at these areas and do frequent flyovers and then 
compare using coherent change detection on any change in these 
particular areas that would notify us for an operational 
deployment.
    Mr. Carter. What level of persistent surveillance are you 
seeking? What level of capability do you feel like you already 
have?
    Chief Fisher. Mr. Chairman, that is a little bit difficult. 
I can tell you on the southern border, we probably have more in 
terms of situational awareness that informs us based on 
technology than we do in places on the northern border. 
However, situational awareness isn't just relegated to the use 
of technology. It is things like I am going out and working 
with the community, people who live in the border communities, 
businesses that operate within the communities. That is why 
information as the first pillar in our strategy is so critical. 
It also includes some new technology that we are testing right 
now with Science and Technology. It is called Border Watch. 
These are applications that people within the communities can 
use either on their iPhones or on their computers and be able 
to report and respond, and so this goes to our community 
engagement approach within the strategy, to use this force 
multiplier, things other than just technology to get a broader 
sense of situational awareness.
    Mr. Carter. Do you have a metric or measure for this 
situational awareness, or do you need one?
    Chief Fisher. Well, obviously the situational awareness, 
you want to have 100 percent as a goal, right?
    Mr. Carter. Right.
    Chief Fisher. And as we look toward doing that, we start 
filling in the gaps: those areas where we have deployments and 
can detect based on entries and those areas that we are using 
in situational awareness to get a better sense of if in fact 
anything is happening.
    And what it ends up doing for us is it shrinks the border 
area reduction. It really goes to trying to prove the negative 
so that if we have areas where we are doing frequent flights, 
that based on the algorithms and the computers and the Intel 
analysis tell us that over a course of say 30 days, the 
probability is extremely low that anything is moving through 
here, then we have a broader sense that we don't have to 
continue to ask for more resources to continue to patrol 
utilizing Border Patrol agents or putting more technology in 
areas of very low risk.

              BORDER SECURITY: SITUATIONAL AWARENESS TOOLS

    Mr. Carter. Let's focus on technology that has been under 
way in Arizona. Chief, I shouldn't have to tell you that we are 
a little bit angry by the delays in getting what is supposed to 
be commercial-off-the-shelf tools in the hands of your agents. 
What is the status of those procurements? When will you have 
metrics establishing or established to measure the return on 
the investment?
    Chief Fisher. Thank you, Mr. Chairman. I certainly share 
your angst in our inability to put those in the hands of the 
Border Patrol agents forward in places like Arizona. I can give 
you a quick update in terms of the two prominent pieces that we 
have been waiting for for the last couple of years, that is, 
the integrated fixed towers and the remote video surveillance 
systems. We have camera poles. These are the cameras to replace 
that new generation better enhanced capability. Starting this 
summer, we should start seeing some of the new enhanced cameras 
come on board, and certainly by the fall we are looking to have 
integrated fixed towers in those areas where we have 
prioritized the need for that requirement in a place like 
Arizona.
    But broadly, when we look at what we are continuing to add 
to that suite, both in terms of our ability to detect, 
apprehend at high proportion as well as add to our ability for 
broader situational awareness, we also entered into a 
memorandum of understanding with the Department of Defense a 
couple of years ago. Through that effort we have identified so 
far about 2,000 pieces of equipment. Now, this would be 
equipment that would either have been deployed in theater or in 
warehouses to be deployed that is no longer going to be 
deployed based on the drawdown.
    Those 2,000 right now are in a warehouse in Oklahoma City. 
We are doing inventory and system checks on those. What we are 
doing is going to augment. Now, these were systems or 
requirements that we have identified through the military and 
we do that right through NORTHCOM, specifically in El Paso, 
with our direct point of contact with JTF [Joint Task Force] 
NORTH. We do requirements on a quarterly basis to them and we 
just roll this process right into that.
    So in a very short order, we expect to have an enhanced 
capability in forms of detection, ground sensors and mobile 
systems, things that the taxpayers have already paid for that 
we are going to utilize for our border security mission.
    Mr. Carter. That would be the nature, you are not buying 
heavy equipment, or you know, there is this big fear factor out 
there on the Internet that somebody in this government is 
accumulating tanks and armored vehicles. You are not talking 
about stuff like that from the military. You are talking about 
surveillance and sensors and the things we need to locate 
people as they are coming across.
    Chief Fisher. That is correct, sir.
    Mr. Carter. I just want to clarify that because there are 
those who are preaching that we are storing bullets and buying 
armor, and I want to clarify that we are not.
    Mr. Alles. Sir, if I could jump in here a second----
    Mr. Carter. Yes, sir.
    Mr. Alles [continuing]. With Chief Fisher. Additionally, as 
he has kind of mentioned, we are also using our air assets that 
are equipped with systems like the VADER [Vehicle Dismount and 
Exploitation Radar] system and our change detection radar, as 
he mentioned, to give us better situational awareness, 
particularly in areas where we can't put fixed towers or it 
doesn't make sense cost-wise because there is low activity. But 
that is an additional way we are moving to get better 
situational awareness along the borders.
    Mr. Carter. Thank you, gentlemen. I appreciate that 
comment, and I thank you for your honest assessment. That is 
what it takes for us to work together.
    Chief Fisher. Yes, sir.
    Mr. Carter. And I appreciate it very much.
    Chief Fisher. Thank you, sir.
    Mr. Carter. Mr. Price.

                     SEQUESTRATION IMPACT: OVERALL

    Mr. Price. Thank you, Mr. Chairman, and thank you all again 
for your testimony. I want to explore the impact of 
sequestration, present and future, and I hope you can shed some 
light on what the impact on CBP, in particular, will be of 
sequestration. I think you might be expected to have something 
of a whiplash experience here because at the same time, at 
precisely the same time that a secure border is being held out 
as a precondition for comprehensive immigration reform you are 
being sequestered in a way that surely will make that secure 
border much harder to achieve, much harder goal to attain, and 
so that is--I guess ``ironic'' is a kind word for those 
contradictory demands that are being made of you.
    I would like to know exactly what the impact will be as far 
as you can tell us today and what especially the impact on your 
frontline operations is likely to be. CBP's enacted 
appropriation for fiscal 2013 has been reduced by nearly $600 
million by sequestration, as I understand it, and I understand 
that in response to that you have reduced travel and training 
expenses, you have deferred facilities maintenance, you have 
delayed the acquisition of supplies, you have reduced the scope 
of some contracts, you have reduced so-called administratively 
uncontrollable overtime for officers and agents and you 
implemented an agency-wide hiring freeze.
    Over and above these programmatic reductions CBP initially 
anticipated it would need to implement an agency-wide furlough 
of up to 14 nonconsecutive workdays for each employee. Now, I 
want to get an update on this. I am aware that some of this 
might have been altered. What can you tell us at this point 
about the impact of sequestration? Any of the items I mentioned 
that would no longer hold or other items we should know about, 
and especially this furlough question.
    Mr. McAleenan, we originally understood that 10 percent of 
your employees will be on furlough each day. Do you believe now 
that CBP will be able to maintain higher staffing levels during 
the peak travel time or travel days; that is, Friday through 
Monday at airports, Monday through Friday at ports of entry, 
what kind of adjustments are you anticipating there? To the 
extent that a lack of resources will still require furloughs, 
do you plan to move personnel from small ports of entry to some 
of the larger ports, for example, or vice versa, to ensure the 
secure movement of people and goods critical to our economy? 
And in general, what are you doing to lessen the impact of 
furloughs on your frontline personnel and frontline operations?
    Obviously what we are interested in here is the impact 
especially on frontline operations but also the things that may 
have changed with the enactment of the CR that hopefully in 
some ways mitigated the impact but we are still looking, as I 
understand it, at a $600 million bottom line, and there is 
clearly a need to understand what that entails.
    Mr. McAleenan. Thank you, Congressman Price, and I would 
ask my colleagues to join in to highlight certain aspects of 
this response as they affect our operations. Certainly we have 
been tracking closely and there have been some changes in the 
impacts anticipated from sequestration from what we were facing 
on March 1st to the results of the omnibus. We appreciate the 
work of this committee as well as the Senate to mitigate some 
of the impacts of sequestration on CBP.
    Congressman Price, you outlined several non-pay categories 
of cuts from travel and supplies and contracts. We have 
sustained those cuts and are trying to balance the impact they 
have on our operations effectively. What the omnibus bill did 
is it gives an opportunity to reassess and ideally limit the 
impact on our personnel and staffing, both in terms of the 
furloughs, which you mentioned and the administratively 
uncontrollable overtime [AUD]. We have postponed implementation 
of any furloughs. We have also postponed the deauthorization of 
AUO as we continue to assess and will be working with the 
Congress on the structure of the omnibus. It is a little 
different structure in terms of the PPA [program-project-
activity] categories for our budget and how we can most 
effectively maintain our operational deployments at ports of 
entry as well as between them.
    In terms of the impact, on March 1st, at the ports of 
entry, we immediately undertook overtime cuts, about 17 percent 
of our overtime out in the field, and that had a direct and 
immediate impact on wait times. In the air environment, our 
international gateway airports have seen significant increases, 
50 to 100 percent or more on some days. Basically we are able 
to staff fewer booths. About 20 to 45 for some of our booths 
are staffed on overtime at peak periods, and with that 17 
percent cut, we just haven't been able to keep as many people 
in the booth processing passengers.
    We have also seen significant impact on the land border. 
San Ysidro has had wait times on certain holidays up in the 4- 
and 6-hour range, which we usually can limit below 3 hours. In 
Representative Cuellar's district, we had a number of midsize 
ports where we have had only four lanes open instead of six or 
eight or 10, which doesn't sound that bad. But as the queuing 
process ensues, it is an escalating impact that can really take 
us from a 20- to 30-minute wait to well over an hour, up to 2 
hours even at those midsize ports.
    So, with the omnibus legislation, we are hoping to 
ameliorate some of that overtime impact, some of that 17 
percent and still working to minimize the impact on our 
personnel. But we are working through our plan in response to 
the budget, and we will be working with Congress on finalizing 
that and implementing it in the coming weeks.

           SEQUESTRATION IMPACT: BORDER PATROL AGENT STAFFING

    Mr. Price. Thank you. Let me ask about an additional 
element of that continuing resolution. That is, the statutory 
requirement that is included there that CBP maintain 21,370 
border patrol agents. As you know, that is included in the 
final bill. As I understand what you are saying, due to 
sequestration, Congress--and despite the mitigation attempts, 
Congress did not in the end provide sufficient resources for 
that staffing level without harming other salaries and expenses 
priorities.
    So, will you be able this year to meet that Border Patrol 
staffing requirement without affecting other needs? And your 
colleagues may want to join in here. What impact will meeting 
the--Chief Fisher could address that maybe initially, but 
General Alles might want to chime in about the impact that 
meeting the statutory Border Patrol staffing requirement will 
have on CBP officers or Air and Marine Interdiction agents. 
Might those people need to be furloughed longer in order to 
maintain the statutory floor for Border Patrol agents? If so, 
what does that do to the wait time? Will you need to cut target 
programs or other national security programs to meet the Border 
Patrol staffing requirements?
    Chief Fisher. Congressman Price, thank you very much for 
that question. Like the chairman mentioned in his opening 
statement about the percentage of CBP's payroll as it relates 
to salary and expense, and he used I think it was around 
between 70 and 72 percent for the Office of Border Patrol. The 
percent of salaries and expense of our budget is 90 percent, 
and so when you look at the legislative mandate for 21,370, 
anytime that we as an organization are asked to make cuts, 
whether it is 5 percent or 8 percent, it is very challenging 
not to touch salary and expense. As a matter of fact, it is 
mathematically impossible for us to do that.
    So, the first thing that we did is we looked at nonpay, at 
10 percent, right, things like fleet, things like contracts. We 
put things in place, for instance, doubling border Patrol 
Agents in vehicles, trying to offset the cost of maintaining 
the fleet so we can slow that process down. I had--part of our 
strategic implementation plan at the beginning of the year, and 
actually this is going back to 2012, is to maintain 90-percent 
fleet readiness. We wanted to make sure that we had those 
vehicles ready for those Border Patrol agents to go and deploy. 
We are projecting right now, without relief that that readiness 
will drop anywhere from 90 percent to as low as 60 percent.
    Now, what I am explaining here aren't things that are 
necessarily definitively going to happen. These are things that 
we are planning right now as the bill was passed and we are 
looking to offset. What I have asked the team to do is put 
together, look at the numbers, start building the 
implementation plan, the budget execution plan and give me a 
sense of what the operational impacts are going to be, what are 
the risks against those impacts and how do we minimize, to the 
extent that we can, each one of those. So for areas like fleet, 
areas like contract services for transportation services, we 
are going to look in areas where we can reduce those, and we 
have continued to do that.
    But when it gets to salaries and expense, and this is to 
your point, sir, as it relates to the administratively 
uncontrollable overtime, we still have a long way to go this 
year to be able to reduce that. Quite frankly, if left 
unattended and we continue to operate as we have been, where 
Border Patrol agents would continue to operate and utilize 25 
percent of their base pay in administratively uncontrollable 
overtime, if we don't change that course direction, we don't 
have enough funds in that salary and expense to be able to 
cover that.
    We have as a matter of fact started making reductions in 
how we actually start scheduling and utilizing the workforce 
that we have, even before sequestration levels were starting to 
be talked about within CBP, doing things like taking a look at 
how we schedule Border Patrol agents in areas where it made 
operational sense to go from three shifts to four shifts to 
alleviate some of the Border Patrol agents waiting to be 
relieved in a particular location, in areas where we have the 
staffing now to do that. It is prudent and it makes sense to do 
that operationally without minimizing our ability to protect 
this country.

           SEQUESTRATION'S IMPACT: AIR AND MARINE OPERATIONS

    Mr. Price. General, what does the tradeoff look like with 
respect to Air and Marine?
    Mr. Alles. Sir, I thank you, sir. On the actual, 
specifically the statutory numbers, I can't address 
specifically because that gets rolled up in a larger budget. I 
will just address sequester-wise, since you asked about that 
question. Our impact is going to be primarily in terms of 
flying hours. So we were appropriated for this year $397 
million, which was 106,000 hours. Under sequester that is going 
to drop us down to $377 million. That is about 80,000 hours 
roughly. So one of the impacts of the sequester on Air and 
Marine is that reduction in flight hours. It has some effect in 
terms of premium pay, since I have to clearly pay my agents if 
they are working mid or swing shifts. That is having some 
impacts in my southeast region and my northern region, less so 
in the southwest because we prioritize toward that zone, and 
then also in my Air and Marine Operations Center in terms of 
tracking. So those are some of the impacts that we have seen 
off of the sequester, sir.

            SEQUESTRATION IMPACT: FLEXIBILITY, REDUCTION IN

    Mr. Price. Well, the question remains, I think, to what 
extent that statutory requirement, as to a personnel level, 
reduces needed flexibility. You have both made very clear, you 
have all made very clear some of the adjustments, the 
unpalatable tradeoffs that are involved in this business. So 
what extent, though, can you clarify, to what extent that 
statutory requirement reduces the kind of flexibility or alters 
the kind of adjustments you would otherwise make?
    Mr. McAleenan. I will take a stab at that, Congressman 
Price. You are absolutely right, the staffing floors, you know, 
it is part of--I think you used the term whiplash or maybe 
cognitive dissonance in budgeting here, where we absolutely 
appreciate and want to maintain those personnel levels, but to 
do so in the face of sequestration does require the difficult 
tradeoffs as you have noted. It reduces our flexibility to 
respond to cuts or to balance them throughout the year, and so 
what we end up having to face is cutting immediate operational 
capability to maintain the floors that are critical to our 
future operational capability. So it is definitely a challenge 
in 2013, but if you look at the 2014 budget and the direction 
we want to go with our staffing, it is a tough balance to make 
here.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Carter. Thank you, Mr. Price.
    Mr. Fleischmann.

           MISSION-SUPPORT PERSONNEL, INFORMATION TECHNOLOGY

    Mr. Fleischmann. Thank you, Mr. Chairman. Good morning, 
gentlemen. My first question: the committee has concerns about 
the potential impacts of the proposed $125 million cut to 
mission support and the $54 million cut to IT support. What 
effects will these, ``efficiencies'' have on frontline 
operations?
    Mr. McAleenan. I think that is an important question and 
one that we are monitoring very carefully at the agency-wide 
level. We have had a staffing freeze in place throughout this 
year for our mission-support personnel, have attrited over 700. 
And as the Acting Deputy I am working with the mission-support 
office to make sure they are able to maintain capability to 
support the frontline, and that is something we are going to be 
continuing to assess. We have not had significant impact to 
date, but as the hiring freeze on mission support continues and 
as we try to meet additional efficiencies, we are concerned 
about that and will need to monitor it closely.
    In terms of our information technology infrastructure, our 
focus there is on becoming more efficient with the 
infrastructure we have. We have been working to move off legacy 
technologies. These are mainframe systems that cost a great 
deal to maintain in terms of the licenses and the outdated 
software up to more modern platforms that are most cost 
effective.

       NONINTRUSIVE INSPECTION, RADIOLOGICAL DETECTION EQUIPMENT

    Mr. Fleischmann. Thank you. Mr. McAleenan, you were forced 
to make difficult choices for this budget proposal. Hopefully 
you are not being penny wise and pound foolish at the cost of 
operational effectiveness in long-term expenses. This budget 
request proposes to cut both the operating and procurement 
budgets for the Non-intrusive Inspection, NII, and Radiological 
Detection Equipment, RDE. First things first, since there is 
limited to no procurement happening, what is the state of CBP's 
RDE and NII in terms of availability and reliability, sir?
    Mr. McAleenan. You are absolutely right, Congressman, in 
terms of the difficult choices. The current condition of both 
our nonintrusive inspection technology, our large-scale fleet, 
as well as our radiation detection equipment is very good. We 
appreciated the funding in ARRA [American Reinvestment and 
Recovery Act of 2009], which enabled us to purchase additional 
NII equipment. Both our NII and our radiation detection 
equipment, especially the portal monitors, are showing signs of 
exceeding their initial life expectancies, which is very 
positive in the current budget climate.
    That said, we are working with our Science and Technology 
Directorate at DHS as well as the Office of Technology, 
Innovation and Acquisition at CBP to identify strategies for 
how we can maintain, sustain and recapitalize this critical 
equipment going forward. It ensures that we are doing 
radiological scans on almost all ocean and maritime cargo, 
excuse me, all maritime and land border cargo coming into the 
United States, all personal vehicles. We are able to do a high 
number of secondary examinations on rail and truck and maritime 
cargo with a large-scale NII, and it is a tremendously 
effective resource for us that saves a lot of officer time. So 
we need to work with Congress, and we will work with our 
technology professionals to find a solution to sustain that 
capability in the future.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back.
    Mr. Carter. Thank you.
    Mr. Cuellar.

           WORKLOAD STAFFING MODEL: PORTS-OF-ENTRY RESOURCES

    Mr. Cuellar. Mr. Chairman, thank you very much. I want to 
thank you and the ranking member for having this meeting and 
welcome to all of you.
    Let me, Commissioner McAleenan, let me ask you about your 
workload staffing model. What does it say about the resources 
that are needed at the ports of entry?
    Mr. McAleenan. In short, Congressman, it says we do need 
more CBP officers to appropriately enforce and secure as well 
as facilitate trade and travel, which is growing tremendously. 
As you know, in south Texas the truck cargo traffic is up 6 
percent last year and continuing to grow. We have increasing 
numbers of personal vehicles crossing. Again that traffic is 
growing as well as pedestrians. In the international airports 
we have seen 12-percent growth in 3 years and expecting 4 to 5 
percent continuing. So to meet that volume and continue and 
improve our security levels, we do need additional CBP officers 
as recognized by the model and in the President's budget 
request.

                   LAND BORDER PORT-OF-ENTRY TRAFFIC

    Mr. Cuellar. How much, and I am very interested in land 
ports. I think we have done a good job at airports and 
seaports, but how much of the trade and people actually come 
through land ports into the United States?
    Mr. McAleenan. The land border ports, northern and southern 
border, account for about 225 million out of 350 million 
travelers.
    Mr. Cuellar. Percentage-wise.
    Mr. McAleenan. Percentage-wise----
    Mr. Cuellar. Is it 80, 88 percent of the people and goods 
come through land ports?
    Mr. McAleenan. Not quite that high, Congressman, but it 
is--we can do the math quickly.
    Mr. Cellar. No, that is fine, but the majority will come 
through the land ports.
    Mr. McAleenan. Majority of travel and the majority of trade 
by volume as well.

                   REIMBURSABLE AGREEMENTS: TIMETABLE

    Mr. Cuellar. And I certainly feel that, you know, we've got 
to make sure that Congress not only appropriates for the men 
and women in green, which you know, we certainly support, but I 
think the men and women in blue at the ports of entry are 
extremely important for trade, the economics itself, and I say 
that. Laredo, I think 38 percent of all the trade between the 
U.S. and Mexico comes through one land port there in Laredo, so 
I understand the importance of the work that you do.
    Now, let's talk a little bit about Section 560. As you 
know, there is the Laredo sector, instead of having Laredo, 
Brownsville, McAllen, all those folks competing, we are trying 
to put a consortium together to be considered as one pilot 
program out of the five that you all are looking at. How is 
that coming along? What is the timetable, timelines on the 
Section 560, which is the one, the public/private partnership 
for overtime, for extra services. If the City of Laredo or 
McAllen or Brownsville or a private sector wants to put money 
to pay for your overtime, I would ask you all to move on that 
as soon as possible because there are people that are already 
willing to put that money up there quickly.
    Mr. McAleenan. Absolutely, Congressman. We appreciate the 
committee's support on this important authority. We do think it 
will increase our flexibility, enable us to partner with 
communities and stakeholders nationally to provide better 
services at the ports of entry. We are working hard to develop 
criteria for assessing potential partnerships with the five 
pilots. We want to make sure that we are selecting partnerships 
that have the best mission and operational impact as well as 
allowing us to test the pilot authority in different 
environments, with land border, air and, if possible, a 
maritime environment.
    We are working on that criteria, as I mentioned, and hope 
to have that done this month, and then have an exchange with 
those communities or stakeholders that are interested so they 
understand the cost of our operation, they understand with 
transparency the types of benefits they could expect from the 
partnership agreement.
    Mr. Cuellar. Don't you do a little bit of that already on 
airports?
    Mr. McAleenan. We do have a user fee airport authority that 
is well utilized nationally.
    Mr. Cuellar. For overtime, right?
    Mr. McAleenan. Actually, the user fee authority is for 
full-time personnel. We don't actually have any agreements in 
place to receive overtime at----
    Mr. Cuellar. For full-time efforts.
    Mr. McAleenan [continuing]. International airports. For 
full-time, yes.
    Mr. Cuellar. You have a hybrid already.
    Mr. McAleenan. Yes, and it has been used effectively by 
communities. This would be a little larger scale and different 
type of authority, especially at existing major crossings.

                           UNMANNED AIRCRAFT

    Mr. Cuellar. My last question. Commissioner Alles, I know 
that Congressman McCaul and I have gone to your opening when 
you brought in those Predators to Corpus Christi, and every 
time we have gone there we haven't seen it land or take off 
because of bad weather, and I know the former commissioner, we 
spoke about this, and I am trying to remember the numbers that 
your folks gave, 50 percent of the time your flights don't take 
off because of bad weather, and this is something I had gotten 
from the prior folks. Are you all ever going to look at 
somewhere outside of Corpus Christi, at least an alternative 
base besides Corpus Christi with all due respect? And I know 
Corpus Christi is very important, but McCaul and I, we went 
twice, and both times we went there we saw video, and it was 
nice to see the video but we didn't see anything land or take 
off.
    Mr. Alles. Yes, sir. Thank you. We would love to find a 
location with better weather. It is about a 60-percent impact. 
I shouldn't say impact. About 60-percent of the time they are 
launching, and about 30, 40 percent there are weather issues 
for the platform. It is not a platform that operates in icing 
conditions. That is one of the restrictions. We would love to 
find a different location. There are a lot of restrictions from 
the FAA [Federal Aviation Administration], on where we can 
operate the air vehicles from. They are still maturing the 
process where we can operate the system, not only in the air 
space, but takeoff and landing around populated areas continues 
to be is a big issue for us.
    Mr. Cuellar. Mr. Chairman and Ranking Member, I just say 
this because being from Texas, you have got 1,200 miles to find 
something there, but again, with all due respect to Corpus 
Christi, but every time the chairman of Homeland and I went, 
every time we went, it was just a video, and we appreciate 
going to Corpus Christi.
    Thank you very much. I yield back the balance of my time, 
Mr. Chairman.
    Mr. Carter. Thank you. I understand Lubbock has got great 
flight opportunities, but we won't go there.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. It is always 
good to follow--I seem to--on this committee I always seem to 
follow Texas.
    Mr. Carter. Of course.

               REIMBURSABLE AGREEMENTS: LEVEL OF INTEREST

    Mr. Frelinghuysen. Your lead. Of course, we note you are 
all in uniform, and thank you for the dangerous work you do. I 
see you don't have black tape on your badges but you have had 
in the past; is that right? Last year was a difficult year with 
loss of life. We obviously, as a committee, note that.
    I would like to also note for the record, and I am sure the 
chairman and all members would agree, we are on the 
Appropriations Committee. We are appropriators. We don't like 
continuing resolutions. We don't like the notion of sequesters. 
We are not looking for any sympathy from your ranks, but quite 
honestly we have something called regular order where 
Republicans and Democrats go through the process, we may 
disagree, we are not disagreeable, there is a degree of comity, 
and we do our work. I won't say it is the higher ups that are 
causing the problem, but we are proud of the work we do, 
obviously, with this chairman in particular, and a lot of the 
things that we are concerned about make their way into these 
bills, and when they don't get passed and, quite honestly, the 
Administration is in control and that is not all bad, but in 
fact some congressional direction is very helpful. So I just 
want to put that in the record.
    I would like to get, if I could, I guess this goes to the 
Acting Deputy. Everybody has been struggling with the 
pronunciation of your name, and since I have a long one myself, 
I won't try to pronounce it. I would like to know about the 
authority that our 2013 appropriations act granted you to pilot 
five reimbursable fee agreements for the costs associated with 
your services. Can you tell us where that stands? Has there 
been a lot of interest, and who are those interests, and what 
are the nature of the services they are seeking?
    Mr. McAleenan. Thank you, Congressman. We have received a 
lot of interest in the potential reimbursable agreements under 
Section 560 of the omnibus bill, and we have received them from 
a wide variety of potential stakeholders. Congressman Cuellar 
mentioned the City of Laredo. The City of El Paso has also 
expressed interest. The airports have expressed interest.
    Mr. Frelinghuysen. Is it usually, is it the southwest 
border or is it airports around the country?
    Mr. McAleenan. We are getting interest from airports as 
well around the country, and the air environment for our 
established international gateways. The authority allows us to 
receive overtime reimbursement to extend hours or to have 
additional staff at peak periods, which we think could be 
beneficial to certain airports.
    Mr. Frelinghuysen. What sort of process are you using to 
determine which ones to embrace?
    Mr. McAleenan. As I noted, we are trying to establish 
criteria that would allow us to pick pilots, given that we have 
a limit of five. That will have immediate mission impact and 
will be able to support operations in some key areas where we 
would like to provide better services but also will give us a 
chance to assess how this works in the different environments 
such as land border and air environment as you noted.
    Mr. Frelinghuysen. How do you respond to concerns from 
industry that reimbursement for services amounts to them double 
paying since they are already paying user fees?
    Mr. McAleenan. Well, I would note that actually this idea 
came in response to a request from industry and from 
localities.
    Mr. Frelinghuysen. But there are some who view this as a 
double whammy.
    Mr. McAleenan. Understood. And you know, it has to make 
sense. It has to have a return on investment for the local 
community or for the airport. For instance, this can't be 
unilaterally assessed. It has to be a mutual agreement. So, I 
would, for those that are concerned about double payment, I 
would offer they don't have to enter into an agreement.

                  WORKLOAD STAFFING MODEL: PART-TIMERS

    Mr. Frelinghuysen. Just looking locally in my backyard, I 
have the Port of Newark, obviously Liberty Airport in Newark. I 
know that some other Federal agencies use part-time people. Are 
you locked into some sort of collective bargaining agreement 
which doesn't allow you to use part-timers, because obviously 
crowds come in and sometimes there are delays. What is your 
system here?
    Mr. Frelinghuysen. I don't equate you with some of the 
other agencies, but I just wonder, do you utilize part-timers?
    Mr. McAleenan. Good question. In terms of the bargaining 
unit, we would certainly have to negotiate any change to the 
structure of ours, but I think really it goes back.
    Mr. Frelinghuysen. This is the issue, sort of innovation, 
we have the sequester. We have the continuing resolution. We 
commend you for the things you are doing, but is this an area 
you are looking at?
    Mr. McAleenan. We are looking at an effective use of 
staffing, and part-timers for non-law-enforcement personnel is 
absolutely something----
    Mr. Frelinghuysen. Your whole workforce is about 65,000, so 
I assume there are some people that could be moved around in a 
more effective way.

                  REIMBURSEMENT AGREEMENTS: ABU DHABI

    Mr. McAleenan. I think that is a fair statement. And part 
time for those personnel is something we are considering. For 
law enforcement personnel, it is not an option.
    Mr. Frelinghuysen. And lastly, moving to Abu Dhabi, United 
Arab Emirates. What is going on with that preclearance 
facility? Am I correct in saying the ones we have here are in 
this hemisphere, and there are no others around the world that 
we actually staff, and this would be the first one in the 
Middle East?
    Mr. McAleenan. This would be the first one in the Middle 
East. We do have preclearance in two locations in Ireland----
    Mr. Frelinghuysen. We have been through, many of us, 
through Shannon, which you do great job there. But there is 
obviously some concern here about this, and I think we all are 
in support of what our domestic airlines are doing, and 
obviously, our airports have some concern that this would be 
infringing on their bottom line. Do you have any reaction to 
that?
    Mr. McAleenan. I understand we have had a robust exchange 
of views with both the Congress and the committees as well as 
with our aviation stakeholders. This is a security program. 
This is a region where there is a lot of transit travel from 
areas that are of significant concern for terrorist training 
and so forth. This gives us an opportunity to project our zone 
of security closer to those areas. And from an operational 
perspective, it makes a great deal of sense and would be cost-
effective.
    Mr. Frelinghuysen. Well, obviously, there is local concern 
in my State, obviously. Industry representatives have reached 
out. So this would be a transit center, clearance center in the 
midst of this region. And you think actually it would benefit 
our security by having it?
    Mr. McAleenan. Yes.
    Mr. Frelinghuysen. Having it there, how does that happen?
    Mr. McAleenan. Well, Abu Dhabi----
    Mr. Frelinghuysen. Might require you to actually have far 
more in the way of technology; just without profiling, you 
might have some difficulties consuming all the data that might 
come in through all the people that are transiting.
    Mr. McAleenan. Well, actually our targeting systems would 
be capable of assessing those data for us. And the benefit it 
would give us is having personnel on site able to do full 
admissibility inspections, inspect the baggage and any air 
cargo on those aircraft before they even depart for the United 
States. Abu Dhabi is a location where we do have terrorist 
screening database travel at a significant level at the top 10.
    Mr. Frelinghuysen. But you agree there are no American 
carriers, domestic carriers that go in there.
    Mr. McAleenan. There are currently no American carriers. 
Any agreement would require equal access to any carrier that 
wanted to fly.
    Mr. Frelinghuysen. If American carriers wanted to use that 
facility, they would be able to?
    Mr. McAleenan. Absolutely.
    Mr. Frelinghuysen. Even if the host country wasn't 
particularly enthusiastic about it. But it is being negotiated 
is it? 
    Mr. McAleenan. It is still being negotiated, yes, sir.
    Mr. Frelinghuysen. Well, thank you, Mr. Chairman.
    Mr. Carter. Mr. Owens.

                           BEYOND THE BORDER

    Mr. Owens. Thank you, Mr. Chairman.
    Thank you, gentlemen. I have gone through the information 
you have provided, and it is a little unclear to me whether or 
not there are specific dollars allocated to the implementation 
of the Beyond the Border agreement with Canada and the RCC, 
also entered into with Canada. Can you indicate to me, and then 
a very specific question I have is to the single portal, which 
is part of the BTB, where you are in terms of implementation 
and funding for that?
    Mr. McAleenan. I can tell you, on the funding side, the 
single window is part of our automation modernization within 
our cargo funding and the IT budget. I can get back to you on 
exactly where we are in implementation. It has been one area 
that received a lot of effort and interest on both sides, and 
part, as you noted, of a broad and important set of action 
items under the Beyond the Border agreement.
    [The information follows:]
    Mr. Owens. And could you also indicate to me what the 
amount of funding is that is dedicated and what the analysis is 
for the level of funding necessary to implement that portal?
    Mr. McAleenan. We will get back to you that information.

                                 DRONES

    Mr. Owens. That is great.
    What is the level of usage of drones on the other three 
borders that we have, that being the east and west coast and 
along the Canadian border? Are we utilizing drones in that air 
space?
    Mr. Alles. Yes, sir, we are. Our primary zones of operation 
are along the Rio Grande Valley and in the southwest, and in 
the Tucson sectors, along the southwest border. We have done 
some limited operations off the San Diego coast looking for 
drug activity out there and our other primary site is in Grand 
Forks, North Dakota. And we use those drones up there for two 
functions. One is to look at border security along the northern 
border. That is done mainly as Chief Fisher mentioned via 
change detection using our SAR, Synthetic Aperture Radar.
    And then secondly that is our training site for our new 
pilots. So it is a fairly robust activity in the Grand Forks 
area and along the northern border for that particular drone 
site.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Owens. Now does that particular drone site cover the 
entire Canadian border or only sectors of it?
    Mr. Alles. It can cover everything from basically Minnesota 
to Washington State. Our profiles that we fly are dependent on 
where the Border Patrol are, since we are working in 
cooperation with them, determines would be our higher-threat 
zones, and that is where we employ the air vehicles for change 
detection.
    Ms. Owens. Do we have any zones in the eastern end of the 
U.S. Canadian border?
    Mr. Alles. No, sir, we do not typically employ them in that 
area.
    Mr. Owens. Would you have interest in doing that?
    Mr. Alles. I would, but frankly, given where we are in our 
flying hour program and other priorities, I think we need to 
keep our functions where they are. There is much to be done 
still along the southwest and the southern borders that I think 
is very consequential.
    Mr. Owens. I understand. Where I am really going with this 
is, as I am sure you are aware, Fort Drum which happens to be 
in my district is seeing a return of drones to the facility, to 
the installation. It seems to me that they will continue to 
need to have training activity, and this would seem to me to be 
an excellent way to accomplish two tasks and save the 
government money in the process and at the same time develop an 
environment where we are doing training and getting 
information.
    Mr. Alles. Yes, sir, I understand. Fort Drum is one of our 
emergency relocation sites. We use it for basically nationwide 
deployment for our drones. That is how we utilize the facility 
so far, sir.
    Mr. Owens. And would you be amenable to the idea that I am 
positing that we would, as they return, we would use them for 
surveillance purposes on the eastern end of the United States 
Canadian border?
    Mr. Alles. Sir, I would have to look at the specifics, and 
candidly, that one--if you are talking about military versions 
of the drones, there will be many FAA issues. Some of those 
drones are not qualified to fly in the air space.
    Mr. Owens. I understand that there is that issue, but given 
the proliferation of drones that we now have in the military, I 
suspect there are opportunities that we might undertake.
    Mr. Alles. Certainly something we can look at, sir.

                    FOREIGN LANGUAGE AWARDS PROGRAM

    Mr. Owens. Thank you.
    I notice that you are focused or the budget reduces 
significantly the Foreign Language Awards Program, and I am 
curious as to whether or not that--the reduction in that 
program is a good idea, given, particularly along the southern 
border, you have a great number of people who may not speak 
English, along the U.S.-Canadian border, there are also people 
who, at least in Quebec, speak French primarily, and whether or 
not decreasing that is really a good idea for efficiency 
purposes. 
    Mr. McAleenan. Congressman, we have a significant number of 
personnel who are fluent in a number of foreign languages. On 
the southwest border, we have a significantly bilingual 
workforce that is capable of maintaining that language fluency. 
On the northern border, there are obviously some French 
speakers up in your area of the woods as well. At over $16 
million per year, it is just not very sustainable for us. We do 
want to modify it to make sure we can prioritize key languages 
for security threats that we want to be able to maintain at 
gateway airports, for instance, or some of our global 
deployments. But to maintain a broad base for Spanish and other 
languages that are pretty common in our workforce is not going 
to be efficient going forward.

               REIMBURSEMENT AGREEMENTS: OTHER LOCATIONS

    Mr. Owens. Thanks.
    One last question, reimbursement agreements have come up. 
We just talked about the one in Abu Dhabi, but is there a 
significant opportunity in your mind to use those reimbursement 
agreements at other locations along any of our borders in terms 
of putting ourselves in a position where we could save some 
money and at the same time expand your activities?
    Mr. McAleenan. I do believe so, especially on the expanded 
services. What we would like to use these agreements to do is 
to take our capabilities so we can extend ours, and we can 
provide additional staffing at key hours and really provide 
better services at land and airports of entry. We do think, 
given the level of interest we have received so far, that it 
could be very fruitful, and we hope to explore these pilots 
with the committee this year and going forward.
    Mr. Owens. Thank you, Mr. Chairman.
    I yield back.
    Mr. Carter. Mr. Culberson.

                          OPERATION STREAMLINE

    Mr. Culberson. Thank you, Mr. Chairman.
    Thank you very much for your service to the country. Chief 
Fisher, it is good to see you here, sir.
    I enjoyed the time we spent together visiting in Tucson, 
and I appreciate so very much the sacrifice that you and your 
families have made to protect our country. My good friend Henry 
Cuellar and I served together in the Texas House, have been 
working together with this subcommittee's help--I am glad to 
have Judge Carter as our chairman--on a very successful program 
called Operation Streamline.
    Chief, I know you are familiar with it; it is in place in 
some sectors on the border. One of the goals of course is to 
enforce existing law with a good heart and some common sense. 
You want the officer to distinguish between women and children 
and someone who is an economic migrant or someone who is a 
threat to the public, carrying drugs, weapons, assaults an 
officer, et cetera. You want the officer to exercise that good 
judgment in the field, but the fundamental idea is to enforce 
the law as it is written and to impose some penalty on folks 
that cross so they are deterred from coming back.
    And that has been in place in Henry's district in the 
Laredo sector, and the Del Rio Sector, there has been dramatic 
decline in the number of people that are re-apprehended, the 
number of crossings have dropped.
    Could you talk about the status of that program and where 
it is most successful and where you think you need help from 
this subcommittee and the Congress and, frankly, from the U.S. 
Attorneys to make it more successful?
    Chief Fisher. Thank you for the question, Congressman.
    We heard you loud and clear a couple of years ago. You 
brought it to our attention in terms of Streamline, do more 
Streamline, and why aren't we doing more Streamline. Not to 
mention, some of the statistics that you brought forward to the 
committee in terms of the percentage of individuals that we 
were prosecuting relative to the population of arrests.
    I asked the team to start looking at that. How could we do 
that, to your point, via common sense? What is the best 
outcome? And as a matter of fact, before we identify the best 
outcome, what is it that we are trying to achieve on the back 
end?
    So we did a couple of things. First, we took a look at 
Streamline as an independent program. And prior to January 
2011, the reason why I put that as a benchmark is because that 
was the point in time where we developed and implemented first 
and foremost the Consequence Delivery System. A little more on 
that later. But when we looked at Streamline as a program, one 
of the outcomes that we were looking for, any program, was, 
among other things, the reduction in recidivism. Quite simply, 
of those individuals that we apprehend, process, and have some 
final disposition, we want those people not to come back, 
right? So we thought that would be an important metric to start 
checking over time. And we did that across the board in a lot 
of other programs to include Streamline.
    When we looked at Streamline, we looked at the years 
preceding, 4 and 5 years preceding the Consequence Delivery 
System. And what we found out was the rate of recidivism was 
actually increasing each year. Even though we were putting more 
people in the Streamline program, the rates of recidivism were 
actually getting higher; they weren't getting lower.
    I can tell you today Streamline as a program is a lot 
stronger as part of the Consequence Delivery System than it was 
independently prior to January 2011. I can also tell you that 
where we were looking at single-digit percentages of 
individuals whom we would apprehend who were subsequently 
prosecuted, we are now about 22 percent of that population for 
a couple of reasons.
    One, the Consequence Delivery System helped us inform our 
decisions on what the appropriate consequence should be 
relative to our outcomes, not just what was convenient for the 
Border Patrol agent at a particular station at a point in time.
    The other thing is we got smarter in terms of our analytics 
and the way that we started looking at these programs as a 
composite, not just independently. And you are right, it is 
really dependent obviously with the U.S. attorneys; within each 
of those districts, they certainly have their requirements, and 
we continue to work with them to try to make sure that we are 
putting in Streamline and within the Consequence Delivery 
System the best individuals whom we believe--based on continued 
analytics, that it is going to reduce the likelihood that once 
they have been apprehended by CBP, it is less likely we will 
see them again in the future.
    Mr. Culberson. Now that you have had a chance to see the 
entire border, I know in the Tucson sector had you a terrible 
problem with a huge volume of people coming across and near 
microscopic levels of prosecution. It was just embarrassing. It 
was terrible. The U.S. Attorney was not prosecuting virtually 
anyone. The time I first came out to see you 4 or 5 years ago, 
the prosecution rate was, as I recall, less than 2 percent. It 
was unbelievable. And so 98 percent were never prosecuted. They 
were just released. Does that sound about right, about 4 or 5 
years ago? It has gotten a little better.
    Chief Fisher. Actually, it has gotten a lot better. Just to 
frame the context a little bit, during that time, Tucson was 
still seeing the largest levels of activity, even given what 
the U.S. Attorney and the Marshals Service and the U.S. 
Government could do in terms of capacity to prosecute more 
people, what we are finding is, even though we were trying to 
put more and more people in Federal prosecution, just because 
of the capacity of the numbers that we were dealing with. 
Generally, when you look at the sentencing upon conviction for 
illegal entry, for instance, the time served at that point in 
time was about 3-\1/2\. So it really wasn't a consequence. Yes, 
they got a prosecution. Yes, we did a formal removal. And at 
the time before Consequence Delivery, we would just go ahead 
and remove them through Nogales port of entry, only to return 
within the subsequent weeks.
    Mr. Culberson. I recall going to view the evidence room, 
and they showed us--I think the U.S. Attorney had, correct me 
if I am wrong, there was a verbal order from the U.S. attorney 
if they were carrying less than a certain amount of dope, they 
just were loose and you had all these loads. I think--how much 
was it 400, 500 pounds?
    Chief Fisher. I don't recall at the time.
    Mr. Culberson. All of the loads were below that level. 
Remember all the loads, it was like the smugglers got the memo. 

    And they knew exactly what the level was to be prosecuted 
at and as you showed me the evidence room, every one of the 
loads was below that level, as I recall, that they be 
prosecuted, right.
    Chief Fisher. It seems about right, sir.
    Mr. Culberson. Yeah. And those guys worked pretty quickly. 
I mean, they understood, they knew exactly what would happen to 
them if they stayed below that load, they would be released. 
They were out the load and out a few hours or a few days of 
trouble. And your officers' lives were at risk out there in the 
desert trying to apprehend these guys. And the prosecution rate 
has gotten better out there in the Tucson sector, but in--
looking up and down the border, Chief, if you could and the 
chairman is being very generous with the time, what sectors do 
you need to focus on in making sure you have the backing of the 
U.S. Attorney to increase the prosecution rate?
    Chief Fisher. Arizona and south Texas.
    Mr. Culberson. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Carter. Ms. Roybal-Allard.

                         USE-OF-FORCE POLICIES

    Ms. Roybal-Allard. First of all, let me begin by thanking 
you for your service and the work that do you to protect our 
borders. Having a son-in-law in law enforcement, I am very 
aware of how stressful and dangerous your job can be at times. 
Having said that, I want to bring--ask some questions with a 
couple of issues that have gotten a lot of public attention. 
One is that over the past 2 years, at least 20 individuals have 
died in incidents involving CBP personnel. And a PBS 
investigative report that was aired in July documented evidence 
of physical abuse, sexual assault and depravation of food and 
water by CBP officers and agents.
    In addition, a last year report by the NGO, No More Deaths, 
in a study released this month by the University of Arizona, 
they all independently found that about 10 percent of people in 
CBP custody suffer from some form of physical abuse. I was 
pleased to learn that in addition to the DHS Office of 
Inspector General investigation that I had requested last year, 
that you are taking the initiative and are conducting your own 
internal review of CBP's use of force policies.
    The IG report is due in August, and when do you expect that 
you will finalize your report? And in the meantime, have any 
steps been taken to prevent these incidents of the abuse 
involving CBP personnel? Has there been additional oversight? 
More or less, what have you been doing, because I know you are 
interested in addressing this issue. 
    Mr. McAleenan. Absolutely we take these concerns very 
seriously. As you noted, Congresswoman, we have actually nearly 
completed a use-of-force review of some of the incidents that 
you mentioned and others to assess our policy, our training, 
our equipment and tactics and how we can be more effective and 
safer in our law enforcement operations. And we will be looking 
forward to sharing the results of that study publicly and 
making appropriate changes in our practices in terms of the 
results of the study.
    We have also reinforced the existing policies for how to 
treat unaccompanied minors, women in our custody to ensure that 
at-risk populations are protected while they are in CBP 
custody. So we take these very seriously; we are pursuing this 
force study and ensuring our policies and monitoring are 
extensive.
    Ms. Roybal-Allard. Will that also include some of the 
incidents that have occurred at the border regarding rocking 
assaults, where no one disputes that your personnel has to take 
appropriate action to protect themselves when these things have 
happened, but there have been a series of unfortunate incidents 
where CBP personnel has responded with lethal force and even 
where innocent bystanders have been killed. And I am just 
wondering if that will include that, or is that something 
separate that you are looking into and providing additional 
guidance to your officers?
    And also, have you looked into or applied any of the 
applicable best practices that other law enforcement agencies 
are using in similar cases, such as Los Angeles and in Orange 
County?
    Mr. McAleenan. Yes and yes. The use-of-force review will 
include rocking incidents; all three of our offices 
participated with the Office of Training and Development and 
Internal Affairs on assessing this. And yes, we did go 
externally to seek best practices and an external review from 
other law enforcement and experts.
    Ms. Roybal-Allard. That is great. The other thing is along 
the same lines the Wall Street Journal and the New York Times 
have reported on the increasing use of video cameras by police 
departments including small cameras that are placed on the 
lapels of officers' uniforms. And the police departments that 
are doing this have found that these cameras reduce the number 
of complaints against officers and the number of incidents in 
which officers use force against suspects, but it also helped 
officers to defend themselves against baseless allegations of 
abuse. I am just wondering what your policy is with regards to 
the use of video cameras or stations and vehicles and on 
officers? And have you considered expanding the use of these 
cameras that would increase transparency, accountability and, 
as I said earlier, protect officers against baseless 
allegations?
    Mr. McAleenan. That is something we are willing to look at. 
If we can maybe coordinate with your staff to get the result of 
studies from other departments. Obviously, we would have to 
assess the cost, the operational impact and the--unit impact, 
but we would be interested in learning more about that.

               LAND BORDER, AIR PORTS OF ENTRY ENCOUNTERS

    Ms. Roybal-Allard. Has my time run, out or can you keep 
going?
    Okay. I understand that CBP continues to place undocumented 
families who are actually leaving the United States into 
removal proceedings which are really an expense to the American 
taxpayers. So given the fiscal challenges that have already 
been described by your agency as a result of sequestration, it 
seems to me that detaining and deporting people who have no 
criminal history and who are in the process of leaving the 
country anyway, that is not the most efficient use of your 
limited resources. So rather than focusing on those who are 
trying to enter illegally or those who have committed crimes, I 
am wondering why CBP is continuing to detain these families and 
to put them into costly proceedings, since the goal is for them 
to go back to their country in the first place, which is what 
they are doing.
    Mr. McAleenan. I will just start and turn it over to Chief 
Fisher. If you are talking in terms of out bound at land border 
or airports of entry, we are not detaining them or putting them 
in removal. We are documenting the encounter with individuals 
who were out of status, so we know that they are here legally, 
and in future encounters, we have that record and information. 
But we then allowing them to voluntarily depart.
    Ms. Roybal-Allard. Okay. I will give you the information 
that I have to get more clarification on that.
    And just one more question, my office has received 
complaints from Catholic officials about women and children 
being deported late at night to unsafe areas along the Mexican 
border. It is obvious that this is of deep concern because of 
the prevalence of violent crime in many Mexican border 
communities. Would you be willing to look at these reports and, 
perhaps, you know, change the process so that these women and 
children are not being deported late at night and in dangerous 
situations? 
    Chief Fisher. Yes, Congresswoman, for those who CBP and 
specifically the Border Patrol does return to Mexico, we 
continue to work with the Mexican government each year and 
specifically with the consuls within those locations. And we 
basically work with them to identify those locations so it is 
not just late at night. We try to--first, for most individuals, 
specifically the women and the children, we actually do a 
handoff with them. But any other ideas that you would have, we 
can continue to have that dialogue with the officials in 
Mexico; we would certainly work with your staff do that.
    Ms. Roybal-Allard. Okay, I will also provide you with the 
information that I was given so we can work on that. Thank you 
so much.

                     BORDER PATROL STATION CLOSURES

    Mr. Carter. Chief Fisher, I am going to get off on 
something kind of local. We see, once again, this 
administration is again proposing to close nine inland Border 
Patrol stations, six of which happen to be in Texas. This 
proposal has twice been denied in fiscal year 2012, the 
reprogramming, and in the fiscal year 2013 appropriations act. 
The subcommittee suggested CBP close three locations outside of 
Texas, but that recommendation has not been taken up.
    The subcommittee directed CBP to provide a transitional 
plan outlining all supposed cost savings and details to ensure 
that the State and local law enforcement and these Texas 
counties have the support they need from DHS to take illegal 
aliens into custody. Why hasn't this plan been provided? It has 
been my understanding that ICE told CBP it would cost several 
million dollars--cost them several million dollars for CBP to 
save a portion of $1.3 million annually by closing down the 
Texas stations. That doesn't sound like it is cost savings.
    And in addition, I am curious, do you have inland stations 
in other States besides California, Idaho, Montana and Texas? 
And I am also curious, I think I can make a pretty valid 
argument that I-35 is the main artery of trade between Mexico, 
the United States and Canada, that we probably have more than 
our share of illegal people crossing the border. I don't know 
if we can completely compete with Arizona, but I believe we 
can. And why, all of a sudden, are we targeting Texas inland 
stations if there are other stations across the country that 
can be closed? So those are the kind of answers I would like to 
have.
    Chief Fisher. Thank you for the question, Mr. Chairman.
    Let me start first, 3 years ago, when I came back to 
Washington and had the privilege of serving the men and women 
in the field as their chief, there were a few things I asked 
the staff to do. One, as we were developing our new strategy, 
and we recognized that we had to, with all the increased 
resources, we wanted to make sure that we were both effective 
and efficient. I asked them to take a look, a comprehensive 
review across the board in terms of facilities. Was there 
anywhere that we could maybe reduce, not completely capability, 
but reduce the cost, given the transition within our strategy? 
So there were a couple of frames or parameters that I set. I 
said, well, let's take a look at--we didn't necessarily call 
them inland stations, but we set some parameters. Let's start 
with all Border Patrol stations within 100 miles away from the 
border. Let's take a look at the staffing. There is a whole 
host of metrics that went into it. Through an exhaustive 
process, the staff came back and recommended nine locations. 
With those nine locations, there were about 41 Border Patrol 
agents assigned to those nine Border Patrol stations across the 
board.
    It looked at the cost benefit in terms of us being able to 
save approximately $1.3 million annually if we were able to 
scale back. So, in some cases, we were looking at asking them 
to look at all options, whether we close the station outright 
or we deactivate it, recognizing that if we need to open it 
back up, we would be able to do so. And we could readjust the 
staffing levels in whole or in part to make sure that we were 
putting Border Patrol agents in areas closer to the border. So 
that was kind of the background behind that.
    Certainly, we are not picking on Texas or any other part of 
the country. I wanted to make sure that we were looking 
holistically at the implementation plan against our new 
strategy.
    Since that time and working with your staff, we recognized 
that while in some locations, we want to make sure we did a 
good enough job at assessing the impact to the operations, not 
just our immediate border operations, but to the larger 
requirement that we have in working with our state and locals. 
The answer not all across the board and some locations was, 
well, let's see if we can rethink that. What we looked at right 
now and our plan that we are going to be briefing leadership 
and moving forward, which I think meets both requirements: one, 
it reduces the dollar amounts; it also maintains a degree of 
capability that is required in some of those locations. So in 
the areas in Riverside, California, and those two up in 
Montana, we are going to move forward, given what the field 
commanders have identified the requirements are with respect to 
the priority mission, and be able to use those resources in a 
better manner, so to speak.
    The other locations, we are also looking at exploring the 
Resident Agent Program. This is a concept that we did up in the 
northern border, and basically what it is, is instead of having 
brick and mortar being able--because some of these Border 
Patrol stations have about four to five Border Patrol agents 
assigned to it. So the thought is, well, you still need the 
brick and mortar and paying all the overhead when most of these 
Border Patrol agents are out on patrol. And so the Resident 
Agent Program really takes a look at being able to give the 
Border Patrol agent like a home-to-work vehicle, have them 
stage and deploy to and from work from their home. They are 
available on call to be able to enforce Title 8 authority, and 
in many cases within these programs, the Border Patrol agents 
are also assigned to task forces. They may be assigned to the 
Joint Terrorism Task Force or may be assigned to the Border 
Enforcement Security Task Force, the BEST for ICE [U.S. 
Immigration and Customs Enforcement].
    And so what we have done is scaled and looked at each one 
of the nine locations, and right now, the proposal moving 
forward, not yet defined and certainly not decided upon, is to 
close the one in California, the two up in the north and to 
maintain capability to a certain degree within those corridors 
where we have seen higher levels of activity.
    Mr. Carter. So your standard is 100 miles from the border, 
okay? Most States 100 miles from the border is all the way 
across the State; 100 miles from El Paso is Midland.
    Chief Fisher. Right.
    Mr. Carter. One hundred miles from Del Rio is Ozona; 100 
miles from Laredo is short of San Antonio by about 50 miles. 
Basically, you just take the whole state of Texas and eliminate 
100 miles from the border, because we have 1,200 miles of 
border, and we have a whole lot of country. We have 254 
counties in our State. We have got almost every county in our 
State, and I can testify to this from personal knowledge has at 
least one illegal in jail every day, every hour just about, and 
sometimes hundreds, but several times at least one.
    There is no Border Patrol access for the people in the 
panhandle, people in far west Texas. What those people are 
going to do, let's just assume for the sake of argument, they 
stop somebody in the car on the highway, the guy has got no 
driver's license. They seize the vehicle, which is standard 
operating procedure. They impound it. They put the guy in jail 
overnight. They look for somebody to move him off into the 
system. There is nobody available because there is no Border 
Patrol up there. ICE is not there, and they are claiming it 
will be tremendous cost to them. So what does the sheriff do? 
In 254 counties, turn them loose.
    Chief Fisher. Right.
    Mr. Carter. Without a vehicle, they don't get their vehicle 
back, not going to give a vehicle back to an unlicensed driver 
to drive off in their county. Now that is creating a bad 
situation in 254 counties in the State of Texas. And I don't 
see the cost savings. I am totally opposed to the closing of 
those stations, and law enforcement across our State is opposed 
to it, too.
    Chief Fisher. If I may, Mr. Chairman, for point of 
clarification, the 100-mile limit wasn't a definitive red line 
if you will; it was a starting spot to preserve anything below 
that line. There was other criteria that we used for 
consideration by the way. The other thing and working with--ICE 
is trying to figure out which one really definitively, within 
those areas of responsibility for those stations, where does 
ICE have the coverage? Where in fact do the State and locals 
operate Secure Communities? Is Enforcement Removal Operations 
available? And so we are looking for, as opposed to shutting 
down the station and relocating, if is there a hybrid we can 
come up with, one in which we are able to have the same cost 
savings we are looking for in the outyears and yet be able to 
provide a level of services commensurate to the expectations of 
the State and locals. And that is kind of the revisiting that 
we have done over this past year, sir.
    Mr. Carter. Well, it is of great concern to sheriffs across 
the State of Texas, and they are expressing their concern to 
their Members of Congress, and we have a very large delegation 
in this Congress.
    Chief Fisher. Yes, sir.

              AIR AND MARINE OPERATIONS, RECAPITALIZATION

    Mr. Carter. And we are all hearing about it. So this is 
something we need to rethink, I think.
    General, let me talk about Air and Marine operations and 
recapitalization for just a second. CBP's Air and Marine 
operations provide critical surveillance, interdiction 
capabilities from border security, including the ability to 
push out our borders in source and transit zones. This 
administration has consistently shortchanged--Air and Marine 
this year, the request supports only 62,000 flight hours, the 
lowest level yet. I understand the argument of sequestration 
made by my colleague.
    As I said in my opening statement, Air and Marine needs the 
right resource to support all three legs of its stool, pilots 
and crew capable and maintained assets and operational funding 
for things such as fuel, maintenance and so forth. The budget 
request reduces procurement, operations and maintenance by $87 
million, but the details behind the cuts are obscured. Why only 
62,000 flight hours? Where is Air and Marine short changed? Is 
it fuel, maintenance or something else?
    We need to know the costs associated with that shortfall 
because we want to fund this resource. So we would like the 
information about that.
    Chief Fisher, how will this reduction impact Border Patrol 
operations, both in terms of effectiveness and safety of the 
agents? So, first, General if you would respond. 
    Mr. Alles. So, yes, sir. I think, clearly, the reduction in 
flight hours is a reduction in our capability. We have made 
technology improvements in the past 5 years; VADER is an 
example that is helping us to mitigate some of that, but I 
don't want to shortchange. There isn't effect there.
    For the agency, it is a question of balancing between other 
operations we have ongoing. And for me, inside Air and Marine, 
as you mentioned, it is a question of balancing between 
recapitalization and the flying hours that I have. So there are 
tough choices that we are making for the budget. I don't want 
to act like they don't have impacts or they won't have impacts 
on Chief Fisher in terms of Border Patrol, but they are the 
choices the agency is making based in its risk assessment, sir.
    Mr. Carter. Is it there anything we can do to assist in the 
recapitalization issue that you are talking about?
    Mr. Alles. I think, sir, in the recapitalization, the main 
areas we are trying to recapitalize are in terms of our medium 
lift assets, our Black Hawk helicopters; the UH-60As we have 
are actually the oldest Black Hawks flying in the United 
States. So we have a service life extension program going with 
the Army. It is a fairly low rate of induction, one or two 
aircraft per year. Obviously, increasing that would be helpful. 
Our P3 service life extension is on track to finish in fiscal 
year 2016, so next year would be the last year of funding for 
that. An then our Multi-Role Enforcement Aircraft is the only 
new procurement that we are making, and those are likewise at a 
low rate, a couple of aircraft per year, which keeps the line 
open. Those are our main efforts, sir.
    Mr. Carter. In talking with the Coast Guard here yesterday 
or the day before yesterday or whatever it was, we talked about 
the fact that the Air Force is decommissioning certain planes, 
and they are looking to maybe pick up some of those planes. Do 
you keep your eyes open for those types of things 
decommissioning from the services where we might could go off 
and make a good acquisition that might give you a different 
type of aircraft up close, give you the needs that you need?
    Mr. Alles. Yes, sir, absolutely. About one-third of our 
aircraft are either seizures or aircraft we get from the 
military, so we are always on the lookout for those kinds of 
opportunities, sir.
    Mr. Carter. Well, I am a big proponent of the air wing of 
our--you have given us a special need that we have had, and 
over the 10 years, I have been looking at the border, that need 
has been enhanced, and I am proud of that enhancement.
    Chief, I would like your comments about that, too.
    Chief Fisher. Mr. Chairman, I couldn't agree more in terms 
of what it has done for our ability to increase levels of 
security along our border. And quite frankly, as the General 
mentioned, I will kind of foot stomp, if you will, any time you 
reduce dollar amounts, there is going to be a reduction in 
capability. Our job within the leadership is to make sure that 
we maintain and preserve priority mission; try, to the extent 
that we can, to lessen the impact to the individual agents and 
officers on the ground; and be able to execute the budget that 
we have, not necessarily the budget we would like to have.
    But thanks to your leadership and this committee, we are 
further ahead than I thought I would ever see in this uniform, 
so thank you very much, sir, for that question.
    Mr. Carter. Mr. Price.

                BORDER SECURITY: MEASURING EFFECTIVENESS

    Mr. Price. Thank you, Mr. Chairman.
    Let me return to this question of border security and how 
we achieve it and how we define it, first, and how do we 
achieve it, especially now in the context of comprehensive 
immigration reform? As you know, in recent months, momentum has 
been building for enactment of comprehensive reform. Just 
yesterday, the details of the bipartisan Senate proposal 
emerged, and there is a heavy focus on border security and 
resources. Expect the House efforts will be imminent. No 
department is going to be more affected by immigration reform 
than Homeland Security, and that is particularly going to apply 
to your agency.
    Much of the debate on comprehensive reform is focused on 
border security, as you well know. We want to make sure that a 
decade from now or two decades, we are not faced with the same 
difficult choices about what to do with another large 
population of undocumented immigrants. Of course, border 
security is only one piece of the puzzle in this regard. The 
lure of employment and a better life in America are the most 
important drivers of illegal immigration, and there are many 
elements that will go into overall reform and preventing the 
kind of recurrence of the kinds of dilemmas we are facing now. 
There is no silver bullet strategy for success on the border 
and no likely amount of money we could realistically throw at 
the border and expect 100 percent success.
    You are the experts so I want to ask you to reflect on this 
here this morning. What does a secure border look like? How 
does CBP measure its progress in this area? What kind of 
measurement do we need to achieve as we address this issue? How 
important is the achievement reform itself, though, to border 
security? In other words, we sometimes in our discussions 
assume that the causality runs one way here; that somehow this 
goal of a secure border has to be achieved before we can 
undertake reform, without understanding that reform itself will 
enhance the security. Obviously, that is one of the main 
reasons for reform is to relieve some of these pressures and to 
contribute to the security. So what would you say about that 
causality running both ways, how important is reform to your 
goal to secure the border, as opposed to being a certain level 
of security being a precondition for reform, if you see what I 
mean?
    The Senate plan appears to call for a 90 percent 
apprehension rate at high-risk border crossings as the 
condition that needs to be met.
    Chief, I would like to ask you in particular how workable 
is a threshold like that? How can it be calculated? How 
precisely can it be calculated? But if not that sort of 
threshold condition, what might make sense? So let me just 
invite you to dive in wherever you will and help us think 
through this.
    Chief Fisher. Thank you, Congressman Price.
    If I miss any of these or get them out of order, please 
interrupt me along the way. First and foremost, with respect to 
what does a secure border look like? Again, I would frame it 
very succinctly in two ways: One, it is really low risk, the 
likelihood of reducing bad people and bad things from coming 
into this country; and two, providing a level of safety and 
security for those American people in and along those border 
corridors and for the Nation for that matter.
    How do you measure that? Again, we talked about the 
effectiveness. I will talk a little bit more about that 
specifically as I get to the 90 percent and what does that look 
like. Other things, for instance, we look at average 
apprehension per recidivist. What does that mean? It is 
important to us in assessing levels of risk and specifically 
individuals who come across this country, not every individual 
whom we apprehend in terms of who they are, where they came 
from, is equal. In 2012, we had approximately 364,000 
apprehensions between the ports of entry. Those people 
represented 142 different countries. And so when you look at 
the particular threats where people are coming from, we want to 
assess--it is important for us not just to understand who these 
people are; what are those trends? We want to differentiate 
those individuals, over a period of time, who only came in and 
were apprehended twice versus those individuals who were 
apprehended perhaps six or more times. It is really important 
to disaggregate that because they are not all just bunched up 
as just an apprehension number. So it is really important as we 
advance our analytical thinking and assigning areas of high 
risk. Those are the areas where we start making informed 
decisions and make recommendations on what we think border 
security is as it relates to those types of things, 
vulnerability matched with threat. Look at the consequence 
because it is an overall risk assessment picture. We would be 
happy to talk with you and your staff more about some of the 
thought process within this new strategy.
    Whether you are looking first and foremost as a 
prerequisite, so to speak, to secure the border, and then the 
other provisions or vice versa, I will tell you this, over the 
last few years, what I have seen, anything that this particular 
committee or we as a government can do in terms of legislation 
that reduces the flow to the border, in whatever shape, that 
alleviates what we see and we are able to then respond to those 
people who otherwise would not be eligible to come to the 
United States legally. And so if you take what we call the flow 
rate and no matter how you do that, it reduces those 
individuals. And so when our Border Patrol agents are deployed 
between the ports of entry, it reduces those individuals whom 
they are going to be encountering, so we can identify higher-
risk areas and higher-risk people who will continue to come 
across this border regardless of what the legislation is going 
to do, quite frankly. These are individuals who are going to 
continue to come into this country to do us harm. They are 
going to be members of networks or cartels that are going to 
continue to bring narcotics. Smuggling has been a long, 
profitable business for many, many years. And to the extent 
that we can look at disrupting and dismantling those networks, 
hit those business models, I think that this committee and as a 
government, if we can come up with legislation that helps us do 
that, we would certainly support that.
    Lastly, you had mentioned the 90 percent. Is that the right 
number, or I am kind of certainly paraphrasing your question, 
sir? I will tell you, as a Border Patrol agent, if you are 
going to set a goal for effectiveness, the men and women of the 
Border Patrol would be proud to have an A as the goal as 
opposed to anything less than. And the people I talked to over 
the years, I think if you are looking at how do you do that and 
what should be the goal, much like we were talking in the 
chairman's question in terms of situational awareness, when you 
want to be aware of those threats coming into this country, 
really anything less than 100 percent really does not hit the 
mark.
    How we measure that in terms of effectiveness, right--what 
does 90 percent mean? In areas where it makes sense, because 
what we don't want to do, and I would certainly caution those 
who are just looking at a new number, whether it is an 
apprehension or even an effectiveness rate, we don't want to 
get fixated on a number necessarily, for a couple of reasons. 
One, 90 percent gets us in areas where we see high levels of 
cross-border illegal activity. It makes sense there because 
those are the areas where criminal organizations right now are 
continuing to exploit us, and we need to be able to move our 
resources to those areas to reduce the likelihood of attack and 
to increase the level of safety and security for the people. 
Those are two overarching pieces in terms of what a secure 
border looks like. So 90 percent tells us that we have to be 
able to move those resources there.
    But how do we measure that? It sounds very simplistic, but 
it is very difficult, and we are not dissuaded or certainly 
aren't going to reduce our efforts to get this right. Over the 
last couple of years, we recognized the importance of trying to 
track it to the best of our ability. It is quite simply, if you 
think of the mathematical formula, when people come across the 
border, three things are generally going to happen; two are 
good. So they are going be apprehended, or they are going to be 
turned back. So that now becomes your numerator. You divide 
that by the total number of entries, and your entries really 
are the sum total of your apprehensions, your turnbacks and 
your got-aways. Well, when you put it up on a white board, as 
my staff did when they were teaching me this over the last 
couple of years, I said, it looks really easy, but how do you 
operationalize that? How do you operationalize that in an area 
of the border that is very desolate, where we may not have the 
right requisite of detection capability? How do we do this?
    And so there was a lot of discussion earlier. Because you 
can't measure everything and you can't see everything, you 
shouldn't do it. We took a different approach. We said, well, 
let's see what we can do with what we have and then try to 
expand it, identify where the gaps are where we can't and let's 
start at least taking a small bite of this elephant one piece 
at a time. And I am very proud of the work the staff has done 
over the last few years. I will tell you, first and foremost--
and please, for the note takers in the audience, this is not a 
perfect scientific method--but I will tell you, over the last 2 
years, I have been very impressed with the amount of work the 
staff has been able to do, given the end-of-the-shift reports 
that Border Patrol agents are doing, how that reconciles up 
into time and space, in terms of what data are you pulling and 
how are you going to pull that? How do we look at that at the 
strategic level?
    Again, probably going way down the rabbit hole here, but it 
is a really exciting time for us to be able to understand the 
information and be able to put protocols in place to 
standardize it across the board and take a look at what does it 
mean. There has to be a recognition that it is not going to be 
perfect all the time, but we are making it better and better 
each day.

                BORDER SECURITY: EFFECTIVE SURVEILLANCE

    Mr. Price. Thank you.
    The question you raise, regarding figuring out what that 
denominator is, which of course is absolutely essential to 
calculating a success rate, does raise the question of 
surveillance, and what does effective surveillance mean? And I 
just have the news reports of what the Senate has come up with 
here. But when we talk about 100 percent surveillance, which 
they put along the 90 percent apprehension rate, the 
surveillance then, I guess, there is surveillance right? It is 
not necessarily all equally intense or equally effective? What 
could a 100 percent surveillance coverage mean, or what should 
it mean?
    Chief Fisher. I would go back to the chairman's point about 
situational awareness. There was a prevalent thought years ago 
that in order to have a secure border, we needed things called 
persistent surveillance. In other words, we needed to have a 
Border Patrol agent posted somewhere. We needed to have a 
camera pole posted somewhere 24/7. We needed to be as locked 
down as a corner market somewhere. And quite frankly, as we 
started looking at how we would be able to do that, we took 
this approach by saying, forget about, let's see if we had 
unlimited resources, unlimited money, would it make sense to do 
it operationally? And we started looking at some of these areas 
of the borders because of what we knew about the areas of the 
border.
    So, in my mind, the vulnerability along our border and you 
can pick any, whether it is south Texas, you can look at areas 
of Laredo, you can look to the north, the vulnerability does 
not exist in the absence of resources alone. So whether we have 
a Border Patrol agent there or a camera there or not. The 
vulnerability doesn't exist in the absence of those things. The 
vulnerability exists when there is a specific and defined 
threat. And so that is why information now becomes the key. So, 
for me, there is a distinction between having situational 
awareness, knowing what the emerging threats are and may be, 
versus having to surveil, if the intent of the understanding of 
that phrase is to be able to see everything 24/7, that is a 
proposition that I think, although I haven't costed it out, 
quite frankly, it would be very expensive and quite frankly, in 
a lot of the areas along our border, not necessarily required, 
mainly because of an area of--I won't pick it out for 
operational considerations--but think of an area of the border 
where there is not a lot of infrastructure in Mexico; it is 
very desolate. And once you cross the border, it is going to 
take you days to get to even a road. So if you think of the 
smuggling organizations, and these networks within the cartels 
as a business, which they are, if you are going to smuggle, you 
generally don't want to get away from those bases of your 
operation, extending your supply line. And quite frankly, you 
generally don't want to be exposed for days and days because it 
shrinks your profit margin. I am not suggesting they don't use 
those areas, but when you look at what should we look at all 
the time and what can we use based on the General's operational 
tempo in terms of in collection from high altitude, we then 
start understanding what makes sense in different parts of the 
border.
    By the way, I should also mention, it is not just today, we 
decided and here is what the map looks like, because that is an 
ongoing assessment that we will always need to do, both in 
terms of our tactical deployments, which on a 24/7 basis, they 
are getting through their collection process and their 
understanding from sources and from everything else what that 
daily deployment should be. We also take a look at our 
responsibility at our strategic deployment and what that means. 
That is an iterative process in which we are getting smarter. 
And we also recognize we are not probably--the guys in green 
aren't the ones who are going to figure this out. So, a few 
years ago, we reached out to experts to help us understand and 
frame that.
    Mr. Price. And in that context, surveillance narrowly 
conceived may not be the most important thing to be doing to 
understand the threat we are facing and the measures that are 
required.
    Chief Fisher. In my judgment, based on some of those areas 
that I worked over the years, that is correct.
    Mr. Price. Mr. Chairman, I know we are limited on our time. 
I would like to give the others a chance to chime in if they 
wish. 
    Mr. Alles. I was going to piggyback on what Chief Fisher 
has said here, which is it is a threat-based idea in terms of 
where we want to deploy our surveillance and where we want to 
collect. We need collection strategies, which we have 
internally.
    I think the other piece of this is levels of coordination 
inside of intelligence and law enforcement here are critical. 
So these are areas--just as you think back to 9/11 and some of 
the failures there--there are areas for us that we need to 
continue to work at to increase those levels of coordination. I 
think those are also key.
    Mr. McAleenan. Sorry, Congressman, our calculations of the 
ports of entry are a little bit different in terms of measuring 
our effectiveness. We have a little bit more control of the 
environment; it is finite. In what we have been discussing in 
the context of comprehensive immigration reform is how do we 
ensure that we are the strongest on preventing any potential 
security threats or inadmissibles from entering through ports 
of entry. And that is actually the area where we made probably 
the most mission progress in the last decade, really since 9/
11. And we also have to look at the ports of entry on 
facilitative and general entry and travel at the same time. We 
could, if we stopped every individual and every truck and every 
car and thoroughly examined it, we could achieve a very high 
level of security, but that would not be as supportive of the 
overall economic security in the United States. We do maintain 
a comprehensive set of metrics as in the volume to the 
compliance rates, which are very, very high; over 99.5 percent 
in our land borders and 98.6 percent in our air environment of 
passengers and travelers are compliant. We then look at our 
effectiveness and of course our efficiency; our targeting 
systems are between 9 and 17 times more efficient than random 
exams. And our facilitation efforts, we measure our wait times 
to see how well we are achieving the service levels we would 
like.
    So all of those are critical to assessing border security, 
but in the CR context, those security threats and inadmissables 
are really at the highest level of effectiveness.
    I agree causality does not run only in one direction in 
this environment. The types of legislation to be considered 
could definitely help us by reducing the overall flow and 
enabling us to focus on risk.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Carter. Mr. Cuellar.
    Mr. Cuellar. I would like to follow up on what the ranking 
member was talking about performance. It reminds me of 1991, 
when I was in the Texas appropriations committee, and we were 
adding the performance measures for the different agencies. And 
at that time, I remember the people with robes, the 
academicians and the judges were the ones who were screaming 
the loudest; they were saying, you can't measure justice or 
measure education. But when you really sit down, you can come 
up with measures, whether it is this decision rates for the 
cases of the judges or it is graduation rates or retention 
rates for education. There are different ways of measuring the 
work that you do.
    I was listening very carefully to some of the answers that 
I guess you only--the only measurement that I got from you was 
apprehension, and you mentioned, well, it is a little bit more 
complicated; we will go to your office and sit down. And guess 
it reminds me of a conversation you and I, which I haven't 
forgotten, 2 years ago or maybe a little bit longer, when you 
first came in and you were telling me maybe I couldn't 
understand it, it was a little bit more complicated. I said, I 
am a Ph.D. and an attorney; give me a shot in helping us 
understand what you all are doing.
    Mr. Chairman and Ranking Member, I would, you know, 
hopefully one of these days I would like to sit down because 
what I would like to do is basically what we did in Texas, is 
if we are interested in performance or measurements, we should 
work with the agencies. Actually the new GPRA law that we 
passed a couple of years ago calls for that consultation where 
we can sit down with them, OBM--OMB, should I say--and actually 
put the performance measures that we want to look at.
    Instead of a line item, which is what we have in the 
appropriations, you look at the mission, and all this is 
already, they already have this stuff there already in the 
performance.gov, and I know we asked the Secretary earlier, but 
it is already there already, but you put the mission, the 
objectives, the strategies that you want to look at, that we 
ought to work at, and you actually put the performance there, 
what do you want to measure.
    And I know there will be a definitional debate. Actually, 
it is healthy. Do you want to mention apprehensions or do you 
want to mention threat, or whatever the case is, we can do 
this. We really can. I saw that back in 1991 saying, oh, you 
can't measure this, it is a little complicated, you can't do 
that, but Mr. Chairman and Ranking Member, I am hoping that 
soon, and I will be happy to sit down with you all, but if you 
really want to get to the crux of this, why don't we sit down 
and actually put their mission under Homeland, and this is only 
one agency, the other ones might be a little bit more 
complicated to work on, but mission, objectives and put the 
performance that you want to measure, and we will have a 
debate. There was always, you know, this measurement just--this 
performance measures just activity. We want to measure 
activity. We want to see the actual results. And I think it 
will be healthy for all of us to sit down and actually put some 
performance measures, and then when you look at budgets, you 
can look at those performance measures and say what were the 
variances, why was it that you were not able to meet this, 
should it be at 90 percent, as the ranking member said the 
Senate is looking at? Should it be at 80 percent or should we 
be measuring this or should we be measuring this? And I think 
we ought to do that because otherwise we get caught up and, you 
know, they know the measures, we are the appropriators, we 
appropriate the money but we don't measure them and they have 
got those measures already, I know you do, but we don't see 
them.
    They will tell you go to a website or we will go to the 
office and sit down with you. I would like, with all due 
respect, I am just a freshman in this new committee, a rookie 
on this one, but I would like to eventually look at mission, 
objectives, the performance you want to look at, the results 
you want to look at, have a healthy debate, work with them, 
work with the OMB, and I am telling you the budget, instead of 
being a line item, will be a lot better and we can ask a lot 
more interesting questions because you actually will be looking 
at the performance.
    And we can have a debate amongst us, you know what, we 
shouldn't be measuring apprehensions only, we ought to look at 
threats and all that. I would like the committee to consider 
doing that, and I think it will be healthy because let me give 
you an example why I say this.
    Back, Chief Fisher, you remember a conversation we had a 
couple of years ago, there was a thousand new Border Patrol 
agents that we added. Half of them went to Arizona and you 
called it a mobile strike force so we could move them over. 
Well, in south Texas right now, as you know, the OTMs and you 
mentioned the OTMs about they are considered a little bit 
different, there is an increase of OTMs. I hear that they are 
moving more resources there, but you are taking them from other 
areas in the Laredo region and other areas, according to Border 
Patrol, and it might be different. It may be a union saying 
something different, but nevertheless, you know, what happened 
to that mobile strike force that you said you could move people 
immediately from Arizona over to south Texas?
    If we had performance measures, we could say, hey, you 
know, you need to move some of those resources up here. So I 
guess I don't have a question, but I really would ask the 
chairman and the ranking member to consider--it is very 
different because for years and hundreds of years we have been 
working at line items here in the Congress, but just imagine 
instead of having a line item, objectives, missions, 
performance measures, it will be very different. We would have 
a very, very different type of discussion.
    So, it is just my observation, and I look forward to 
working with the chairman and the ranking member and the other 
members of the committee.
    Mr. Carter. Thank you for your observations, Mr. Cuellar.
    Ms. Roybal-Allard.
    Ms. Roybal-Allard. No further questions. You were very 
generous. Thank you.
    Mr. Carter. Well, first of all, I want thank you all for 
being here, but before I give you my closing statement, I have 
got to point out this young lady to my right here is leaving us 
to go to the dark side. She is going over to be the minority 
clerk in the Senate for the Appropriations Subcommittee on 
Homeland Security, which is a big deal if it wasn't the Senate, 
but it is the Senate. But one must experience slow sometime in 
their life.
    We are really proud of Kathy. Kathy is a great resource. 
You all know that. You have dealt with her. She is one of the 
top staffers in this whole town. She will take care of the 
Upper Chamber. She might actually wake them up and get them 
going, and that would be great. The world's greatest 
deliberative body could maybe move a little faster, and that is 
your goal. I challenge you.
    Ms. Kraninger. Thank you, sir.
    Mr. Carter. Seriously, the Senate is going to gain a great 
young lady. We are going to lose a great young lady. We are 
going to have her come over here and visit us every once in a 
while because she is a true asset to this subcommittee and to 
the committee. So Kathy, we are going to miss you.
    Ms. Kraninger. Thank you.
    Mr. Carter. Now, gentlemen, I appreciate you being here 
today. We have challenges.
    You know, we talk about this--I happen to have a copy of 
the Senate bill right here that they are proposing. Well, I am 
not sure that is the bill, but it is something. But the truth 
is, there is a lot of--there has been--and I think the secret 
committee is no longer secret, and I think most everybody, at 
least around here, knows that I have been working on the secret 
committee on the House side for almost 4 years trying to come 
up with solutions for immigration, and we are seeing, the one 
thing we know is by doing polling and talking to and discussing 
what people want, they want us to have an effective immigration 
system that begins with a secure border. It has been that poll, 
it is a 90 percent poll issue. So it puts you in the hot seat, 
and that is why my colleague is discussing the 90 percent. It 
is a hot, hot seat at 90 percent. I think everybody would agree 
with that. But that seems to be the direction that any 
legislation is going to take. It is going to start in your 
camp, unfortunately.
    I say we have come a long, long way from where we started 
this back in 2002 and 2004. We have come a long, long way. 
Whether we are there or not is going to be--actually some of 
the things Cuellar was talking about is true. It is going to be 
a system that is going to be made, but the American public, 
they want to be very careful that we do not repeat 1986, that 
we will have promises of successes on the border that never 
occur and that another flood of illegal immigrants comes across 
after whatever form or fashion we handled the 11 to 20 million 
that may be in this country now.
    This is a big challenge. The Senate has done their best. 
The House is going to try to do their best, and this is not 
what they have written me to say, but I want you to know that 
you are on the hot seat, and quite honestly, if you have got 
ideas to share, share them and share them quickly.
    Off record. We are through talking right now. But if you 
have got issues, ways for us to have success to be pointed out, 
we need to know what they are, and you are the guys, you are 
the experts, you are in the trenches every day. Realistic. So 
the American people know they are safe. Worse thing that could 
have happened as we started this immigration debate is Boston, 
literally. We didn't need that. I mean, as tragic as it is, but 
from the standpoint of how much more pressure it puts upon 
those who are looking at immigration policy when we don't know 
yet whether this is a domestic or a foreign terrorist, but what 
does everybody presume it is, right? We know what they presume 
it is, another attack like 9/11.
    So, with all that, we are now once again on the front page, 
all of us in this business, and we have to make immigration 
enforcement. Again, if it had only been a national security 
issue, but it is again, we are elevated to the front page of 
every newspaper and every TV program in the news business in 
the country, and that puts a lot of responsibility on us and it 
puts a lot of responsibility on you.
    I have personal concerns about some of the things we do in 
our world that I don't believe in prosecutorial discretion as 
is being used by the Department right now. I believe that is an 
individual case, not an enforcement of categories of law 
situation, but that argument is for another time, but the 
pressure is putting on right now. My staff has learned that 
U.S. Citizenship and Immigration Services, USCIS, is facing 
massive increases in asylum claims, particularly in credible 
fear cases. In addition, due to deferred action cases, USCIS is 
building a backlog in processing its legitimate applications. 
The individuals who have been waiting patiently in line to do 
the right thing are now having to wait longer. So sometimes 
trying to do something causes consequences for other people, 
and that line is part of the discussion, those people waiting 
in line is part of the discussion of what is going to happen on 
immigration policy in the future, a very serious part of that 
discussion.
    There are great challenges ahead of us. I have confidence 
that we will work in a bipartisan manner to come up with 
solutions to immigration policy. I think we will do what you 
ask us to do, which is reduce the flow. If we could reduce the 
flow, you can increase the enforcement. That is logical. There 
are ways we can reduce the flow having to do with employment 
and other issues. I think everybody has that goal in mind, and 
I am hopeful and prayerful that in the next year we are going 
to see a really effective immigration policy be created in a 
bipartisan manner, and I will say thus far the only comment I 
can make about the group I am working with is it has been a 
rewarding experience as far as bipartisan work between the two 
parties.
    I hope it remains that way. So thank you for what you do. 
You couldn't have had a worse job, and all of a sudden the 
spotlight is back on you. So realize it is there. We appreciate 
what you do, and we will do everything within our power to 
maintain the security of this country through the 
appropriations process and try to get you those things that you 
may have shortfalls on. Somehow we will try to figure out how 
to come up with that. So we got a lot of work to do. Thank you 
for what you do. God bless you.
    [Questions for the record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                                

                                                                   Page
Abramson, Cathy..................................................   512
Alles, Randolph..................................................   663
Fisher, Michael..................................................   663
Hilton, Cynthia..................................................   517
Kelly, C.M.......................................................   818
McAleenan, Kevin.................................................   663
Napolitano, Hon. Janet...........................................     1
Papp, Admiral R.J., Jr...........................................   521
Walker, Jeffrey..................................................   507






                               I N D E X

                              ----------                              

                 DEPARTMENT OF HOMELAND SECURITY (DHS)

                                                                   Page
Alien Abuse and Deaths...........................................    76
Ammunition.......................................................    87
Arizona Border Surveillance Technology Plan......................    52
Beyond the Border................................................    69
Border Patrol Agents.............................................    86
Border Security:
    Alien Smuggling..............................................    63
    Immigration Reform...........................................    82
    Technology...................................................    78
Budget Cut Impacts:
    Coast Guard, Customs and Border Protection (CBP).............    51
    Overall......................................................    49
    Transportation Security Administration (TSA).................    62
CBP:
    Airport Staffing Levels......................................    78
    Aviation Staffing............................................    76
    Officers.....................................................    46
    Operational Costs............................................    45
Chemical Facility Anti-Terrorism Standards.......................    77
Community Leaders, Scheduled Meetings with.......................    85
Detainees, laws..................................................    73
Detention Beds:
    Number Requested.............................................    46
    Population...................................................    78
Disaster Relief Fund.............................................    87
Efficiencies and Streamlining....................................    56
Federal Emergency Management Agency Reimbursements...............    63
Federal Flight Deck Officer Program..............................    71
Government Performance and Results Act Report....................    55
Immigration and Customs Enforcement..............................    47
National Preparedness Grant Program..............................    80
Opening Statement: Secretary Napolitano..........................    18
Operation Streamline.............................................    84
Pay Systems, Differing...........................................    68
Personnel Costs: CBP, TSA........................................    70
Prison Rape Elimination Act......................................    75
Reimbursable Agreements:
    Airport Pilot Programs.......................................    53
    Canada.......................................................    69
    United Arab Emirates.........................................    54
Report, Coast Guard..............................................    80
Reports, Required................................................    46
Staffing Model: TSA..............................................    70
Transportation Worker Identification Credential..................    77
Vehicle Dismount and Exploitation Radar Systems..................    84

                    UNITED STATES COAST GUARD (USCG)

Acquisition, Construction, and Improvement.......................   542
Air Resources....................................................   548
Arctic Operations................................................   559
Bering Strait....................................................   560
Capital Investment Plan..........................................   541
Drug Interdiction................................................   541
Fast Response Cutters............................................   546
Future...........................................................   549
H-65, H-60 Helicopters...........................................   561
Icebreakers......................................................   558
Northwest Passage................................................   560
Offshore Patrol Cutter...........................................   550
Opening Statement: Commandant Papp...............................   529
Patrol Boats.....................................................   556
Priorities:
    After National Security Cutters..............................   557
    Unfunded.....................................................   548
Program Objectives, Measuring....................................   554
Rio Grande.......................................................   544
Sea State 5 Requirement..........................................   561
Sequestration....................................................   550
Training.........................................................   553
Vessels Deployed to Inland Waterways.............................   553

                U.S. CUSTOMS AND BORDER PROTECTION (CBP)

Air and Marine Operations, Recapitalization......................   718
Beyond the Border................................................   706
Border Patrol Station Closures...................................   715
Border Security:
    Apprehensions................................................   693
    Definition...................................................   692
    Effectiveness, Measuring.....................................   719
    Situational Awareness........................................   694
    Situational Awareness Tools..................................   695
    Effective Surveillance.......................................   722
Drones...........................................................   707
Foreign Language Awards Program..................................   709
Land Border, Air Ports-of-Entry Encounters.......................   714
Land Border Port-of-Entry Traffic................................   701
Mission-Support Personnel, Information Technology................   700
Nonintrusive Inspection, Radiological Detection Equipment........   700
Opening Statement: Acting Deputy Commissioner McAleenan..........   673
Operation Streamline.............................................   710
Reimbursable Agreements:
    Abu Dhabi....................................................   705
    Interest, Level of Other Locations...........................   704
    Other Locations..............................................   710
    Timetable....................................................   702
Sequestration Impact:
    Air and Marine Operations....................................   699
    Border Patrol Agent Staffing.................................   698
    Flexibility, Reduction in....................................   700
    Overall......................................................   696
Unmanned Aircraft................................................   703
Use-of-Force Policies............................................   713
Workload Staffing Model:
    Part-timers..................................................   705
    Ports-of-Entry Resources.....................................   701
    Staffing, Overall............................................   691

                                  <all>

</pre></body></html>
